<html>
<title> - NOMINATIONS OF JESSICA ROSENWORCEL AND AJIT PAI TO THE FEDERAL COMMUNICATIONS COMMISSION</title>
<body><pre>[Senate Hearing 112-480]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-480

                             NOMINATIONS OF
                    JESSICA ROSENWORCEL AND AJIT PAI
                TO THE FEDERAL COMMUNICATIONS COMMISSION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 30, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE

75-046 PDF               WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator












                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 30, 2011................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator DeMint......................................     3
Statement of Senator Kerry.......................................    32
Statement of Senator Blunt.......................................    37
    Prepared statement...........................................    37
Statement of Senator Toomey......................................    39
Statement of Senator Lautenberg..................................    40
Statement of Senator Klobuchar...................................    42
Statement of Senator Begich......................................    44
Statement of Senator Snowe.......................................    47
Statement of Senator Wicker......................................    49
Statement of Senator Thune.......................................    51

                               Witnesses

Hon. Pat Roberts, U.S. Senator from Kansas.......................     5
Hon. Jerry Moran, U.S. Senator from Kansas.......................     6
    Prepared statement...........................................
Jessica Rosenworcel, Nominee to be Commissioner, Federal 
  Communications Commission......................................     8
    Prepared statement...........................................     9
    Biographical information.....................................    10
Ajit Pai, Nominee to be Commissioner, Federal Communications 
  Commission.....................................................    15
    Prepared statement...........................................    18
    Biographical information.....................................    20

                                Appendix

Hon. Jim DeMint, U.S. Senator from South Carolina, prepared 
  statement......................................................    57
Response to written questions submitted to Jessica Rosenworcel 
  by:
    Hon. Maria Cantwell..........................................    58
    Hon. Claire McCaskill........................................    60
    Hon. Tom Udall...............................................    61
    Hon. Mark Warner.............................................    63
    Hon. Mark Begich.............................................    64
    Hon. Olympia J. Snowe........................................    66
    Hon. Jim DeMint..............................................    72
    Hon. Dean Heller.............................................    73
Response to written questions submitted to Ajit Pai by:
    Hon. Maria Cantwell..........................................    74
    Hon. Tom Udall...............................................    76
    Hon. Mark Warner.............................................    77
    Hon. Mark Begich.............................................    79
    Hon. Olympia J. Snowe........................................    80
    Hon. Jim DeMint..............................................    85
    Hon. Dean Heller.............................................    86

 
                   NOMINATIONS OF JESSICA ROSENWORCEL
                          AND AJIT PAI TO THE
                   FEDERAL COMMUNICATIONS COMMISSION

                              ----------                              


                      WEDNESDAY, NOVEMBER 30, 2011

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:38 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. Welcome. Senator Hutchison and I will give 
our statements and Senator Kerry will soon be here. Senator 
DeMint will have a statement.
    If others want to do it, we would encourage brevity because 
we have not only two very fine introducers, but we have the two 
candidates and a plethora of children.
    [Laughter.]
    Senator Hutchison. Who love speeches.
    The Chairman. Good afternoon, anyway. Welcome and 
congratulations to you both. I'm not talking about you two, I'm 
talking about them two.
    [Laughter.]
    The Chairman. Being a Commissioner at the Federal 
Communications Commission, I think, has to be one of the 
toughest and most cerebral jobs in Washington. Everybody in 
this room knows the incredible scope of the FCC, how much they 
are involved in so many ways. Actually their involvement in so 
many ways will prevent our nominees from having to answer some 
questions today about potential mergers, because they can't do 
that. So I just sort of make that clear. It's a very, very 
tough job and we have two candidates.
    I believe that Jessica Rosenworcel, the President's nominee 
to be FCC Commissioner, is up to the task, to say the very, 
very least. She currently serves as senior counsel for the U.S. 
Senate Subcommittee on Communications Technology. She is 
essential to all of us in both parties, and she has done that 
for us. She spent nearly 15 years working on communications 
issues, and I believe there is no better qualified person for 
this position. She has a lot of experience at the FCC.
    She has earned the respect of both Democrats and 
Republicans. She is very calm. She's brilliant, and she is very 
hard to defeat in an argument of any sort.
    [Laughter.]
    The Chairman. Those of you who have worked with Jessica 
know that she is meticulous, that she's sharp, and above all 
else she is professional.
    And joining her on the FCC, I hope, is Ajit Pai, an 
attorney, and like Jessica, has also worked at the FCC. He is a 
native of Parsons, Kansas.
    Now that makes a difference, not just to Pat Roberts and 
Senator Moran, but to me, because there is an automatic rural 
prejudice built into your DNA, and on telecommunications I like 
that a whole lot.
    This is very important to me and to the people of my state. 
Mr. Pai is a highly distinguished nominee with the experience 
and knowledge necessary to fill this post with distinction.
    Both of these nominees are very devoted public servants. 
They are very excellent people. Both have a background at the 
FCC, as I indicated, and then Congress and also in the private 
sector. So they have pretty much done it all.
    And that allows them to have a deep understanding of 
communications policy and the impact that it has on people 
around this country and in different parts of the country. That 
sensitivity cannot be simply picked out of the air.
    And I expect both nominees to focus on closing the digital 
divide that exists in our country and bring much needed 
expanded access to all Americans, including rural Americans, 
who currently are underserved.
    I am not going to make this lengthy, because I don't think 
we need to. I think you are both going to swim right home. I 
look forward to your testimony. I am very pleased that I can 
heartily support you both, and I hope we will do our work 
efficiently.
    I turn now to what I refer to as the Vice Chair of the 
Committee.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. And I am 
pleased that we are finally going to fill the two empty seats 
on the FCC, and I think that both of the nominees have the 
required experience.
    I will say that sometimes nominees come before us and for a 
variety of reasons they have been nominated, but I have never 
seen two who had the requisite experience that these two both 
have on the FCC, on the Senate staffs, understanding the 
processes of the Senate, and as well the FCC processes.
    So, that goes a long way. There is no question that we have 
some philosophical differences with certainly Ms. Rosenworcel, 
my differences with the Chairman as well on the subject of net 
neutrality, but also we have had common experiences on the 
broadband issue.
    Which I am pleased to say, Mr. Chairman, I think we are 
going to be able to have the broadband bill that we have worked 
so hard for, because it seems that the House is now going to 
value the public sector block D.
    And I think that is a great thing and due in large measure 
to you and the nominee today. So I am very appreciative of that 
philosophy that we do share.
    I do want to say that I have had disagreements with the FCC 
on the amount of regulation that they are doing. I believe if 
the communications laws are short of addressing policy issues, 
it is the responsibility of Congress to update the laws, and 
not the FCC's job to contort outdated statutes to fit the 
Commission's desire to impose new regulations.
    I think the overregulation that we are seeing is going to 
stifle innovation in the most dynamic sector of our economy 
today, which is the tech sector.
    So I am going to watch closely but I am certainly 
appreciative of the professionalism and the experience that we 
have in our nominees and certainly look forward to working with 
them going forward in the future.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Kerry is not here. Senator 
DeMint is.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman. Mr. Chairman, 
thank you for holding this important hearing today. I believe 
we have before us two well-qualified nominees to serve at the 
FCC and I hope and expect that we can move them through the 
full Senate before we break for the holidays.
    Before I make my comments about the nominees, though, I 
would like to make a brief request of you, Mr. Chairman, that 
the record for this hearing remain open for at least 1 week. We 
recently had the hearing for the FTC Chairman's renomination 
and that record was closed after 48 hours. I feel that decision 
was unnecessary and may yet prove to be a hindrance to 
completing the confirmation process.
    The Chairman. Unless I hear a lot of grumbling and shouting 
directly behind me, I am perfectly happy to grant that.
    Senator DeMint. Thank you, Mr. Chairman.
    The last few days and months have reminded us that the 
biggest threat to our economy is not a particular phone 
company, but an army of government lawyers and bureaucrats that 
create uncertainty. And the biggest threat to investment and 
innovation is not a private Internet service provider but a 
public agency hell-bent on over-regulating at any cost.
    Ms. Rosenworcel and Mr. Pai, I certainly hope you go on to 
the FCC with a mindset of humble public servants and not 
activist agents seeking to expand the authorities of the 
Commission and manipulate the marketplace to your preferred 
ends. And I don't think you will.
    We cannot predict the future, especially in the 
communications market. Unfortunately, our telecom laws and 
regulations presume that we can predict the future, and these 
laws and regulations are littered with policies that lock in 
paradigms that are now 15, 20, even 80 years old. Many of our 
current telecom policies are better suited for more static 
industry structures like railroads, aviation, and pipelines.
    We need to be moving toward a comprehensive update of our 
communications laws and regulations. If we simply continue the 
rigid structure we know today, we will not have the innovation, 
the investment, and the competition that we could have in this 
industry, and we won't see the subsequent jobs and growth in 
our broader economy.
    I have previously introduced, and plan to reintroduce, a 
Digital Age Communication Act as a template, an example of how 
we need to reform the regulatory structure. It is not an 
attempt to manage economic functions within a particular 
industry, but an attempt in effect to create a framework for 
freedom to thrive. Within that framework, if there is damage or 
harm done, or if there is anticompetitive activity going on, it 
gets addressed.
    What we have today is a structure that is complex, rigid, 
and expensive to navigate. In fact, it seems designed more to 
help particular companies and business models than actual 
competition. It creates a structure that forces private 
enterprise to conform rather than innovate. It creates 
uncertainty and benefits those with the most lawyers and 
lobbyists instead of encouraging innovators.
    Innovation and entrepreneurship flourish when we have 
people developing ideas for millions of consumers who can make 
their own individual decisions. And when we have competitors 
and millions of people making their own decision, that creates 
vibrant economies. That's what the American economy at its best 
is all about.
    But the American economy is in jeopardy today as we look at 
this expanding regulatory state. And that is why your roles at 
the FCC are going to be critically important during the next 
several years.
    Some people in this room see communications as a government 
utility, something the government should operate, something the 
government should manage. Some honestly believe the government 
can efficiently manage economic functions.
    History has proven many times that this is a false utopian 
dream. We simply cannot do it, particularly in a dynamic 
industry like communications.
    I hope you both help to move America back towards a free-
market economy. We must believe in the power of individual 
freedom and private enterprise to create a vibrant marketplace 
and improve the American economy.
    So, thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much, Senator DeMint. I would 
like to proceed to the introducers unless I hear a chorus of 
complaint.
    Senator Wicker. How about one? Oh, I'm sorry. Go ahead.
    [Laughter.]
    The Chairman. That is my ``go'' signal. We are very honored 
to have Senator Roberts here. He represents Kansas, as does 
Senator Moran, and they are going to colorfully, with 
distinction and eloquence, introduce one of our candidates.
    Please go ahead.

                STATEMENT OF HON. PAT ROBERTS, 
                    U.S. SENATOR FROM KANSAS

    Senator Roberts. All right, Mr. Chairman. I don't know if 
this is on. Mr. Chairman, can you hear me?
    The Chairman. Technology.
    Senator Roberts. Frank, can you hear me? Jim, can you hear 
me for the first time?
    [Laughter.]
    Senator Roberts. Mr. Chairman, Ranking Member Hutchison, 
and members of the Committee, my colleagues. This is a real 
privilege for me to introduce Ajit Pai, who is a native of my 
home state of Kansas--Parson, Kansas, America, for his 
nomination to be a member of the Federal Communications 
Commission.
    After meeting with Mr. Pai and examining his 
accomplishments, I think any of my colleagues who have had this 
opportunity would be hard pressed to find a more qualified 
candidate to fill this position.
    Now, stick with me, because I have the resume opportunity. 
My colleague and good friend, Jerry Moran, has the character 
part of this presentation. But in terms of the unprecedented 
accomplishments of this young man, stick with me here.
    His professional background both in government and the 
private sector has provided him with an expansive 
understanding, to say the least. Before starting his impressive 
career in telecommunications law, he earned his Bachelor of 
Arts from Harvard. He went on to receive his law degree at the 
University of Chicago, where he served as Editor of the 
school's law review.
    Then he completed a one-year clerkship upon graduation with 
U.S. District Judge Martin L.C. Feldman. After completing his 
Federal clerkship, Mr. Pai accepted a position as Trial 
Attorney with the U.S. Department of Justice Antitrust Division 
Task Force.
    Years later he would return to the Department of Justice, 
Office of Legal Policy, as Senior Counsel working on national 
security and judicial administration as well as communications.
    He also led the implementation of Executive Order--a rather 
famous one, 133-53, establishing the President's board on 
safeguarding Americans' civil liberties.
    He has also spent a significant time in the U.S. Senate as 
counsel on the Judiciary Committee, where he earned the 
reputation of being able to work with all staffers in a 
collegial manner, even if they were on the opposite side of the 
issue. Whatever he has in terms of talents in that respect 
maybe we could use a spoonful or two ourselves.
    In 2003 while on the Judiciary Committee, Mr. Pai served as 
the Deputy Chief Counsel for the Subcommittee on Administrative 
Oversight and the Courts, where he primarily served as Lead 
Counsel on constitutional and communications and antitrust 
issues.
    In 2005 he returned to the Senate Judiciary Committee as 
the Chief Counsel for the Subcommittee on Constitutional and 
Civil Rights, Property Rights, taking the lead on 
communications, Internet regulations and antitrust issues.
    He also has firsthand experience and understanding 
telecommunications from the industry perspective. That should 
be helpful, to say the least.
    From 2001 to 2003 he was Associate General Counsel for 
Verizon. His major accomplishments while working for Verizon 
including drafting the amicus brief to the Supreme Court in 
National Cable and Telecommunications Association v. Gold Power 
Company, and working with engineering and business teams to 
establish wireline broadband standard setting organization.
    He then went on to spend over 3 years working at the FCC, 
which I highlight because his work there undoubtedly provides 
him with the knowledge and experience necessary to be an 
effective Commissioner.
    From 2007 to 2011, he served as Associate General Counsel, 
Deputy General Counsel, and later Special Adviser to the 
General Counsel, where he was extensively involved in matters 
involving the Internet, cable, wireless and other FCC-related 
issues.
    Most notably, during his time at the FCC, he successfully 
argued before and prevailed in the U.S. Court of Appeals for 
the D.C. Circuit--no small accomplishment--in case of National 
Cable and Telecommunications Association v. The FCC.
    He is currently a partner at Jenner & Block, where he 
represents the communications industry. He is someone we are 
extremely proud to call a Kansan.
    And because of his background growing up in our state, he 
is sensitive to the importance of communications services for 
rural Americans, as the Chairman has pointed out the importance 
of that perspective.
    I am sure you can all agree after meeting personally with 
him as you prepared for this hearing, or in his capacity as a 
former staffer, that he has forward vision for the FCC and his 
very wide experience and understanding of the law will allow 
him to fairly and objectively carry out his duties as 
Commissioner.
    In closing, Mr. Chairman, he has done it all, and he has 
done it well. I cannot think of a more qualified person to 
serve as a Commissioner of the Federal Communications 
Commission, and I ask my colleagues to fully support his 
nomination.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Roberts. That is high 
praise.
    Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, and Ranking Member, thank you 
very much for the opportunity to join you here today. This is 
my first opportunity as a member of the U.S. Senate to serve 
the role of introducing. I am pleased to see that Chairman 
Rockefeller has complete control of his committee. I got 
seriously nervous that my opportunity was going to be short-
circuited when you asked if there was any opposition to hearing 
from either Senator Roberts or I, and glad that was not the 
case, because this is a real honor for me to introduce and to 
support Ajit Pai.
    Senator Roberts and I consider him a friend, and a fellow 
Kansan. He is the son of immigrants and his parents are here. 
Ajit is a humble and hard worker, just what you would expect 
from a native Kansan. He is the type of person that you would 
like to have as your neighbor.
    He is only the second Kansan to ever be nominated to serve 
on the Federal Communications Commission and the first since 
Bob Wells served on the Commission from 1969 to 1971.
    The issues before the FCC today are critically important to 
America's economic and global competitiveness. I don't know, in 
my 14 years in the House and now 10 months as a United States 
Senator, that there has ever been a time in which I have spent 
more effort at trying to determine what the FCC is doing and 
what it means to Kansans, to rural America, and to our country.
    These issues range from how we manage and promote the 
efficient use of spectrum resources, crafting policies that 
will expand broadband access to more Americans and connect more 
schools, more libraries and more hospitals.
    The FCC's decisions will help define how we encourage 
competition, promote innovation, create jobs and drive our 
economy into the future.
    In order to succeed, the Commission requires smart, 
talented policy leaders, leaders who respect free markets and 
understand the regulations should be balanced with pro-growth 
economic principles. Ajit Pai is one of those leaders.
    The FCC also needs Commissioners who are committed to the 
needs of all Americans including those who live in rural 
America, so it also can innovate and be competitive in 
marketplaces along with those who live in suburban and urban 
areas.
    A native of Parsons, Kansas, Ajit will bring an 
understanding of the challenges facing our part of the country 
at this vital time for the future of telecommunications. His 
broad range of legal and policy experience at the FCC, at the 
U.S. Senate on the Judiciary Committee, at the Department of 
Justice, and in the private sector will be tremendous assets as 
he seeks to balance the regulatory role of the FCC with the 
need to encourage competition and free-market principles.
    Ajit Pai is a public servant of the highest caliber and a 
man with the highest level of integrity and character. Senator 
Roberts and I are proud to recommend his swift and unanimous 
confirmation as a Commissioner of the FCC by the full Senate.
    I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator, very much. And that also 
constitutes very high praise. I thank both of you for your 
courtesy, not only to the nominee but to this committee. You 
were succinct, eloquent, and I emphasize succinct.
    [Laughter.]
    The Chairman. At this point, I would like to call Jessica 
Rosenworcel and Ajit Pai forward.
    And Ms. Rosenworcel, so I would ask you to speak first. 
Ajit Pai after that. I hope that you will both introduce family 
members and relatives or anybody that you might like sitting 
behind you.

 STATEMENT OF JESSICA ROSENWORCEL, NOMINEE TO BE COMMISSIONER, 
               FEDERAL COMMUNICATIONS COMMISSION

    Ms. Rosenworcel. Good afternoon, Chairman Rockefeller, 
Ranking Member Hutchison and the distinguished members of this 
Committee.
    Thank you for the opportunity to appear before you today as 
a nominee for Commissioner of the Federal Communications 
Commission. For nearly 5 years, I have had the privilege of 
serving this Committee as Senior Communications Counsel, so I 
am accustomed to these halls, this room, and the deliberations 
of this body, but I can assure you that sitting at this table 
today is a different experience altogether.
    I would like to start by introducing my family. Sitting 
behind me is my terrific husband of 11 years, Mark Bailen, and 
until very recently, sitting beside him, were our children 
Caroline Frances, age five and Emmett Joseph, age two.
    [Laughter.]
    Ms. Rosenworcel. Like the parents the world around, they 
are our pride and joy. And though they are not here today, I 
would also like to note my parents, Elliott and Willa 
Rosenworcel. They are at home in Hartford, Connecticut.
    I like to think that a commitment to public service runs in 
my family. My father served in the Air Force, going on to a 
career as a nephrologist in Hartford. For three decades, he 
also ran the city clinic for hypertension and kidney failure. 
My mother has spent the last two decades helping run a soup 
kitchen in Hartford. And my grandfather before them served in 
the United States Customs Service here in Washington. My great 
grandfather before that served the public in a different way--
he swept the streets of New York.
    It is a great honor to have been nominated by President 
Obama to serve as a Commissioner on the Federal Communications 
Commission.
    Communications technologies are a source of tremendous 
opportunity. They support our commerce, they connect our 
communities, and they enhance our security. They help create 
good jobs.
    And by unlocking the full potential of broadband, we will 
alter the way we educate, create, entertain and govern 
ourselves. This reminds us of the great sweep of FCC authority 
and its impact on what every American reads, sees, and hears.
    But communications technology is changing at a brisk pace. 
Laws and regulations struggle to keep up. The challenge for the 
FCC is identifying how to inspire the best in communications in 
a world where change is a constant and innovation can invert 
what we think we know.
    In approaching this challenge, I believe a little humility 
helps.
    At the same time, it's absolutely essential that the FCC 
honor the values that are at the core of the Communications 
Act.
    That means the safety of our people is paramount. New 
communications technologies should facilitate our security and 
promote the safety of life and property.
    That means universal service, no matter who you are or 
where you live in this country, you should have access to 
first-rate communications service. To prosper in the twenty-
first century, all of our communities, urban, rural and 
everything in-between, need this access. Our communications 
networks and the access they provide should be the envy of the 
world.
    This means competitive markets. They are the most effective 
means of facilitating innovation and ensuring the public reaps 
its benefits.
    This means a fierce commitment to consumer protection. 
Communications technology and media are growing more complex. 
It is vitally important to get consumers the information they 
need to make good choices. We should strive too to help parents 
and families navigate the bewildering digital world of media 
and communications.
    These values derive from the law. If confirmed, they will 
inform my efforts going forward.
    If confirmed, it will be an honor to continue to work with 
the Members of this Committee. I pledge to listen to you, the 
Congress, those with business before the FCC, and above all, 
the American people.
    If confirmed, it will be an honor to work with the talented 
members of the Commission today: Chairman Genachowski, 
Commissioner McDowell and Commissioner Clyburn. Though I have 
only recently made his acquaintance, if confirmed I believe it 
will also be a pleasure to work with the individual sitting 
next to me today, Mr. Pai.
    Finally, I believe the FCC is blessed to have a staff of 
uncommon skill. If confirmed, I know it will be a pleasure to 
work with them day-in and day-out.
    In closing, Chairman Rockefeller and members of the 
Committee, thank you again for the opportunity to appear before 
you today. I look forward to answering your questions.
    [The prepared statement and biographical information of Ms. 
Rosenworcel follow:]

Prepared Statement of Jessica Rosenworcel, Nominee to be Commissioner, 
                   Federal Communications Commission
    Good afternoon, Chairman Rockefeller, Ranking Member Hutchison, and 
the distinguished members of the Committee.
    Thank you for the opportunity to appear before you today as a 
nominee for Commissioner of the Federal Communications Commission. For 
nearly five years, I have had the privilege of serving this Committee 
as Senior Communications Counsel. So I am accustomed to these halls, 
this room, and the deliberations of this body. But I can assure you 
that sitting at this table today is a different experience altogether.
    I would like to start by introducing my family. Sitting behind me 
is my terrific husband of eleven years, Mark Bailen. Sitting beside him 
are our children, Caroline Frances, age five, and Emmett Joseph, age 
two. Like parents the world round, they are our pride and joy.
    Though they are not here today, I also would like to note my 
parents, Elliott and Willa Rosenworcel. They are at home in Hartford, 
Connecticut.
    I like to think that a commitment to public service runs in my 
family. My father served in the Air Force, before going on to a career 
as a nephrologist in Hartford. For three decades he also ran the city 
clinic for hypertension and kidney failure. My mother has spent the 
last two decades helping run a soup kitchen in Hartford. My grandfather 
before them served in the United States Customs Service here in 
Washington. My great grandfather before that served the public in 
another way-he swept the streets of New York.
    It is a great honor to have been nominated by President Obama to 
serve as a Commissioner on the Federal Communications Commission.
    Communications technologies are a source of tremendous opportunity. 
They support our commerce, they connect our communities, and they 
enhance our security. They help create good jobs. And by unlocking the 
full potential of broadband, we will alter the way we educate, create, 
entertain, and govern ourselves. This reminds us of the great sweep of 
FCC authority, and its impact on what every American reads, sees, and 
hears.
    But communications technology is changing at a brisk pace. Laws and 
regulations struggle to keep up. The challenge for the FCC is 
identifying how to inspire the best in communications in a world where 
change is a constant and innovation can invert what we think we know.
    In approaching this challenge, I believe that a little humility 
helps.
    At the same time, it is absolutely essential that the FCC honor the 
values that are at the core of the Communications Act.
    This means that the safety of our people is paramount. New 
communications technologies should facilitate our security and promote 
the safety of life and property.
    This means universal service. No matter who you are or where you 
live in this country, you should have access to first-rate 
communications service. To prosper in the 2151 century, all of our 
communities-urban, rural, and everything in between-need this access. 
Our communications networks, and the access they provide, should be the 
envy of the world.
    This means competitive markets. They are the most effective means 
of facilitating innovation and ensuring the public reaps its benefits.
    This means a fierce commitment to consumer protection. 
Communications technology and media are growing more complex. It is 
vitally important to get consumers the information they need to make 
good choices. We should strive, too, to help parents and families 
navigate the bewildering new digital world of media and communications.
    These values derive from the law. If confirmed, they will inform my 
efforts going forward.
    If confirmed, it will be an honor to continue to work with the 
members of this Committee. I pledge to listen to you, the Congress, 
those with business before the FCC-and above all, the American people.
    If confirmed, it will be an honor to work with the talented members 
of the Commission: Chairman Genachowski, Commissioner McDowell, and 
Commissioner Clyburn. Though I have only recently made his 
acquaintance, if confirmed, I believe it also will be a pleasure to 
work with the individual sitting next to me today, Mr. Pai.
    Finally, I believe that the FCC is blessed to have a staff of 
uncommon skill. If confirmed, I know it will be a pleasure to work with 
them day in, and day out.
    In closing, Chairman Rockefeller and members of the Committee, 
thank you again for the opportunity to appear before you today. I look 
forward to answering your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Jessica 
Rosenworcel.
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: November 1, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Hart Senate Office Building, Room 428, Washington, DC 
        20510.

    5. Date and Place of Birth: 7/12/71; Boston, Massachusetts.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Mark Bailen, Partner at Baker & Hostetler.
        Children: Caroline Bailen (5); Emmett Bailen (2).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Wesleyan University, BA, 1993.
        New York University School of Law, JD, 1997.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Senior Communications Counsel, U.S. Senate, Committee on 
        Commerce, Science and Transportation.

        Senior Legal Advisor, Office of Commissioner Michael J. Copps, 
        Federal Communications Commission.

        Legal Advisor, Office of Commissioner Michael J. Copps, Federal 
        Communications Commission.

        Legal Advisor to the Bureau Chief, Wireline Competition Bureau, 
        Federal Communications Commission.

    Attorney-Advisor, Wireline Competition Bureau, Federal 
Communications Commission.

        Attorney, Drinker Biddle & Reath.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Federal Communications Bar Association
        Chair, Cable Practice Committee (2007-2008)
        Chair, Legislative Practice Committee (2009)

    13.Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    $1,000 Donation to Barack Obama Campaign in 2008.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        White Prize for Excellence in Economics (Wesleyan University)
        Special Act Award for Contributions to Common Carrier Bureau 
        (Federal Communications Commission)

    16.Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I co-authored the following article:

        ``Assessing the Effectiveness of Section 271 Five Years After 
        the Telecommunications Act of 1996,'' Jessica Rosenworcel & 
        Daniel Shiman, Chapter 7, Communications Policy and Information 
        Technology: Promises, Problems, Prospects, MIT Press (2002).

    As Senior Communications Counsel at the U.S. Senate Committee on 
Commerce, Science, and Transportation, I have spoken on panels at a 
variety of events, including the following:

        May 27, 2010 Panel on ``The FCC's Authority Over Broadband 
        Access,'' sponsored by the Berkman Center for Internet & 
        Society and the Wharton School, Washington, D.C.

        March 2, 2010 Panel on legislative issues at the ''National 
        Association of Broadcasters State Leadership Conference,'' 
        Washington, D.C.

        May 14, 2009 Panel on ``Changing Media: Thinking Across the 
        Issues, Part 2,'' sponsored by the James L. Knight Foundation 
        and Free Press, Washington, D.C.

        March 31, 2009 Panel on legislative issues at the ''National 
        Association of Broadcasters State Leadership Conference,'' 
        Washington, D.C.

        April 2, 2009 Panel on Congressional issues at ``The Cable 
        Show,'' sponsored by the National Cable and Telecommunications 
        Association, Washington, D.C.

        February 29, 2009 Panel on ``Implementing the Broadband 
        Stimulus: Maximizing Benefits and Monitoring Performance,'' 
        sponsored by Columbia University Institute for Tele-Information 
        and Georgetown University McDonough Business School, 
        Washington, D.C.

        January 5, 2009 Panel on ``The Future of the FCC as an 
        Institution,'' sponsored by the University of Colorado Silicon 
        Flatirons and Public Knowledge, Washington, D.C.

        September 23, 2008 Panel on communications issues at policy 
        conference sponsored by the Association for Maximum Service 
        Television, Washington, D.C.

        March 13, 2008 Panel on digital television transition issues at 
        National League of Cities Congressional Conference, Washington, 
        D.C.

        March 5, 2008 Panel on emergency communications at policy 
        conference sponsored by the E-911 Institute, Arlington, VA.

        January 28, 2008 Panel on Congressional issues at ``Alaska 
        Telephone Association Winter Convention,'' Lihue, HI.

        September 17, 2007 Panel on Congressional issues at ``Future of 
        Music Policy Summit,'' Washington, D.C.

        June 8, 2007 Panel on communications issues at ``Pike and 
        Fisher's Broadband Policy Summit,'' Arlington, VA.

    As an employee of the Federal Communications Commission, I spoke on 
panels at a variety of events, including the following:

        April 5, 2005 Panel on ``Consenting Advisors: The FCC Legal 
        Experts,'' at ``The National Show,'' sponsored by the National 
        Cable and Telecommunications Association, Las Vegas, NV.

        January 17, 2005 Panel on ``The State of Regulation: A Preview 
        of Key Issues Facing Commissions in 2005,'' sponsored by the 
        National Regulatory Research Institute, New Orleans, LA.

        October 19, 2004, Panel on communications issues at ``VON 
        Telecom Policy Summit,'' Boston, MA.

        October 11, 2004 Panel on communications issues at United 
        States Telecommunications Association conference, Las Vegas, 
        NV.

        January 29, 2004 Panel on communications issues at National 
        Consumer League roundtable, Washington, D.C.

        December 4, 2003 Panel on communications issues at ALTS 
        Business and Policy Conference, Washington, D.C.

        October 28, 2003 Panel on Online Communications Practice 
        Committee, sponsored by the Federal Communications Bar 
        Association, Washington, D.C.

        December 11, 2000 Panel on communications issues at ``DSL 
        Summit,'' La Quinta, CA.

    17.Please identify each instance in which you have testified orally 
or in writing before Congress in a governmental or non-governmental 
capacity and specify the date and subject matter of each testimony: 
None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have nearly a decade and half of experience in communications 
policy. I have worked on communications matters from a wide variety of 
positions in both the private and public sector. Specifically, I have 
worked at a law firm, as an advisor at the Federal Communications 
Commission, and on Capitol Hill as Senior Communications Counsel at the 
Senate Committee on Commerce, Science, and Transportation.
    I believe that this range of experiences is unique. They provide 
the substantive knowledge and practical savvy that help make an 
effective Commissioner.
    I wish to serve in this position because I believe I can use my 
background to make a positive contribution to communications policy-
protecting consumers, promoting access to new services, and fostering 
investment and innovation.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    All government officials operate in positions of trust and have a 
duty to ensure that the organization where they work has proper 
management and accounting controls.
    I have experience managing rulemaking proceedings at the Federal 
Communications Commission, and managing the office of a Commissioner.
    20.What do you believe to be the top three challenges facing the 
department/agency, and why?
    Protecting consumers. As technologies evolve, one thing is 
paramount consumers should be the ultimate beneficiaries of policy 
choices by the Federal Communications Commission.
    Securing access. As technologies evolve, it is imperative that all 
people in this country, no matter who they are or where they live, have 
access to the communications services that are necessary for 21st 
century opportunity, safety, and economic security.
    Growing economy. Digital services are being a more and more 
important feature of our economy. Providing certainty to companies is 
an essential part of promoting investment, fostering innovation, and 
creating jobs.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    None. My financial interests are disclosed on SF-278.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    None. My husband is a partner at the law firm Baker & Hostetler. 
His practice involves commercial litigation and does not include 
advocacy before the Federal Communications Commission.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I served in a variety of positions at the Federal Communications 
Commission and in these capacities worked on regulatory matters that 
involved communications policy.
    I presently serve as Senior Communications Counsel at the Senate 
Committee on Commerce, Science, and Transportation. In this capacity, I 
regularly advise Senate offices on communications policy and 
legislation.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In the unlikely event that conflicts of interest arise, I will 
resolve them by contacting the agency's Designated Agency Ethics 
Official. I will follow his guidance, as well as the advice of other 
ethics officials in the FCC's Office of General Counsel, to ensure that 
I am in compliance with all ethics laws, regulations and policies 
applicable to employees of the Executive Branch.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain ;No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of jessica rosenworcel
Legal and Policy Experience
United States Senate
Committee on Commerce, Science, and Transportation, Washington, D.C.
    Senior Communications Counsel, 2009-Present
        Develop and implement communications policy agenda for the 
        Democratic members of the Committee on Commerce, Science and 
        Transportation, under the leadership of Senator Jay Rockefeller 
        (D-West Virginia). Organize hearings regarding the National 
        Broadband Plan, universal service and rural communications, 
        Children's Television Act, future of journalism, wireless 
        service, communications accessibility for the disabled, 
        retransmission consent for video programming, satellite 
        television, public safety spectrum and oversight of the Federal 
        Communications Commission and National Telecommunications and 
        Information Administration. Develop and work to secure passage 
        of legislation, including the Broadband Technology 
        Opportunities Program in the American Recovery and Reinvestment 
        Act, DTV Delay Act, Satellite Television Extension and Localism 
        Act, 21st Century Communications and Video Accessibility Act 
        and Public Safety Spectrum and Wireless Innovation Act.

    Senior Communications Counsel, 2007-2008
        Developed and implemented communications policy agenda for the 
        Democratic members of the Committee on Commerce, Science and 
        Transportation, under the leadership of Senator Daniel K. 
        Inouye (D-Hawaii). Organized hearings regarding the digital 
        television transition, broadband deployment and adoption, 
        universal service, media ownership, media violence and 
        indecency, network neutrality, online privacy and oversight of 
        the Federal Communications Commission and National 
        Telecommunications and Information Administration. Developed 
        and worked to secure passage of legislation, including the 
        Broadband Data Improvement Act, Child Safe Viewing Act, and New 
        and Emerging Technologies 911 Improvement Act.
Federal Communications Commission, Washington, D.C.
    Senior Legal Advisor to Commissioner Michael J. Copps, 2006-2007
        Advised Senior Democratic Commissioner on television, radio and 
        cable policy issues arising under the Communications Act and 
        Cable Television and Consumer Protection Act. Developed office 
        positions and strategy for advancing telecommunications, 
        Internet, wireless and media policy priorities. Managed office 
        staff. Provided legal analysis and voting recommendations for 
        Commission decisions. Drafted speeches, editorials and press 
        statements. Coordinated policy decisions with Congressional 
        offices, state and local officials and industry 
        representatives.

    Legal Advisor to Commissioner Michael J. Copps, 2003-2006
        Advised Senior Democratic Commissioner on competition policy 
        and universal service issues arising under the 
        Telecommunications Act. Developed policy positions on broadband 
        deployment, Internet access, rural communications, public 
        safety networks, E-Rate and VoIP. Provided legal analysis and 
        voting recommendations for Commission decisions. Drafted Senate 
        testimony, speeches and press statements. Coordinated policy 
        decisions with Congressional offices and state regulatory 
        authorities.

    Legal Counsel to Bureau Chief, Wireline Competition Bureau, 2002-
2003
        Advised Bureau Chief on universal service and broadband policy. 
        Coordinated wireline policy with Wireless Telecommunications 
        Bureau, Cable Services Bureau and International Bureau. Taught 
        World Bank telecommunications workshops for the Economic 
        Ministry of Latvia.

    Attorney Advisor, Policy Division, Common Carrier Bureau, 1999-2002
        Managed teams drafting decisions concerning broadband 
        deployment and competitive entry into local and long distance 
        markets. Recipient of Special Act Award for policy 
        contributions to the Common Carrier Bureau in 2000.
Drinker Biddle & Reath, Washington, D.C.
    Communications Associate, 1997-1999
        Drafted merger documents for privatization of state-owned 
        telephone company. Prepared Bureau of Export Administration 
        license application for cable modem encryption technology.
Reboul, MacMurray, Hewitt, Maynard & Kristol, New York, NY
    Summer Associate, 1996
        Drafted securities purchase agreements for venture capital and 
        buyout firm transactions.
United States Attorney's Office, Brooklyn, NY
    Summer Fellow, Criminal Division, 1995
        Researched and drafted motions on issues of evidence, criminal 
        law and criminal procedure.
Skadden, Arps, Slate, Meagher & Flom, New York, NY
    Legal Assistant, 1993-1994
        Managed litigation documents.
Education
        New York University School Of Law, New York, NY--JD, 1997
        Honors: Annual Survey of American Law, Editor

        Wesleyan University, Middletown, CT--BA, Economics and English, 
        1993
        Honors: White Prize for Excellence in Economics
Publication
        ``Assessing the Effectiveness of Section 271 Five Years After 
        the Telecommunications Act of 1996,'' Jessica Rosenworcel & 
        Daniel R. Shiman, Chapter 7, Communications Policy and 
        Information Technology: Promises, Problems, Prospects, MIT 
        Press, 2002.
Bar Association Activity
        Chair, Cable Practice Committee, Federal Communications Bar 
        Association, 2007-2008
        Chair, Legislative Practice Committee, Federal Communications 
        Bar Association, 2009

    The Chairman. Thank you, Ms. Rosenworcel. These are huge 
nominations and they have vast effect on the future of our 
country, for better or for worse.
    I think it is hard to overstate the importance of the 
Federal Communications Commission and its reach. So I want that 
very clearly understood.
    Mr. Pai, I would welcome your statement.

   STATEMENT OF AJIT PAI, NOMINEE FOR COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Pai. Thank you, Mr. Chairman. Chairman Rockefeller, 
Ranking Member Hutchison, members of the Committee. Thank you 
very much for giving me the opportunity to appear before you 
today. I appreciate as well the many courtesies you have 
extended to me during this process. I have enjoyed my meetings 
with you and your staff. And if confirmed, I look forward to 
continuing that productive dialogue as well as serving with my 
distinguished counterpart, Ms. Rosenworcel.
    I also would like to thank Senators Roberts and Moran for 
their very kind introductions. Their support of me has been as 
gracious as their service on behalf of the people of Kansas has 
been outstanding.
    Last but certainly not least, I would like to thank the 
President for nominating me. I am deeply humbled by the honor. 
And if confirmed by the Senate, I will do my best to be worthy 
of the privilege of serving the American public in this 
capacity.
    With the Committee's indulgence, I would like to introduce 
the members of my family who are in attendance. This might take 
awhile, hence the word ``indulgence.'' Supporting me today and 
all days is my wonderful wife, Janine. My son, who has 
absconded for reasons--well, he wanted to make a contribution 
to the record, unfortunately. Alexander, who just turned 3 
months old this past----
    The Chairman. Can I ask if those who you identify if they 
at least raise their hands?
    [Laughter.]
    The Chairman. Thank you.
    Mr. Pai. My parents, Radha and Varadaraj Pai. My mother-in-
law and father-in-law, Marianne and Bob Van Lancker. My 
brother-in-law, Bob Van Lancker. My cousin Dinesh Pai and his 
mother, Meera Pai. My cousin Vaishali Kamath and her husband 
Praveen, and members of my extended in-law family, Jan and Rod 
Gaumer, Deborah Nicholson, who took my son Alexander outside 
the room, and Agnes Butsko, who is probably the most 
technologically savvy one of us at 80-something years of age.
    I also wish to remember on this day, my late grandparents. 
They never could have imagined that their sacrifices and the 
sacrifices of their children would have culminated in this 
proceeding worlds and a century away.
    As my introducers pointed out, I am the child of 
immigrants. My parents came to the United States from India 
exactly 40 years ago, with about ten dollars in their pockets 
and a willingness to work very hard and a belief in the 
American Dream. They settled in Parsons, Kansas in the late 
1970s.
    Just to give you a sense of the geographic scope of the 
place, Parsons is a town of about 10,000 people, approximately 
150 miles south of Kansas City. After settling in Parsons, my 
parents began serving the community as doctors at the county 
hospital. They still work there to this day.
    I can say that I am glad I grew up in rural Kansas. The 
friends I made and the experiences I had gave me valuable 
perspective on life. And as I grow older I find that I 
appreciate that perspective ever more.
    Now, as a child in rural Kansas, I remember that it was 
expensive to make long distance calls using our bulky 
telephone, especially to relatives abroad. So our conversations 
tended to be efficient more than expansive. I recall also that 
we only could choose among three channels on the manual dial of 
our television.
    Now cable television was unavailable to us at that time, 
but we did eventually have a satellite dish installed in our 
backyard. The dish was approximately ten feet across and with 
it we could watch non-broadcast programming if we typed in the 
channel coordinates into a set-top box and then waited a minute 
or two for the satellite dish to reposition itself.
    In sum, the products and services offered by the 
communications industry, at least from my youthful vantage 
point, were rather limited.
    Suffice it to say of today's communications landscape that 
we are not in the Kansas of my childhood anymore. Today we see 
convergence as cable, telephone, satellite and wireless 
companies compete against each other to provide traditional and 
novel services.
    We see an explosion in content and the development of ever 
new ways and faster ways for people anywhere in the world to 
access that content. And we see personal communications devices 
that are as powerful if not more powerful than computers that 
once filled up an entire room.
    Now, I believe that these developments have made our lives 
better, richer and in some cases even longer. And for this the 
private sector deserves the lion's share of the credit. After 
all, private companies and entrepreneurs took risks, they 
raised and invested capital, they brought new products and 
services to the marketplace, and they employed millions of 
people along the way.
    But I think it is also important to recognize the role that 
the Federal Communications Commission, the Nation's premier 
communications agency, has played in this technological 
revolution.
    When it prioritizes competition and innovation, the FCC 
allows the private sector to deliver to the American public 
rapid, efficient nationwide communications services at 
reasonable prices, precisely the charge that Congress gave the 
Agency in the first section of the Communications Act of 1934.
    Now, speaking of 1934, a prominent national newspaper that 
year profiled the very first Commissioners to be appointed to 
the FCC. The title of the article referred to them as--and I 
quote--``Rulers of the Air.''
    Now were I fortunate to be confirmed to the same position, 
my ambition would be far more modest. I would not bring an 
ideological mission to the Agency. I would hold no favor for or 
prejudice against any company, segment of the industry, or 
technology.
    Instead, on each matter, my approach would be the same. I 
would review the record closely. I would stay within the bounds 
of the Commission's authority as set by Congress, and I would 
work collegially with the Chairman, my fellow Commissioners and 
Agency staff to come up with solutions carefully calibrated to 
solve common problems.
    Now I want to say as well that my decisionmaking process 
would incorporate and reflect a respect for others outside of 
the Agency. For example, I would seek to build a collaborative 
relationship with Congress, including the Members and staff of 
this Committee. Similarly, I would consult as appropriate with 
the private sector, Executive Branch agencies, state and local 
governments, consumer groups, and others impacted by the 
Commission's agenda.
    I believe a good Commissioner must be a good listener. If I 
am fortunate to be confirmed, I will do my best to hear what 
all stakeholders have to say. In discharging my 
responsibilities, I always would be mindful of the implicit 
goal of communications policy to maximize the benefits of 
competition and innovation for all American consumers, whether 
they live in a big city or in rural Kansas. Or to put it in 
more personal terms, to enable my son, when he is my age, to 
marvel at how far communications services have come in his 
lifetime.
    Chairman Rockefeller, Ranking Member Hutchison, members of 
the Committee, thank you once again for giving us this 
opportunity. I look forward to your questions and I request 
that my full statement be made a part of the record.
    [The prepared statement and biographical information of Mr. 
Pai follow:]

      Prepared Statement of Ajit Pai, Nominee to be Commissioner, 
                   Federal Communications Commission.
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you for giving me the opportunity to appear before you 
today. I am grateful to you for taking the time out of your busy 
schedules to consider my nomination to the Federal Communications 
Commission. I appreciate as well the many courtesies you have extended 
to me during this process. I have enjoyed my meetings with you and your 
staff, and if I am fortunate enough to be confirmed, I look forward to 
continuing our productive dialogue.
    I also would like to thank Senators Roberts and Moran for their 
very kind introductions. Their support has been as gracious as their 
service on behalf of the people of Kansas has been outstanding.
    Last but certainly not least, I would like to thank the President 
for nominating me. I am humbled by the honor. If confirmed by the 
Senate, I will do my best to be worthy of the privilege of serving the 
American public in this capacity.
    With the Committee's indulgence, I would like to introduce members 
of my family who are in attendance. Supporting me today and all days 
are my wonderful wife, Janine; my son, Alexander, who turned three 
months old this past weekend; my mother and father, Radha and Varadaraj 
Pai; my mother-in-law and father-in-law, Marianne and Bob Van Lancker; 
my brother-in-law, Bob Van Lancker; my cousin, Dinesh Pai, and his 
mother, Meera Pai; my cousin, Vaishali Kamath, and her husband, 
Praveen; and members of my extended in-law family, Janet and Rod 
Gaumer,
    Deborah Nicholson, and Agnes Butsko, the last of whom may well be 
the most technologically savvy of all of us at eighty-something years 
of age. I also wish to remember my late grandparents, who never could 
have imagined that their sacrifices and those of their children would 
culminate in this proceeding, a world and a century away.
    As my last comment suggests, I am the child of immigrants. My 
parents came to the United States from India exactly 40 years ago with 
about $10 in their pockets, a willingness to work hard, and a strong 
belief in the American dream. In the late 1970s, they moved to Parsons, 
Kansas. Parsons is a town of about 10,000 people located approximately 
150 miles south of Kansas City. After settling in Parsons, my parents 
began serving the community as doctors at the county hospital. They 
still work there today. My sister, Sheila, and I received quality 
educations in the local public schools. I am glad I grew up in rural 
Kansas. The friends I made and the experiences I had gave me a valuable 
perspective on life, and I have grown to appreciate that perspective 
ever more as I get older.
    As a child, I remember having a bulky telephone, which was 
connected by a thick wire to a jack in the wall. It was expensive to 
make long-distance calls, especially to relatives abroad, so our 
conversations were efficient rather than expansive. I recall that we 
only could choose among three channels on the manual dial of our 
television. Cable television was not available, but we ultimately got a 
satellite dish installed in our back yard. The dish was approximately 
10 feet across. With it, we could watch non-broadcast programming if we 
typed the channel coordinates into a set-top box and waited a minute or 
two for the satellite to reposition itself. We had ready access to just 
two newspapers: the local daily, which usually covered national news 
with snippets from wire reports, and a paper devoted to agricultural 
issues. In sum, the products and services offered by the communications 
industry, as far as I could tell from my youthful vantage point, were 
rather limited.
    Suffice it to say of today's communications landscape that we are 
not in the Kansas of my childhood anymore. We see convergence as cable, 
telephone, satellite, and wireless companies compete against each other 
to provide traditional and novel services. We see an explosion in 
content, and the development of new and faster ways for people anywhere 
in the world to access that content. We see personal communications 
devices that are more powerful than computers that once filled up a 
room.
    Perhaps the best concrete example of innovation in communications 
is the smartphone that I routinely carry in my pocket. On this one 
platform, I have watched videos of television shows, read not just 
articles from various national newspapers but entire books, and 
listened to radio stations from across the country. The device also has 
allowed me to do things that either didn't exist back when I was a 
child or have nothing necessarily to do with communications. For 
instance, I have e-mailed and sent text messages to my friends and 
family. I have taken pictures and created videos of my son, and 
immediately have shared them with people as far away as Australia. I 
have navigated the roadways, bought airline tickets, made restaurant 
reservations, and even installed a cabinet using an application that 
turns the device into a leveler. I--and perhaps you too--usually take 
functionalities like this for granted.
    But can you imagine my reaction had I been handed this device three 
decades ago? I and most Americans surely would have been astonished by 
the full range of communications technologies that consumers enjoy 
today. These technologies have made our lives better, richer, and in 
some cases, even longer. For this, the private sector deserves the 
lion's share of the credit. After all, companies and entrepreneurs took 
risks. They raised and invested capital. They brought new products and 
services to market. And they created millions of jobs along the way. 
But it also is important to recognize the role that the Nation's 
premier communications agency, the Federal Communications Commission, 
has played in this technological revolution. When it has prioritized 
competition and innovation, the FCC has allowed the private sector to 
deliver to the American people rapid, efficient, nationwide 
communications services at reasonable prices--the very charge Congress 
gave the agency in the first section of the Communications Act of 1934.
    Speaking of 1934, a prominent national newspaper that year profiled 
the very first Commissioners to be appointed to the FCC. The title of 
the article referred to them as ``Rulers of the Air.'' Were I fortunate 
to be confirmed to the same position, my ambition would be far more 
modest. I would not bring an ideological mission to the agency. I would 
hold no favor for or prejudice against any particular company, segment 
of the industry, or technology. On each matter presented to the full 
Commission, my approach would be the same. I would study the record 
closely. I would stay within the boundaries of the Commission's 
authority, as set forth by Congress. And I would work collegially with 
the Chairman, my fellow Commissioners, and agency staff to come up with 
solutions carefully calibrated to solve problems. My aim would be to 
help the FCC establish a regulatory framework that enables the 
communications sector to achieve even greater heights.
    My decisionmaking process also would reflect a respect for those 
outside the agency with an important interest in the FCC's work. I 
would seek to build a collaborative relationship with Congress, 
including the members and staff of this Committee. Having worked in the 
Senate, I will bring to the Commission a firsthand understanding of and 
appreciation for congressional prerogatives. Similarly, I would consult 
as appropriate with the private sector, Executive Branch agencies, 
consumer groups, state and local governments, and others impacted by 
the Commission's agenda. A good Commissioner must be a good listener, 
and if confirmed, I will do my best to make sure that I hear what all 
stakeholders have to say.
    In discharging my responsibilities, I always would be mindful of 
the implicit goal of communications policy: to maximize the benefits of 
competition and innovation for all American consumers, whether they 
live in a big city or rural Kansas. Or to put it in more personal 
terms: to enable my son to marvel, when he is my age, at just how far 
communications services have come in his lifetime.
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, thank you once again for affording me an opportunity to 
testify today. I look forward to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Ajit 
Varadaraj Pai.
    2. Position to which nominated: Member, Federal Communications 
Commission (FCC).
    3. Date of Nomination: November 1, 2011.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Jenner & Block LLP, 1099 New York Avenue, N.W., Suite 
        900, Washington, D.C. 20001-4412.

    5. Date and Place of Birth: January 10, 1973; Buffalo, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Janine Van Lancker, Assistant Professor of Medicine, 
        Allergy and Sinus Center, Medical Faculty Associates, George 
        Washington University Medical Center, 2150 Pennsylvania Avenue, 
        N.W. Washington, D.C. 20037-3201.

        Child: Alexander Madhav Pai, born August 26, 2011.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Harvard University, B.A. (1994)
        University of Chicago, J.D. (1997)

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
Post-Undergraduate Employment

        Jenner & Block LLP. Partner (April 2011 to present).

        Federal Communications Commission, Office of General Counsel. 
        Special Advisor to the General Counsel (March 2010-April 2011); 
        Deputy General Counsel (December 2007-February 2010); Associate 
        General Counsel (July 2007-December 2007).

        U.S. Senate Judiciary Committee, Subcommittee on the 
        Constitution, Civil Rights, and Property Rights. Chief Counsel 
        (February 2005-June 2007).

        U.S. Department of Justice, Office of Legal Policy. Senior 
        Counsel (May 2004-February 2005).

        U.S. Senate Judiciary Committee, Subcommittee on Administrative 
        Oversight and the Courts. Deputy Chief Counsel (March 2003-May 
        2004).

        Verizon Communications Inc. Associate General Counsel (February 
        2001-March 2003).

        U.S. Department of Justice, Antitrust Division, 
        Telecommunications Task Force. Trial Attorney, Attorney 
        General's Honors Program (December 1998-February 2001).

        Hon. Martin L.C. Feldman, U.S. District Court, Eastern District 
        of Louisiana. Law Clerk (September 1997-September 1998).

        Kirkland & Ellis. Summer Associate (June 1997-September 1997). 
        Latham & Watkins. Summer Associate (June 1996-September 1996).

        Lathrop & Norquist (now Lathrop & Gage LLP). Summer Associate 
        (August 1995-September 1995).

        Hon. Kathryn H. Vratil, U.S. District Court, District of 
        Kansas. Summer Law Clerk (June 1995-July 1995).

    The management-level jobs I have held include Deputy General 
Counsel and Associate General Counsel at the Federal Communications 
Commission; Partner at Jenner & Block LLP (my current position); Chief 
Counsel at the U.S. Senate Judiciary Committee's Subcommittee on the 
Constitution, Civil Rights, and Property Rights; and Deputy Chief 
Counsel at the U.S. Senate Judiciary Committee's Subcommittee on 
Administrative Oversight and the Courts.
    The non-managerial jobs I have held which relate to the position 
for which I have been nominated include Special Advisor to the General 
Counsel at the Federal Communications Commission; Senior Counsel at the 
U.S. Department of Justice, Office of Legal Policy; Associate General 
Counsel at Verizon Communications Inc.; and Trial Attorney at the U.S. 
Department of Justice, Antitrust Division, Telecommunications Task 
Force.
    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Partner, Jenner & Block LLP (April 2011 to present).

        Co-Trustee, Radha V. Pai Children's Trust (entire time period).

        Co-Trustee, Varadaraj S. Pai Children's Trust (entire time 
        period).

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Kansas Bar. Member during entire reporting period.

        District of Columbia Bar. Member (December 3, 2001-September 
        30, 2003, June 18, 2004 to present). Member, Nominations 
        Committee (November 2010& present).

        Federalist Society for Law and Public Policy Studies. Member 
        during entire reporting period; Member, Executive Committee, 
        Administrative Law Practice Group (January 2011 to present).

        South Asian Bar Association-District of Columbia. Member during 
        entire reporting period; Member of the Board (2001-02).

        Federal Communications Bar Association. Member (2008-09).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    I have not contributed $500 or more to any individual, campaign 
organization, political party, political action committee, or similar 
entity over the past ten years. I have not held any offices with any 
state or national political party, political action committee, or 
campaign committee during the same period. Between November 6-8, 2006, 
I served as a volunteer for the Republican National Committee in 
Montana.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Marshall Memorial Fellowship, awarded by the German Marshall Fund 
of the United States (2011).
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Article, ``Congress and the Constitution: The Legal Tender Act of 
1862,'' 77 Oregon Law Review 535 (1998).
    Comment, ``Should a Grand Jury Subpoena Override a District Court's 
Protective Order?``, 64 University of Chicago Law Review 317 (1997).
    I have not given any speeches on topics relevant to the position 
for which I have been nominated.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have not done so.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    With respect to my background, first and foremost, I have extensive 
Commission experience. I worked in the agency's Office of General 
Counsel (OGC) for almost four years on a wide variety of communications 
law issues and administrative matters. Because OGC's Administrative Law 
Division (which I supervised for a time as Deputy General Counsel) 
reviews virtually every significant proposed Commission decision, I had 
a broad and deep view of the agency's overall docket, and worked on a 
wide variety of media, wireline, wireless, spectrum, and public safety 
issues. Over time, I also interacted with Commission-level leadership 
and every Bureau and Office, and I became quite familiar with agency 
personnel and procedures. Knowledge of the agency's law, rules, and 
people is indispensable for Commissioners charged with primary 
responsibility for decisionmaking.
    Second, my other professional experience has given me a good 
understanding of law, government, and business. From my years on 
Capitol Hill, I learned about the intricacies of the legislative 
process and gained a respect for members' prerogatives and 
perspectives. My time at the U.S. Department of Justice's Office of 
Legal Policy taught me about the importance of inter-branch 
consultation and inter-agency coordination. My work at Verizon gave me 
a better understanding of how the regulatory landscape affects 
corporate strategy and execution and how the communications industry 
operates. During my service in the Telecommunications Task Force at the 
U.S. Department of Justice's Antitrust Division, I helped to evaluate a 
number of telecommunications transactions, large and small, and to 
assess requests for regulatory relief following the enactment of the 
Telecommunications Act of 1996. Finally, as a law clerk to Judge Martin 
Feldman of the Eastern District of Louisiana, I obtained an in-depth 
education in the judicial process and the importance of timely, 
thorough resolution of claims. In sum, I believe my experience in all 
three branches of government, an independent agency, and a large 
company give me a good foundation to serve on the Commission.
    Third, I have management experience. My most significant management 
role was as Deputy General Counsel in OGC, as described in more detail 
in response to the next question. I also served as Chief Counsel of the 
U.S. Senate Judiciary Committee's Subcommittee on the Constitution, 
Civil Rights, and Property Rights. In this position, I managed the 
Subcommittee's agenda, worked with members and staff of both parties, 
and led then-Senator Brownback's team in evaluating everything from 
Supreme Court nominations to immigration legislation. I believe such 
management experience would help me run an office as an agency 
principal.
    Finally, throughout my professional career, I have always done my 
best to work with colleagues in a collegial manner and to reach 
cooperative solutions to problems. Even if the person with whom I am 
dealing has an irreconcilably opposing view on an issue, I try to 
disagree agreeably. Fortunately, the bulk of the Commission's work 
proceeds by consensus; most votes are unanimous, and the agency has a 
collaborative culture. But on those rare occasions when divisions arise 
on a Commission-level item, my approach would be one of constructive 
engagement and then, if necessary, respectful disagreement.
    I wish to be a Member of the Federal Communications Commission for 
two basic reasons. First, I believe in public service. For most of my 
career, I have worked for the United States, and my client has been the 
public interest. It would be a privilege once again to contribute to 
the FCC's mission, especially in a decision-making role. Second, the 
communications industry has brought tremendous benefits to the American 
economy generally and American consumers in particular. Perhaps more 
than any other, it is characterized by innovation and change. I would 
welcome the opportunities to serve as a Member at the agency that plays 
an important role in this dynamic field and to do my best to ensure 
that the communications industry continues to contribute to economic 
growth and the welfare of consumers.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Chairman of the FCC is the agency's chief executive officer. 
Nevertheless, were I fortunate enough to be confirmed as a 
Commissioner, I would take as active a role as possible in ensuring 
that the agency was managed properly. The most important way a 
Commissioner can do this is by fully and timely participating in 
Commission proceedings, especially proposed items that the Chairman has 
placed on a meeting agenda or on circulation. Helping the Commission 
reach and issue a final decision in a timely manner not only reflects 
good government, but also gives parties to a particular proceeding the 
resolution they deserve.
    In terms of administrative issues, I would work to improve agency 
management in several ways. Most importantly, I would urge the 
Chairman, other Commissioners, and staff to take full advantage of the 
Commission's February 2011 order amending various Part 0 and Part 1 
rules of agency organization, practice, and procedure (for which I was 
the primary drafter while I was at the Commission and which is 
available at http://transition.fcc.gov/Daily_Releases/Daily_Business/
2011/db0211/FCC-11-16A1.pdf by broadening the use of electronic filing; 
terminating more dormant proceedings; expanding the number of docketed 
proceedings; issuing more electronic and fewer hardcopy notifications 
of new filings or other changes in a particular docket; and dismissing 
plainly defective petitions for reconsideration on the staff level 
(rather than at the Commission level, in order to conserve scarce 
resources). In addition, there are a number of areas relatively removed 
from public attention where agency processes could be improved. For 
instance, Commission procurement is particularly important at a time of 
fiscal constraint, and I would seek to make sure that Commission 
procurement processes were consistent with the Federal Acquisition 
Regulation, as well as basic principles of accountability and proper 
stewardship of Federal funds. Finally, I would work to maintain good 
relations with Congress by, among other things, keeping the door open 
to members and staff with an interest in agency issues and urging the 
timely completion of reports required by statute to be submitted to 
Congress.
    The best example of my experience managing a large organization 
would be my service as Deputy General Counsel at the Commission. In 
that role, I led a team of approximately 40 lawyers in OGC's 
Administrative Law Division. As described on its website, the Division 
``reviews all draft Commission decisions for legal sufficiency. 
Division staff provide legal advice to the Commission concerning a wide 
array of statutes, regulations, and procedures, including, for example, 
the Communications Act of 1934, as amended by the Telecommunications 
Act of 1996, the Administrative Procedure Act, the Freedom of 
Information Act, the Privacy Act, the Regulatory Flexibility Act, the 
Paperwork Reduction Act of 1995, the Government in the Sunshine Act, 
the Contract with America Advancement Act of 1996, negotiated 
rulemaking and alternative dispute resolution, the Commission's 
procedural rules, procurement issues, the agency's ex parte and ethics 
rules (including receipt of gifts by the Commission and its employees, 
reimbursed travel expenses, and lobbying disclosure).'' See http://
www.fcc.gov/encyclopedia/administrative-law-division-office-general-
counsel.
    Given the importance, breadth, and sheer volume of the matters that 
came through the Division for review, careful management was necessary 
to ensure that the Commission--from Commissioners' offices to the staff 
in agency Bureaus and Offices--could function in a timely, appropriate 
manner. Accordingly, as supervising head, it was crucial to keep 
abreast of all activities of the lawyers within the Division. To this 
end, I provided as much detailed feedback as possible on items the team 
leaders sent to me for review, and I made affirmative efforts to become 
more knowledgeable in areas of law in which they were subject matter 
experts. Similarly, I communicated promptly to Division leaders the 
policy choices and requests for legal advice made by Commission and 
Bureau leadership. I also held a weekly meeting that was attended by 
the Division Chief, the two deputy chiefs, the six assistant general 
counsels who served as team leaders for different areas, and 
representatives from the Office of General Counsel's Transactions Team 
and Litigation Division. Prior to each meeting, the assistants 
circulated a report detailing all pending and recently resolved 
business in the areas within their purview. At the meeting itself, I 
offered updates on upcoming Commission meetings or other issues 
affecting the Division. I then asked each attendee to discuss any 
substantive or administrative matters with the group. This process 
allowed me to ensure that the Division's work was proceeding smoothly 
and allowed team leaders a better sense of how to manage their team 
members with respect to ongoing and future projects. I also consulted 
frequently with the Division Chief and/or individual team leaders one-
on-one in order to resolve more sensitive issues not suited for group-
wide discussion. I offer this detailed description of my work as Deputy 
General Counsel to demonstrate that my management style was, and would 
be, engaged, efficient, and collegial.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top three challenges facing the Federal 
Communications Commission are as follows:

        (1) Optimizing private sector incentives to invest in, create, 
        and maintain cutting edge communications networks, products, 
        and services. As mentioned above, the hallmarks of the 
        communications industry are innovation and change. And 
        generally speaking, consumer welfare is maximized when the 
        marketplace offers improved technology at competitive prices. 
        When the Commission acts, it should be mindful of the 
        importance of the communications industry to our international 
        competitiveness, economic growth, and Americans' quality of 
        life.

        (2) Solving the ``big'' problems. The Commission should resolve 
        important matters that have long simmered on its dockets 
        without final resolution. Chairmen and Commissioners of both 
        political parties have struggled with these issues, and often 
        for good reasons. However, industry and the public would 
        benefit from decisive Commission action. Uncertainty about the 
        rules of the road poorly serves carriers and, ultimately, 
        consumers. I would make a sincere commitment to help the agency 
        make difficult but necessary policy choices in important 
        matters were the Senate to afford me the privilege of serving 
        as a Commissioner.

        (3) Adopting spectrum policies that meet the demands of the 
        broadband age. American consumers' greater use of increasingly 
        sophisticated communications technology is putting 
        unprecedented demands on communications networks and spectrum. 
        In particular, mobile broadband data usage is exploding as more 
        consumers use their mobile devices to watch videos, surf the 
        Internet, and more. Given these trends, the Commission will 
        need to allocate and establish service rules for the spectrum 
        within its jurisdiction in ways that ensure efficient, 
        technically feasible use (consistent with statutory 
        guidelines).
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    During my employment at Verizon Communications Inc., I contributed 
to a 401(k) plan (with a proportionate matching amount contributed by 
the company). That plan, over which I still have control, is managed by 
Fidelity Investments, and all funds are invested in diversified index 
funds.
    I currently receive a monthly stipend from Jenner & Block LLP, 
where I am a non-equity Partner in the Litigation Department, which 
would stop were I to be confirmed. I also participate in the Firm's 
Profit Sharing Plan (401(k)), which is also managed by Fidelity 
Investments. All funds are invested in a diversified index fund.
    I do not have any other financial arrangements with the Firm.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have no commitment or agreement to maintain my affiliation with 
the District of Columbia Bar (where I serve as a Member of the 
Nominations Committee) or the Federalist Society for Law and Public 
Policy (where I serve as a Member of the Executive Committee for the 
Administrative Law Practice Group). As set forth in the ethics 
agreement I signed on October 24, 2011, should I be confirmed, I will 
resign from my positions as a Member of the Nominations Committee and a 
Member of the Executive Committee for the Administrative Law Practice 
Group respectively.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I do not believe my employment at Verizon Communications Inc. 
between 2001 and 2003 would give rise to an actual or potential 
conflict of interest (or the appearance of such) with my prospective 
appointment to the Federal Communications Commission, but I list it 
here given that it is an entity subject to regulation by the agency.
    Since beginning at Jenner & Block LLP on April 25, 2011, I have 
done a limited amount of work for a few clients. Out of an abundance of 
caution, the complete list of my clients is as follows: AOL, Inc.; 
Cablevision Systems Corp.; Cerberus Capital Management, L.P.; Charter 
Communications, Inc.; General Dynamics Corp., C4 Systems; Guggenheim 
Partners, LLC; The Nielsen Company; and Securus Technologies, Inc. 
During this time: (1) I have not appeared before the Federal 
Communications Commission, Executive Branch agencies, Congress, or any 
court in connection with my work for these clients; (2) my name has not 
appeared on any comments, briefs, or any other written work submitted 
on their behalf; and (3) to preclude conflicts, my firm has established 
a screen as appropriate to prevent my colleagues from discussing 
specific matters with me.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.

  <bullet> During my tenure at the Federal Communications Commission 
        (between 2007 and 2011), I was asked very occasionally to 
        review proposed legislation. I was not asked to recommend the 
        passage, defeat, or modification of such proposals so much as 
        to explain their likely effects. Unfortunately, I cannot recall 
        which specific bills I was asked to review. Additionally, the 
        bulk of my work within the Office of General Counsel at the 
        Commission involved analysis of proposed agency actions--or, in 
        a few cases involving litigation, final agency actions--for 
        consistency with substantive communications laws as well as 
        general administrative laws.

  <bullet> My employment at the U.S. Senate Judiciary Committee during 
        2003 and 2004 and again between 2005 and 2007 required frequent 
        involvement in the legislative process on issues as varied as 
        compensation for asbestos-related injuries and immigration 
        reform. I also staffed the Senators for whom I worked at 
        oversight hearings of Executive Branch agencies, such as the 
        U.S. Department of Justice and the Federal Bureau of 
        Investigation.

  <bullet> My work in the Office of Legal Policy at the U.S. Department 
        of Justice between 2004 and 2005 also involved legislative 
        analysis and advocacy, primarily with respect to national 
        security; for instance, I met with staff for Senator Dianne 
        Feinstein in 2004 to discuss the reauthorization of sixteen 
        expiring provisions of the USA PATRIOT Act, and I helped draft 
        a letter to the Senator explaining the purpose and importance 
        of those provisions.

  <bullet> Finally, in 2001, while I was working at Verizon 
        Communications Inc., Senior Vice President and Deputy General 
        Counsel John Thome and I met one time with House Energy and 
        Commerce Committee staff to discuss the company's views on H.R. 
        1542, the Internet Freedom and Broadband Deployment Act.

    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Should I be confirmed as a Member of the Federal Communications 
Commission, I would resolve potential conflicts of interest by (1) 
identifying the proceeding(s) to which the potential conflicts pertain 
and gathering all relevant facts; (2) discussing the nature of the 
potential conflicts with and seeking guidance from the Designated 
Agency Ethics Official and other attorneys responsible for ethics 
issues in the Office of General Counsel; and (3) taking the appropriate 
action to ensure compliance with applicable ethics laws and 
regulations, as set forth by Congress, the agency, and the bar, 
respectively.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    I am a member of the Kansas and District of Columbia bars, admitted 
on October 13, 1998 and December 3, 2001, respectively. In the late 
summer of2003, after I became a staffer for Senator Jeff Sessions on 
the Senate Judiciary Committee, I received a notice (possibly a second 
notice) from the Kansas Bar informing me that my bar dues had not been 
paid. Thereafter, I sent the Kansas Bar a check for the requisite 
amount. Unfortunately, the check arrived several days after the 
deadline for payment had passed (per a notation made by the Kansas Bar 
on the letter that I had sent and that was returned), and on October 6, 
2003, my Kansas license was suspended. Similarly, my District of 
Columbia license was suspended for nonpayment of dues, effective 
September 30, 2003. After this time, I recall having a conversation 
with Senate Ethics staff in which I described these circumstances and 
was told that Senate staffers doing policy work exclusively were not 
required to maintain an active bar license. I also was informed by 
Senator Sessions' office that the office did not require that lawyers 
on staff maintain an active bar license.
    Nonetheless, I sought to reinstate both licenses in late 2003. 
According to the Kansas Bar's instructions for reinstatement, one 
requirement was that I submit an application for reinstatement. 
Similarly, in order to get my District of Columbia bar license 
reinstated, I had to take and certify completion of the Course on the 
District of Columbia Rules of Professional Conduct and District of 
Columbia Practice, and I also had to submit a statement that I was not 
suspended by any disciplinary authority. See D.C. Bar Bylaws, Art. III, 
Sec. 3(a), available at www.dcbar.org/inside_the_bar/structure/bylaws/
article03.cfm#sec3. I took the required District of Columbia Bar 
course; submitted all necessary forms; paid all applicable fees and 
charges; and finished the remaining steps needed in order for the 
respective bars to accept my applications for reinstatement. On June 
10, 2004, my Kansas license was reinstated to active status, as was my 
District of Columbia license on June 18, 2004. I was a member in good 
standing of each bar before September 30, 2003, and without exception, 
I have been a member in good standing of each bar since June 18, 2004. 
However, I greatly regret the oversight that resulted in the 
administrative suspensions between those dates and will not allow such 
an oversight to happen again.
    I also would note that on March 26, 2009, the Kansas Bar informed 
me that the suspension of a license under these circumstances is an 
administrative matter that does not involve a reprimand, a breach of 
ethics, or any other kind of disciplinary sanction. On the same day, 
the District of Columbia Bar confirmed that this was an administrative 
suspension only, and that my work during this time did not constitute 
the unauthorized practice of law because I did not appear in court, 
sign legal briefs, or do other work typically done by lawyers 
performing traditional legal functions. (In connection with the 
background check requisite for nomination to this position, I 
proactively conveyed the information above to the Federal Bureau of 
Investigation.)
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees?
    I would do everything within my power as a Commissioner to ensure 
that such deadlines are met.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?
    I would do everything within my power as a Commissioner to ensure 
that Congressional witnesses and whistle blowers are protected from 
reprisal.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                         resume of ajit v. pai
Experience
    Jenner & Block LLP. Partner (April 2011 to present). Member of 
Litigation Department and Communications Practice.

    Federal Communications Commission, Office of General Counsel. 
Special Advisor to the General Counsel (March 2010-April 2011); Deputy 
General Counsel (December 2007-February 2010); Associate General 
Counsel (July 2007-December 2007). Led team of over 40 lawyers in 
handling wide variety of matters involving the cable, Internet, 
wireless, media, satellite, and other industries. Also was responsible 
for non-communications legal matters, including fiscal law, 
intellectual property, and environmental law. Finally, argued before 
and prevailed in the U.S. Court of Appeals for the D.C. Circuit in 
National Cable & Telecomms. Ass'n. Inc. v. FCC; briefed the Court in 
CTIA-The Wireless Ass'n v. FCC; drafted comprehensive revision of 
agency rules and procedures; and led Commission response to broadest 
Congressional investigation in recent history.

    U.S. Senate Judiciary Committee, Subcommittee on the Constitution, 
Civil Rights, and Property Rights. Chief Counsel (February 2005-June 
2007). Managed all Subcommittee business, budget, and staff; was lead 
counsel on Supreme Court nominations, constitutional law, national 
security, communications, media, Internet regulation, antitrust, and 
other issues; and served as general counsel for Senator's personal 
office, handling full range of personnel and ethics matters.

    U.S. Department of Justice, Office of Legal Policy. Senior Counsel 
(May 2004-February 2005). Worked on issues and initiatives relating to 
national security, communications, and judicial administration; 
assisted in consideration of judicial and executive nominations; 
handled Department's implementation of Executive Order 13,353, 
establishing the President's Board on Safeguarding Americans' Civil 
Liberties; and counseled Associate Attorney General in his 
representation of the Department at American Bar Association's annual 
meeting.

    U.S. Senate Judiciary Committee, Subcommittee on Administrative 
Oversight and the Courts. Deputy Chief Counsel (March 2003-May 2004). 
Served as lead counsel on national security, constitutional, 
communications, antitrust, and other issues.

    Verizon Communications Inc. Associate General Counsel (February 
2001-March 2003). Drafted amicus brief to the Supreme Court in National 
Cable & Telecomms. Ass'n, Inc. v. Gulf Power Co., 534 U.S. 327 (2002); 
helped draft Federal and state court briefs, see, e.g., Verizon New 
Jersey Inc. v. Ntegrity Telecontent Servs.. Inc., 219 F.Supp.2d 616 
(D.N.J. 2002); conducted depositions; counseled business executives on 
variety of critical competition issues; worked extensively with 
business and engineering teams to establish wireline broadband 
standard-setting organization; ran antitrust compliance training 
program; submitted comments to Federal Communications Commission in 
connection with proposed rulemaking; and prepared general counsel for 
Congressional hearing on communications and antitrust issues.

    U.S. Department of Justice, Antitrust Division, Telecommunications 
Task Force. Trial Attorney, Attorney General's Honors Program (December 
1998-February 2001). Worked on proposed transactions and requests for 
regulatory relief, including the then-largest proposed merger in 
history and the first successful petition for long-distance market 
entry following enactment of the Telecommunications Act of 1996. 
Responsibilities included drafting application for temporary 
restraining order to enjoin prospective merger; interviewing and 
second-chairing depositions of telecommunications executives; 
evaluating Section 271 petitions for regulatory approval; drafting 
motions, affidavits, third-party communications, and other documents 
for use in regulatory proceedings and litigation; reviewing documents 
produced by parties pursuant to ``second requests'' and other 
compulsory antitrust process; and coordinating regulatory review with 
Federal Communications Commission, Federal Trade Commission, and other 
antitrust agencies.

    Hon. Martin L.C. Feldman, U.S. District Court, Eastern District of 
Louisiana. Law Clerk (September 1997-September 1998). Conducted 
research, drafted orders, and assisted in preparation for trial in 
admiralty, antitrust, bankruptcy, employment discrimination, and other 
cases.

    Kirkland & Ellis, Los Angeles, CA. Summer Associate (June 1997-
September 1997). Permanent offer extended.

    Latham & Watkins, Los Angeles, CA. Summer Associate (June 1996-
September 1996). Permanent offer extended.
Education
    University of Chicago Law School J.D., 1997.
  <bullet> University of Chicago Law Review. Editor (1996-97); Staff 
        Member (1995-96).

  <bullet> Semifinalist, Hinton Moot Court Competition (1997). Winner 
        of Thomas J. Mulroy Prize.
  <bullet> Harvard University. B.A. with honors in Social Studies, 
        1994.

    Harvard Speech and Parliamentary Debate Society. Member (1990-94); 
Vice President (1992-93). Quarterfinalist, World Debate Championships, 
Melbourne, Australia (1994).
Publications
    Comment, ``Should a Grand Jury Subpoena Override a District Court's 
Protective Order?``, 64 U. Chi. L. Rev. 317 (1997). Proposal adopted, 
In re Grand Jury Subpoena, 138 F.3d 442,445 (1st Cir. 1998), cert. 
denied, 524 U.S. 939 (1998); In re Grand Jury, 286 F.3d 153, 162-63 (3d 
Cir. 2002).
    Article, ``Congress and the Constitution: The Legal Tender Act of 
1862,'' 77 Oregon L. Rev. 535 (1998). Originally drafted during law 
school and nominated by University of Chicago Law School faculty for 
Casper Platt Award, which recognizes the most outstanding student paper 
(1997).
Miscellaneous
  <bullet> Member in good standing of Kansas and District of Columbia 
        Bars.
  <bullet> Awarded the 2011 Marshall Memorial Fellowship by the German 
        Marshall Fund of the United States.
  <bullet> Member of District of Columbia Bar Association (Member, 
        Nominations Committee) and Federalist Society (Executive 
        Committee Member, Administrative Law Practice Group).

    The Chairman. And it will be so. Thank you very much, Mr. 
Pai. And you have a very warm way of talking, too, a very 
inclusive way. So when you say that you are a good listener, I 
truly believe that. And I also think it is incredibly 
important.
    Mr. Pai. Thank you, Mr. Chairman.
    The Chairman. FCC is a very complex organization. And it 
deals in such cerebral matters and technical matters that the 
human relations aspect of it, within the FCC and then also 
reaching out to the public becomes very important. Because most 
people don't know what you do and if they do, they are probably 
afraid of you. And so those personal skills are incredibly 
important.
    I would like to start the questioning with a question to 
each of you. It is a question which Jessica Rosenworcel has 
heard many times before, because I always ask it as the very 
first question.
    Senator Olympia Snowe and I were responsible for 
establishing a program which we are very fond of, called the 
``e-Rate'', and a lot of other people helped. It has done a 
fantastic job in helping with closing the digital divide. I 
thought at the time that, when it passed, that California would 
be way out, a high number in the percentage of classrooms which 
were covered. And in fact it was only 15 percent. On the other 
hand, Houston, which I figured might have had a lower, they 
went wireless and within 2 days they were at 100 percent.
    So I mean there is this vast variation. In West Virginia 
the numbers were very low. Now they are very high, as they are 
across the country. But also, the e-Rate program is not just 
making a connection, but keeping that connection current, and 
having the technology to keep it so, so it can continue to 
close the digital divide.
    So, my question is very simple but profoundly important to 
me. Will you both promise me that you will support the e-Rate 
program?
    Ms. Rosenworcel. Yes.
    [Laughter.]
    The Chairman. That's one.
    Mr. Pai. Senator, if confirmed, I look forward to working 
with you on the e-Rate program and I support the program.
    The Chairman. Good.
    [Laughter.]
    The Chairman. One of the reasons I say that is that there 
is a tendency sometimes with the FCC to look at e-Rate-related 
money, which is for the moment fungible, and then to apply that 
to things which have nothing to do with the e-Rate. Or others 
will try to make that grab of money.
    That is something which causes me vast heartache. So I am 
going to incorporate that in your ``yes'' answer, that you will 
keep your eye out for that.
    The second question would be also an obvious one. And 
Senator Kay Bailey Hutchison gave me some very good news today. 
But I was really kind of shocked that we started a couple of 
years ago to draw up a bill to honor the 9/11 Commission's last 
unfulfilled request, and that is that we have a national 
wireless broadband connectivity so that everybody in the 
country would hold virtually the same device, so that they were 
instantly in touch with each other, that they were not like, 
you know, when the military invaded Kuwait and the Marines and 
the Navy--nobody could talk to each other because they had 
different ways of talking to each other, and they couldn't talk 
to each other. And that was extremely embarrassing.
    That has been overcome but it remains very much the case in 
terms of our first responders in America, and that would be 
firefighters and policemen and all kinds of people who do a 
variety of work and who have to be connected and have to be 
able--for example, a firefighter has to be able to not just be 
able to take a photograph of the building that he is going 
into, but it may be a building-penetrating photograph, in which 
he can locate an injured person, when he goes into the 
building, apprise the nature of the problem the injured person 
has and then shoot that right to the emergency room at the 
local hospital.
    All of these things have to work together. And the 
Congress--there was an enormous amount of support for us, 
absolutely every imaginable public group, and absolutely 
nothing happened. It passed this Committee by a vote of 21 to 
4. It might have been a higher vote if we had taken it at a 
different time. But 21/4--not very much passes 21 to 4. So it 
was right there. Everybody was for it. The Vice President was 
all over it, and nothing happened.
    So obviously in something like that, you don't give up. You 
continue on. It made voluntary giving back of spectrum to the 
FCC and nobody believes that it is voluntary, but it is in the 
law. It is voluntary. People do not have to do it. But a lot of 
people want to do it.
    And therefore there would be a lot of money, many billions 
of dollars coming back into the FCC, a lot of which could be 
used for deploying this system across the country to every part 
of the country. Every part of Alaska, every part of everywhere.
    And also to making sure that the hardware was there. And 
then in the end there would be money left over for deficit 
reduction, about 5.6 billion dollars.
    So, it's getting pretty hard to argue that this is a bad 
idea. And it doesn't cost the taxpayer a single dime.
    So, I would ask each of you again if you will be supportive 
of the Committee's efforts with respect to this legislation.
    Ms. Rosenworcel. Yes.
    [Laughter.]
    Mr. Pai. Yes, Mr. Chairman.
    The Chairman. I am happy, and my time is up.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman.
    First, I think that you pretty much answered, Mr. Pai, in 
your opening statement, but I wanted on the record that you 
have recently joined a law firm, Jenner & Block, which does 
have business before the FCC, including one of the sides in a 
potential merger between AT&T and T-Mobile, which has been 
abandoned but not necessarily permanently.
    So my question is, do you have any possible conflicts of 
interest, would you recuse yourself if there were a conflict 
between your previous law firm and business that comes before 
the FCC?
    I would like to know exactly how you would plan to handle 
that.
    Mr. Pai. Thank you, Senator Hutchison, for the question. I 
do not believe that my short period of employment at Jenner & 
Block would preclude me from being an effective Commissioner or 
from robustly participating in Commission proceedings.
    I was aware, starting literally on my first day at the 
firm, that I was under consideration for this position. 
Accordingly, my during my time at Jenner, I have not 
represented any clients before the FCC. My name has not 
appeared on any comments or pleadings that are submitted to the 
FCC, and the firm, in appropriate cases, has instituted a 
screen to preclude me from discussing or otherwise handling or 
knowing about particular matters.
    Senator Hutchison. And you would not feel any prejudice in 
favor of a client of your former firm?
    Mr. Pai. Not at all, Senator.
    Senator Hutchison. All right.
    I would like to ask Ms. Rosenworcel. As you know, last year 
the FCC opened a proceeding to consider regulating broadband 
Internet services as a common carrier under Title II of the 
Communications Act to impose net neutrality restrictions.
    The FCC did abandon that approach when there was a 
bipartisan outcry from Congress and did go forward on net 
neutrality under Title I.
    But Chairman Genachowski has said that he will keep the 
Title II reclassification docket open. Do you think that there 
is any value in keeping this proceeding open when a bipartisan 
group in Congress has so clearly opposed it?
    Ms. Rosenworcel. I know that now for nearly a decade the 
FCC has chosen to look at these broadband services as Title I 
services. I recognize that the Supreme Court has upheld that 
decision, and that the Agency has tried to use its ancillary 
authority to provide consumer protection under Title I.
    The scope of that is under consideration and review in the 
D.C. Circuit right now. And, as a Commissioner, if confirmed, I 
would clearly abide by any decision that that court reaches.
    Senator Hutchison. And, Mr. Pai, on that same question to 
you?
    Mr. Pai. Thank you, Senator. Obviously, this is an issue 
that closely divided the Commission and closely divided this 
body. I think, nonetheless, it has been healthy to have this 
debate because it has identified for the public the various 
positions on either side.
    Proponents obviously argued that it is important to 
preserve an open and free and vibrant Internet for consumers 
and opponents have argued that it is important for Internet 
service providers to be able to reasonably manage their network 
in order to promote an open and vibrant experience for 
everybody.
    As my colleague has pointed out, this decision is under 
review in the D.C. Circuit, and depending on what the court 
says about the scope of the Commission's authority, I as a 
Commissioner, if I were fortunate to be confirmed, would abide 
by that decision as well.
    Senator Hutchison. On merger conditions--this is a question 
for both of you, as well. Sometimes in recent years the FCC has 
imposed merger conditions on companies that seem extraneous to 
the transaction and could be seen as attempts to achieve policy 
goals that it would not otherwise be able to impose through its 
regulatory rulemaking.
    How do you feel about the role of the FCC in these merger 
applications and putting extraneous diversions or requirements 
for jettisoning part of their portfolios? How do you feel about 
that approach to a merger approval or disapproval? Both of you.
    Ms. Rosenworcel. Thank you for the question, Senator. The 
FCC's authority for merger review is largely under Title II and 
Title III of the statute. They have a DD to assess whether 
transactions and specifically the transfers or licenses are in 
the public interest, convenience and necessity.
    It is my opinion that any conditions that apply to that 
standard should at least be rationally related to the 
transaction.
    Senator Hutchison. But not more than that? Are you saying 
that you would limit to that nexus?
    Ms. Rosenworcel. I think if they were rationally related to 
the harms in the transaction and remedy those harms and 
increase consumer benefits, that's justifiable under the 
statute and I would clearly adhere to the statute.
    Senator Hutchison. What would be your position, Mr. Pai?
    Mr. Pai. Senator Hutchison, my approach to merger review 
would--under the public interest standard that my colleague has 
outlined, would be simply to evaluate whether the merger would 
benefit competition and benefit consumers.
    Now to the extent that in the course of reviewing a merger 
the Commission found that a competitive harm would arise, I 
would be open to considering merger conditions that were, in 
the parlance, ``merger-specific.'' That is, conditions that 
directly related to the competitive harm that had been 
identified by the Agency. I think part of the difficulty that 
arises when ``extraneous'' as you put it, conditions are 
considered, is that the merger review process becomes a vortex 
for a variety of concerns that don't necessarily have to do 
with the merits of the transaction, even if those particular 
conditions might be good ideas, or might be good policies for 
the FCC to pursue in a generalized rulemaking.
    So, my approach would be to limit conditions to merger- 
specific types.
    Senator Hutchison. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison. Senator Kerry, 
of course, is Chairman of the Subcommittee which is responsible 
for all of this, and he was detained at the White House, which 
is probably a pretty good place to be detained at. But he 
arrived here late. But we are calling on him, as I did on 
Senator DeMint, to speak. He hasn't had that chance, so I told 
him he that could take a couple of extra minutes in his 
questioning period and use that however he wished to make some 
points or whatever.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, thank you very much. I 
certainly was not detained there in the way I had originally 
intended, but I was otherwise detained.
    [Laughter.]
    Senator Kerry. Mr. Chairman, I know it's very gratifying to 
see a member of one's staff receive this kind of recognition. I 
also know it is very hard to let a talented member of your team 
go. I think all of us here on the Committee are unbelievably 
familiar with Jessica Rosenworcel's work, with her passion for 
service and her commitment to the public interest, and 
especially her encyclopedic knowledge of communications law. 
And I think she has served us all on this Committee with great 
distinction. And we thank you very much for that.
    I am less familiar with Mr. Pai's work in a direct way, but 
I know of his reputation in the community of professionals that 
serve us all in this effort, and of his previous service in the 
Senate, which is commendable.
    And I personally look forward to supporting both of your 
nominations.
    Senator Rockefeller in his comments a few moments ago said 
this is big nomination, these are big nominations. And I just 
want to second that in a very real way.
    You guys are the protectors of our democracy. You are the 
protectors of the viability of thought and communication and 
ideas being able to freely move across and around, in and 
throughout our entire social fabric.
    And if it gets too ``conglomeratized'' and too narrow in 
ownership and in capacity to move, our--really our freedom is 
challenged. Our democracy is lesser, I think.
    Both of you are widely recognized for your temperament and 
for your intellectual capacity. And I think given the nature of 
the marketplace that you are going to be regulating--
overseeing, you are going to need those skills enormously.
    Big monied interests are going to lobby you to gain 
tactical advantage, public interest groups will push you to 
adhere to their sense of what is moral, and your every word is 
going to receive attention in the trade press and among 
investors who are trying to read the tea leaves of where the 
Commission is headed and what it means for the market.
    And I know that both of you understand your ultimate 
responsibility is to the American people and to the broader 
interest as you have described in answer to the first 
questions.
    I also know that as staffers you have felt some of this 
pressure before, but I am confident that as Commissioners you 
are going to feel it on a new scale. So, you have to listen to 
your conscience and do what is most consistent with the law and 
the public interest.
    As all of us on this committee know, this is a remarkable, 
extraordinary time, an exciting time in communications 
generally in this entire field. We are in the early stages of 
an exciting, socially networked, location-aware, mobile- 
device-driven communications revolution. And satellite 
companies compete with cable and telephone companies to deliver 
multichannel TV service, broadcasters have entered the digital 
age and they are delivering critical services in all of our 
communities in different ways.
    And the descendants of monopoly telephone company are 
competing to win business for wired and wireless service at 
home and at work. And all of that is great but--and there is a 
``but''. But even as these opportunities are presenting 
themselves, the markets in each of these sectors continue to 
concentrate power in the hands of fewer and growing larger 
corporate conglomerates.
    And that concentration, I think at least, and I think some 
others join me in this concern, threatens the competition that 
we contemplated when we wrote the 1996 Act: diversity of 
ownership, voices, representations in the media and 
communications is what a healthy democracy needs.
    And the fervor against the role of government in our 
society by some on one extreme has reached the point that every 
time the Agency acts to protect consumers or competition, 
incumbent companies push Members of Congress to attack the 
Commission chairs and the members. I think you are aware of 
that.
    So the challenges that you are going to face at the FCC are 
pretty significant, and I just want to make sure as you 
approach this that you come to it with a clarity that the value 
of open networks and of how unlicensed and licensed spectrum 
can complement each other, and how to best ensure that the 
market is opened to new entrants and to innovation.
    And so I would simply open by asking you to generally 
comment on this sense of--this perhaps divergence from where we 
were in the 1996 Act and what is happening and what you see 
happening in the marketplace today.
    Ms. Rosenworcel, do you want to go first, or----
    Ms. Rosenworcel. Sure. As I mentioned in my opening 
statement, technology is changing at a very fast clip and it is 
very challenging for legislators and regulators alike to keep 
up. So, it's important to approach that task with some 
humility, but also with some recognition that there are some 
core values, many of which you mentioned that are in the 
Communications Act. Fostering the public interest, promoting 
competition, universal service, privacy, public safety, and I 
think those are the things that should animate the 
deliberations of the Commission going forward.
    Senator Kerry. Do you both agree--you haven't answered yet, 
but I want to add to that question because time is running 
tight. Do you both agree that we need to free up some of our 
spectrum in order for broadband to be able to be competitive, 
to create jobs, and to maintain our economic ability, capacity?
    Why don't you answer while you--go ahead and answer the 
first question and the second and then she can come back.
    Mr. Pai. OK. Thank you, Senator. With respect to the first 
question, I find it difficult to improve upon my colleague's 
answer. I would point out, as well, that whatever Congress 
decides to do in terms of reforms to the Act in order to update 
the Act to reflect current marketplace and technological 
realities is something that I would faithfully implement were I 
fortunate to serve at the Commission.
    With respect to the second question, I do think it is 
important to deploy broadband to open up networks, to really 
free up the spectrum for competition, innovation and 
investment. I think that is the key to--not just to help the 
economy, but frankly, as you pointed out in your question, a 
healthy democracy.
    As I pointed out in my opening statement, I think when the 
Commission and when the Congress focus on competition and 
innovation, consumers benefit and the body politic benefits.
    Ms. Rosenworcel. On your second question, the answer is 
yes. We do need more spectrum available for the services that 
we all make use of, using the wireless airwaves. The problem is 
that we have got less in the pipeline than many of our 
international counterparts.
    At the same time, I think it would foolhardy if we only 
focused on spectrum and making spectrum available for auction. 
I think we are going to have to work hard also at improving the 
efficiency of existing spectrum with technologies that can help 
us do that.
    Senator Kerry. Mr. Chairman, I would simply ask that some 
additional questions be made part of the record.
    The Chairman. Absolutely.
    Senator Kerry. Thank you, sir.
    The Chairman. And I thank you.
    I now turn to Senator DeMint. And after him, it's in order 
of arrival. So, just to give people warning. I don't know if 
Senator Isakson is coming back. But Senator Blunt would follow 
Senator DeMint, then Senator Udall, then Senator Toomey, then 
Senator Lautenberg and Senator Klobuchar, Cantwell and Ayotte.
    Senator Wicker. Will I be allowed to ask questions?
    [Laughter.]
    The Chairman. Yes. I didn't say Snowe?
    Senator Snowe. Not at all.
    Senator Hutchison. She came in last.
    Senator DeMint. Thank you, Mr. Chairman----
    The Chairman. Well, no, Jim. I've got to eat some crow 
here.
    [Laughter.]
    The Chairman. Senator Snowe----
    Senator DeMint. It's too late.
    [Laughter.]
    Senator Hutchison. Do you remember when you came in, Roger?
    Senator Wicker. I just came in.
    Senator Hutchison. OK. You are after Olympia.
    Senator Wicker. I just missed being mentioned.
    [Laughter.]
    The Chairman. The situation is under control.
    [Laughter.]
    Senator DeMint. OK. We OK to go?
    The Chairman. Yes.
    Senator DeMint. Thank you, Mr. Chairman. Ms. Rosenworcel, 
again, thank you for being here today and the courtesy of 
coming by my office.
    Let me ask for a minute about mobile broadband, we were 
touching on that just a minute ago. As you know, the broadband 
competition report does not include mobile broadband when it 
shows build-out, which suggests that we have problems in areas 
that we might not if you count mobile broadband. A few years 
ago there was not a lot of capacity in the mobile market for 
broadband. Now we're at 4G. I'm sure we'll be at 5 or 6G soon, 
and I suspect at some point we will have a stronger--well, 
through mobile, we will be able to get just anything we need on 
broadband.
    But do you consider wireless broadband to be part of our 
broadband system, and do you think it should be included in the 
broadband competition report?
    Ms. Rosenworcel. I think we are seeing increasing 
convergence across all sectors. And I think over time it will 
grow to be a more robust substitute, a near-perfect substitute 
for traditional service.
    At the same time, I think what you pointed out is a real 
challenge for the Agency. They have got a lot of reporting 
duties, and those reports often reflect frameworks that are a 
little bit dated. And in an era of convergence, it is worth 
trying to identify how to update them, so they better reflect 
technology and the way consumers use them.
    Senator DeMint. Well, as you know, this is a very important 
point because often here we'll look at a statistic, like we 
have 80 percent build-out in rural areas, and suggest some new 
subsidy while we've got companies already competing for mobile 
broadband in an area. So the failure to recognize different 
technologies as viable alternatives, and certainly mobile 
broadband is at a point now where it is better than DSL in some 
cases and certainly growing in capacity, is ultimately harmful 
to competition.
    So we need our Commissioners to recognize all existing 
technologies as well as try to imagine potential technologies 
because once we start subsidizing one technology, we may be 
eliminating another--and I hear it in South Carolina and in 
rural areas where you have someone trying to collect investment 
funds to do some type of build-out--it may be a wireless build-
out in a rural area--only to find a competitor coming in with 
some government subsidy to compete with them with another 
technology.
    So your answer is pretty important here, that we push not 
only as a Congress but as an FCC, that the competition reports 
that we look at are actually accurate.
    Ms. Rosenworcel. They should reflect the way that consumers 
are using their service.
    Senator DeMint. Mr. Pai?
    Mr. Pai. Senator, I also think that to the extent that 
mobile broadband is seen by consumers as an acceptable 
substitute to wireline and other broadband technologies, that 
the FCC would do well to take note of that.
    Senator DeMint. I would like to hear you both comment on 
the Universal Service Fund, how it affects broadband and 
specifically, Ms. Rosenworcel, I'll start with you.
    Do you think the FCC has the authority to expand the 
contribution base for Universal Service Fund to Internet 
Service Providers?
    Ms. Rosenworcel. Under the Communications Act, the 
Commission has authority to assess on interstate 
telecommunications services, but it has discretionary authority 
to also assess on telecommunications services, which are a 
component of information services, which could be described as 
broadband. So I think that is the state of the current statute 
and I would certainly commit to abide by the statute.
    Senator DeMint. So you think Internet services fall under 
telecommunications?
    Ms. Rosenworcel. I think a portion of it could. I think at 
present the system is subsidized by Internet--excuse me--by 
interstate telecommunications services. I think the challenge 
going forward is making sure that the revenue base is strong 
enough to support the type of universal service reforms that 
the Agency just adopted last month.
    Senator DeMint. So you think FCC now has the authority to 
assess fees on Internet Service Providers to fund universal 
service fund?
    Ms. Rosenworcel. It has the authority under the statute to 
assess on telecommunications, not information services.
    Senator DeMint. OK. Can you really divide an Internet 
Service Provider that provides both? You are talking about 
assessing fees to part of their services and not to others? 
Is----
    Ms. Rosenworcel. I apologize. I am getting fairly ``legal'' 
on you right now.
    Senator DeMint. Yes.
    Ms. Rosenworcel. So why don't I just say more simply that 
the current system is supported by telecommunication services. 
Long distance services, as we commonly know them.
    Senator DeMint. Right.
    Ms. Rosenworcel. I think the challenge going forward is 
making sure that we have a system that can support universal 
service in rural areas. I think that the Agency is going to 
need to look at new systems, like the ones that were proposed 
in the last administration that involve connections and not 
necessarily Internet or broadband services, but connections.
    Senator DeMint. Connections. Mr. Pai, any thoughts on the 
subject?
    Mr. Pai. Senator DeMint, I can scarcely improve upon my 
colleague's recitation of the legal context for this question, 
but I would say, of course, that with the Commission having 
recently released the universal service order and indicated 
that it intends to look at the contribution mechanism next 
year, I do think the Commission should take a very close look 
at the nature of its statutory authority before assessing fees 
in the manner you suggest.
    Senator DeMint. I know I am running out of time, but just a 
quick question about the Cable Act, which is now nearly 20 
years old. It reflects a monopoly status for video services in 
most areas, which has totally changed.
    Do you believe the laws and regulations that we currently 
have regarding video services should be reassessed and updated?
    Ms. Rosenworcel. That's a very broad question. But I think 
as a general matter there is a lot in the Communications Act, 
including the Cable Act, that is old and could be benefited by 
taking a fresh look.
    Senator DeMint. OK. Mr. Pai, any last comment here?
    Mr. Pai. I agree with Ms. Rosenworcel, and just to give you 
one example. The FCC recently released a Notice of Proposed 
Rulemaking regarding retransmission consent and, in it, it 
identified a number of factors where it sought comment on ways 
to clarify exactly where the Commission's authority was, given 
that the marketplace has changed. And that is something that I 
would definitely take a look at if I were fortunate to serve at 
the Commission.
    Senator DeMint. Thank you both.
    The Chairman. Thank you very much. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. Thank you, Chairman, I 
have a statement for the record that I will submit for the 
record.
    [The prepared statement of Senator Blunt follows:]

                 Prepared Statement of Hon. Roy Blunt, 
                       U.S. Senator from Missouri
    We have before us today, two highly qualified nominees for the 
Federal Communications Commission. I hope that these nominees will make 
it a point of priority to address FCC process issues to ensure the type 
of fair treatment that we should expect from a Federal agency that has 
so much authority over such a vast swath of our economy.
    On Wednesday afternoon of last week, AT&T voluntarily withdrew the 
pending applications to transfer the radio licenses associated with its 
proposed merger with T-Mobile. The withdrawal was in full compliance 
with FCC rules and under these circumstances, the FCC was required by 
its rules to dismiss the applications, without prejudice.
    On Tuesday of this week, the FCC did issue an order dismissing the 
applications as it was required by its rules to do. However, in 
addition, the FCC contemporaneously released a preliminary staff report 
evaluating the merger. The matter and the FCC's involvement in it, in 
my view, should have ended with the order of dismissal required by the 
FCC's rule on the subject. No further action was required or warranted, 
but the FCC took further action, however, by also releasing a staff 
draft that recommended that the FCC designate the proposed transaction 
for an administrative hearing. The recommended hearing will not now 
take place--so why release the report at all.

    The Chairman. It will be included.
    Senator Blunt. I do have a couple of questions. And first 
of all, I would preface those by saying, as I think we all had 
a chance to talk about as you both were nice enough to visit 
the office. Thanks for your service.
    Ms. Rosenworcel, thanks for your real understanding of 
these issues. All you've done for the Committee.
    And, Mr. Pai, thanks for your service in the Senate, even 
if it did include a substantial amount of time with my chief of 
staff, Glen Chambers.
    [Laughter.]
    Senator Blunt. You worked for Senator Brownback.
    And I am glad you are both willing to be here today and 
willing to make yourself available for these important jobs.
    You know, one of the challenges I think the FCC has faced 
and will continue to face, as the Congress also faces it--is 
this is an area that changes so quickly that I've believed for 
a long time that the odds that you will actually solve a 
problem while it's still the problem are pretty slim.
    And the odds that you'll create a greater problem by trying 
to solve a problem that's passed you by are greater than that.
    I remember when we did the Telecommunications Act when I 
was on the Commerce Committee in the House in the late 
nineties, I guess it was, when we did that. And then came back 
to that 5 years later, nothing that we thought was important 
was still important. I remembered all the things we divided up 
on, and all the debates we had and all the friction--none of it 
mattered any longer, 5 years later.
    I also remember the many times I've asked my staff, what is 
the definition of net neutrality this month?
    [Laughter.]
    Senator Blunt. Because it was a constantly moving target, 
and, you know, one of the issues that Senator Hutchison brought 
to the floor recently was, let's look at the net neutrality 
position that the Commission has taken.
    And my view and view of many others is that if you regulate 
too much here, you'll slow down the development of these 
services rather than speed them up. And as you slow them down, 
you'll make them more difficult and maybe even more expensive, 
not less expensive. And those are issues I hope you'll think 
about a lot.
    Mr. DeMint talked about--one other topic is that, as 
Commissioners--and my belief is that you'll both become 
Commissioners--the Commission has never been able to fully 
define, at any place I've been with the Commission, 
``underserved'' and ``unserved.'' And there is a big 
difference. And there is a particular difference when somebody 
has come in and created a network with their own money and then 
somebody in the government decides, well, to speed of that 
network isn't quite quick enough, so we are going to subsidize 
somebody to come in and compete.
    I think we need to be extraordinarily careful with that. 
And assuming you both go on the Commission, I suspect one of 
the first questions I will ask when we meet again is, what's 
the difference between ``unserved'' and ``underserved'' and 
what are you doing about it.
    And I have a much different view of what the Congress 
should do for ``unserved'' areas of the country than I do ill- 
defined ``underserved'' areas of the country.
    Now for two quick questions. One is, I don't want you to 
comment on the proposed merger that has been out there for 
awhile between AT&T and T-Mobile. But I was concerned yesterday 
when the Commission staff released their view of that merger, 
even though the merger request had been withdrawn.
    So I guess my question is does the Commission speak through 
the Commission or does it speak through the staff and how do 
you view the actions of the Commission as a Commissioner and 
you may or may not say anything about the idea that staffers 
will either be directed to or just decide that they are going 
to, on their own, announce their view of issues that may or may 
not be before the Commission.
    Mr. Pai, do you want to start?
    Mr. Pai. Thank you, Senator, for that question. Obviously, 
the Chairman is the manager of the full Agency, usually in 
consultation with other Commissioners, and if I were fortunate 
to be on the Commission and consulted about a question like 
this, my recommendation to him, as it would be to the staff, 
would be simply to abide by the Commission's rules to look at 
any past precedent to make sure that whatever the Commission 
was proposing to do was consistent with those rules and with 
that practice.
    Senator Blunt. And what if there is no Commission action 
pending? Should the Commission gratuitously put information out 
there?
    Mr. Pai. I haven't had an opportunity to explore the staff 
report you are referring to or, frankly, even news articles and 
it just broke while yesterday while I was meeting with a number 
of the Members of the Committee.
    But I will say that I view the Commission's discretion as 
one that should be exercised very carefully and to the extent 
that the release of a staff report along those lines in the 
context of a proceeding that doesn't currently exist--to the 
extent that aggravates people in the industry or people on the 
Hill that that's something that I would take into account.
    Senator Blunt. And I believe, Ms. Rosenworcel, my 
question--by the time I got done Mr. Pai had two--but was, does 
the Commission act through its actions or through the staff?
    Ms. Rosenworcel. I would have a very hard time improving 
upon the answer from my colleague. I think that what occurred 
yesterday was--the Chairman who directs the Agency chose to 
release that report. I believe it's within his statutory 
authority to do that, although I will acknowledge it is 
probably unprecedented.
    Senator Blunt. My second question is, you know, 30 years 
ago when there was much less media than there is now, there was 
a doctrine called the Fairness Doctrine. I would be opposed to 
seeing that doctrine put back in place. And, as Commissioners, 
I am asking what your view would be on that. Mr. Pai?
    Mr. Pai. Senator, I would share your view. And I believe 
Chairman Genachowski does as well. He recently took action to 
remove that regulation from the books, given that it had 
somehow stayed on the books for sometime.
    Senator Blunt. Ms. Rosenworcel?
    Ms. Rosenworcel. I do not support returning the Fairness 
Doctrine.
    Senator Blunt. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Now we will have Senator Toomey, to be followed by Senators 
Lautenberg, Klobuchar, and--so that you're aware. Please.

             STATEMENT OF HON. PATRICK J. TOOMEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Toomey. Thank you, Mr. Chairman. And thanks to both 
of you for joining us today. Welcome to the Committee. 
Congratulations on your nomination and thanks for your 
willingness to serve. This is a tough job that you are heading 
toward and so I commend you for that.
    I just have one quick question. As we all know, December a 
year ago the Commission adopted the Open Internet order, 
currently a subject of litigation. I think it is before the 
D.C. Circuit Court of Appeals.
    In the event that the Commission loses that case, which is 
a possibility, of course, would you each comment on whether or 
not you would support the idea of reclassifying broadband as a 
telecommunications service under Title II of the Act?
    Ms. Rosenworcel. As I noted earlier, the Commission has had 
a practice during the past decade of treating those services as 
information services pursuant to Title I. The Supreme Court 
upheld that approach. I think there has been a fair amount of 
reliance on it.
    But I think the ultimate decision will depend upon the 
findings of the D.C. Circuit, and I would certainly as 
Commissioner if confirmed agree to abide by that.
    Senator Toomey. Mr. Pai?
    Mr. Pai. Senator, if I were fortunate to be confirmed, I 
would have some concerns about reclassification to the extent 
that the imposition of those types of common carrier 
regulations might dampen economic investment, the willingness 
to take risks, and that is something that ultimately might harm 
consumers. And so to that extent, I would be a little hesitant, 
especially if it came as posed in your hypothetical, in the 
wake of two court of appeals decisions that the Commission 
lacks authority elsewhere to pursue that route.
    Senator Toomey. Now, Ms. Rosenworcel, if I could just 
followup. I guess what I am trying to understand is, if the 
court decision does not provide guidance on this specific 
question, if it's silent on this question of whether it is 
appropriate to reclassify broadband under Title II, do you have 
a personal opinion about whether Title II is an appropriate 
regulatory framework?
    Ms. Rosenworcel. I think these are new areas in the law, 
and I think that we would just have to follow the decision of 
the court.
    Senator Toomey. OK. Thanks. Thank you, Mr. Chairman.
    The Chairman. Could you repeat that, please, Ms. 
Rosenworcel? And also, pull that mike a little bit closer. Some 
of your words are----
    Ms. Rosenworcel. Sorry about that. I would just say that 
these are some new areas in the law and we would be duty-bound, 
were I to serve at the Commission, to follow that decision of 
the court.
    The Chairman. Thank you, Senator Toomey.
    Senator Lautenberg, to be followed by Senator Klobuchar, 
and then Senator Begich.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thank you very much, Mr. Chairman. And 
thank each of you for bringing your incredibly vast experience 
at a fairly tender time in life, to agreeing to serve in the 
capacity that you're being reviewed here for.
    And I would start, Ms. Rosenworcel. Broadcasters have to 
fulfill a public interest obligations in exchange for using the 
public airwaves. In your view, does a broadcaster need to 
provide local news coverage of the community it's licensed to 
serve in order to satisfy these public interest obligations?
    Ms. Rosenworcel. Broadcasters are trustees of the airwaves 
and they receive licenses in communities and they have a duty 
to serve that local community. And part of that should include 
things like providing locally relevant programming like news 
and information.
    Senator Lautenberg. Do you share that view, Mr. Pai?
    Mr. Pai. I do, Senator.
    Senator Lautenberg. I would ask each of you to respond to 
this question. In 2007, the FCC held a hearing in Newark, New 
Jersey, on the license renewal of WWOR television. New Jerseans 
testified about the station's failure to cover New Jersey news 
and events. Four years later. Four years later, this station is 
still operating under an expired license, and there is evidence 
that its service to New Jersey has gotten even more limited.
    Now if you're confirmed, and I address this to each of you, 
would you review the record in this case thoroughly so--can I 
count on you to review this four-year lapse in getting a 
decision on whether or not this license ought to be renewed?
    Mr. Pai. Senator, you have my commitment to doing so.
    Ms. Rosenworcel. Yes. Absolutely.
    Senator Lautenberg. For each of you, again. New Jersey is a 
net contributor of close to $200 million a year to the 
universal service fund. And, as the USF has kept growing, the 
burden on New Jersey and other donor states has kept getting 
bigger and bigger. And as the FCC considers reforming the USF, 
can I count on you to work to bring some fairness and balance 
into the distribution of the funds that come in? New Jersey 
contributes $5 for every dollar it gets in services.
    So, can I ask you each to respond to the question. Will you 
insist on a look at the equity here?
    Mr. Pai. Senator, as I mentioned in response to an earlier 
question, the Commission did indeed tee-up the contribution 
side of the universal service fund for consideration next year. 
And if I am fortunate to be confirmed, I would dig into the 
record very carefully and make sure that the appropriate 
reforms are taken to the universal service fund on the 
contribution side.
    Ms. Rosenworcel. I agree with my colleague. The universal 
service system needs to be a fair one.
    Senator Lautenberg. Very few media outlets are focused 
first and foremost on New Jersey. The state-owned television 
station, NJN, recently went through a dramatic change and is 
now operated by a company from New York.
    Now, once again, I ask you, can I get your commitment to 
watch the new NJN situation closely to make sure that it lives 
up to the obligations to the people in our state?
    Mr. Pai. Yes, Senator.
    Ms. Rosenworcel. Yes.
    Senator Lautenberg. I will ask you one more question, 
please. And that is, some have criticized giving additional 
spectrum capacity to the public safety community on the basis 
that the commercial sector may need this spectrum in the future 
to address customer and network demand.
    What do you see by way of network demands and new 
technology needs that the public safety also faces?
    Mr. Pai. Senator, I think, as the Chairman pointed out, a 
decade after 9/11, it is not acceptable that we are still 
wrestling with the question of whether and when public safety 
personnel arrive at the scene of an accident or a tragedy and 
whether they will be able to communicate.
    The question of how to revolve that question, of course, is 
entrusted to Congress in the first instance, and if I were 
fortunate to be confirmed, I would respect and would faithfully 
implement Congress' decision appropriately.
    Ms. Rosenworcel. Thank you for the question, Senator. One 
of the facts that I have heard discussed in this room several 
times is that the average 16-year-old has more functionality in 
their handheld phone than our police and firefighters do today.
    Providing them with better spectrum, which can lead to 
better devices, can actually lead to all or our safety being 
improved, as well as their safety, so I would be supportive.
    Senator Lautenberg. On 9/11, Mr. Chairman, New Jersey lost 
700 people. The toll that 9/11 took was over 3,000 people, 
larger that day than the landing at D-Day, larger that day than 
Pearl Harbor. The situation was worsened by the fact that there 
was little or no communication between those who rushed into 
that building to save other people's lives and paid for it by 
giving their own. And the one thing that we have to do is make 
sure that we have the operability that's required for us to be 
responsible in a way that is efficient and its being.
    Thank you very much.
    The Chairman. Thank you, Senator. Senator Klobuchar, to be 
followed by Senator Begich, Senator Snowe, and Senator Wicker.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Congratulations to both of you on your nominations. You both 
are very impressive.
    And I did want to report, Ms. Rosenworcel, that your 
children--I visited them when I had a meeting. They are eating 
apples, they are coloring, and they are most shocked that you 
are on TV.
    [Laughter.]
    Senator Klobuchar. And I don't think that we need to tell 
them that it wasn't network, that it was just the closed 
instead, and we will make them think it was a big deal.
    I had my first question--and Mr. Pai, by the way, your 
family is so engaged in these questions, I'm afraid they are 
going to answer them in a minute.
    [Laughter.]
    Senator Klobuchar. So they have your back.
    Mr. Pai. They are more than welcome to sit in the hot seat, 
Senator.
    [Laughter.]
    Senator Klobuchar. OK. Very good.
    My first question, on competition. As you know, one of the 
main goals in passing the Telecom Act of 1996--by the way, I 
practiced in this area at that time--was to open up the 
communications market to competition. And still the national 
broadband plan found that a vast majority of Americans can only 
choose between at most two broadband providers and there are 
still challenges.
    What role do you think the FCC should play to ensure 
adequate competition in the communications market?
    Ms. Rosenworcel. I think that increasingly we are going to 
see more and more intermodal competition, so making sure more 
wireless spectrum is available, so that there can be more 
competition from wireless is a good place to start.
    Senator Klobuchar. OK.
    Can you add anything?
    Mr. Pai. Senator, I would build upon that answer simply by 
saying that to the extent that the Commission can do so, it 
should make sure that the rules of the road don't differentiate 
between the particular technology that is used.
    I think a lot of times the Commission is dealing with 
regulations that apply to telecommunications carriers but not 
to cable providers, to cable providers but not to wireless 
providers. And to the extent that those industries are 
competing in the same space, I think it is important to have 
technological neutrality with respect to the Commission's rules 
in order to ensure that everyone is competing on a level 
playing field, and ultimately consumers benefit.
    Senator Klobuchar. Very good. You mentioned wireless right 
off the bat, and as you know, I have been very involved in some 
of the consumer protection issues there, particularly focused 
on early termination fees. We have seen some changes and 
improvements, but I still hear about it at home.
    What role do you think the FCC needs to play in the 
wireless consumer protection area?
    Ms. Rosenworcel. I think when consumers have grievances, it 
is the duty of the FCC to pay attention. They should continue 
to monitor the early termination fee situation you describe and 
also look at newer issues like bill shock, on which there has 
been recent progress.
    Senator Klobuchar. Very good. The incentive auctions. As 
you know, Chairman Rockefeller has been working very hard to 
get our bipartisan bill through for the interoperable public 
safety broadband network. Some other Senators have referenced 
that. I have one particular thing I just wanted to bring to 
your attention.
    As you know, Minnesota is on the Canadian border. We are 
always used in the TV ads for the coldest place to test cars 
and things like that. Well, some broadcasters in our state have 
raised this issue, that Minnesota--that they will have to 
coordinate not only with the FCC but also the Canadian 
government.
    And I understand that as part of the DTV transition 
northern Minnesota broadcasters have been working to find new 
TV channel allocations but have faced delays in getting their 
applications approved.
    And I just wanted to know, if confirmed, if you'll work 
with us and with them to make sure that we can address these 
issues if they may arise as part of any voluntary auction 
process.
    Ms. Rosenworcel. Yes.
    Senator Klobuchar. OK.
    Mr. Pai. Yes, Senator.
    Senator Klobuchar. That will require you to go there in 
January. So I am glad you took that on.
    [Laughter.]
    Senator Klobuchar. I am Chair, along with Senator Burr, of 
the E-911 Caucus, and that is also obviously a--always an issue 
and always a challenge for all of this and we know that there's 
a number of issues with E-911, particularly more and more 
households are cutting the cord and relying exclusively on 
wireless, raising all kinds of opportunities as well but also 
challenges.
    And almost one-third of all Americans just have wireless 
devices. Wireless calls present different challenges in 
determining the location of a citizen. I have heard all kinds 
of crazy stories about people stuck when their snowmobiles 
break down, but we won't go into that. And I understand the FCC 
is working to close the accuracy gap between mobile and 
landline 911 calls.
    Do you believe in sharing location accuracy is an important 
priority as we look at implementing E-911?
    Mr. Pai. Senator, I do believe it is an important priority 
and if confirmed I would look forward to working with you and 
the other Members of the Committee to ensure that that goal is 
met.
    Senator Klobuchar. Very good.
    Ms. Rosenworcel. Yes, Senator.
    Senator Klobuchar. OK. Thank you.
    Just two other things I wanted to mention and then I will--
we have many people waiting to ask questions.
    Senator Warner and I are later this week reintroducing our 
Dig Once bill and we look forward to working--the idea is, if 
you are digging up for Federal highway projects that you also 
try to put the cable in. Very appealing to states that have 
short highway construction time periods, like Alaska and 
others.
    And so I hope that you will look at that. It was 
incorporated in the national broadband plan, but we are hoping 
that we can work further on that as we go forward.
    And the second thing is, obviously, the importance of 
universal service reform and I will ask you that maybe in 
writing.
    But we're run out of time, but that is clearly the way to 
go as we move forward with broadband.
    So, thank you very much to both of you.
    Mr. Pai. Thank you, Senator.
    The Chairman. Thank you, Senator, very much.
    And Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you, Mr. Chairman.
    A couple of quick questions. First, obviously, thank you 
both for visiting my office. Thank you for your willingness to 
serve, and once you have gone to the balmy Minnesota, I would 
expect that you would have come to Alaska, where it was 42 
below in Fairbanks last week.
    [Laughter.]
    Senator Klobuchar. He always has to one-up.
    [Laughter.]
    Senator Begich. And that wasn't even above the Arctic 
Circle, so.
    But I do want to invite both of you--I know you have 
already been there--I don't think you have been----
    Mr. Pai. Yes.
    Senator Begich. You have been.
    But I would like to invite you both back as Commissioners. 
Is that something obviously you would be willing to do? We 
don't care what time of the year. You get credit if you come in 
January.
    [Laughter.]
    Ms. Rosenworcel. Yes. Forty-two below, I'm hearty.
    Mr. Pai. Senator, I will do everything within my power to 
clear my calendar in July and August.
    [Laughter.]
    Senator Begich. Good. Honesty goes a long ways.
    Let me thank you again for being here. Let me ask you kind 
of a philosophical question on universal service fund.
    I heard your answers to Senator Lautenberg. And to be 
frank, and you've heard me say this, when I hear the word 
``fair'' system, usually that means, to be very frank with you, 
Alaska gets kind of left out, because there is no other state 
like it, in the sense of its vastness. Eighty percent of our 
communities are not connected by roads. Our highways are in the 
air--literally.
    And broadband and wireless is a critical component to our 
long-term economic health or our ability to educate folks in 
rural communities as well as deliver health care and medicine.
    So, let me--if you could, either one, whoever wants to 
start--give me your sense. Let me preface it by saying I 
understand--let me ask you this way.
    How do you see the resources of the universal service fund 
being used, and what are those priorities?
    Understanding there's revenue issues, but the idea of 
universal means some pay more to benefit the whole system.
    So, with that premise, give me your thoughts on how you 
would prioritize utilization of the universal service funds. 
Whoever wants it.
    Ms. Rosenworcel. The fund--as you know, it is not infinite. 
And so I think when I said ``fair'' before what I meant was 
``smart''.
    What we have now are data that tell us where broadband is 
and where broadband isn't. And I think it's incumbent on the 
Agency to use that data to be smart about where those funds 
flow.
    And in rural communities where is no service today, that 
should be our first goal, to try to address those problems, 
Alaska included.
    Mr. Pai. And, Senator, I would associate myself with those 
remarks. I would also add that having gone to Alaska as we 
discussed at our meeting, I think I would take a personal 
appreciation of the uniqueness that the problem has in Alaska, 
having gone from Denali to Kenai to Glacier Bay. It's hard to 
imagine when you look on a map, but I saw a little smidgen of 
the state. So I have a personal appreciation of how important 
it is for the fund to take account of the unique circumstances 
in which your state citizens find themselves.
    Senator Begich. That latter statement, would you agree with 
there's a little bit of uniqueness of what Alaska has to deal 
with in its area?
    Ms. Rosenworcel. Absolutely. As we spoke in your office a 
few days ago, I have spent time in Alaska communities that are 
not on the road system, on gravel runways that count as the 
airport.
    So I am familiar with its uniqueness, yes.
    Senator Begich. Right. Very good.
    Let me ask you again, in regard to--as we build out, one of 
the challenges I mentioned to both of you, in our state because 
have to use such a variety of systems in order to create 
communication networks, in this process of reform to universal 
service fund, you also have these smaller companies, these co-
ops, these companies that invested, built-out hardwire and now 
they are trying to transition to wireless. But their transition 
period may not be as long as maybe--or as short as the FCC 
would like, to make these transitions.
    How do we deal with that? Because they put these capital 
investment in to build out, to meet a communication need that 
didn't exist and now is important for us, recognizing they are 
shifting toward, you know, more broadband wireless systems. How 
do we address that, knowing that you are FCC and you are not 
over here, but at the end of the day, all of these resources 
funnel through the Federal Government in some form or another?
    Who wants to take on that little----
    Ms. Rosenworcel. Well, let me provide you with two answers. 
In the first instance, difference arms of the government should 
be talking to each other about this. That will create----
    Senator Begich. Do you think the FCC does enough of that 
now?
    Ms. Rosenworcel. I think they could do more.
    Senator Begich. OK.
    Ms. Rosenworcel. And the second point I would make is that 
there should be no flash cuts. We should recognize that many of 
those companies had an honest reliance on a government 
commitment, and we should find a way so that they can slowly 
navigate to whatever new frameworks the Commission adopts.
    Mr. Pai. And, Senator, I also think that a reliance 
interest and consideration of the important value that those 
carriers provide to citizens of Alaska is something the FCC 
should definitely take into account if and when it goes about 
reforming the fund.
    Senator Begich. Very good. Well, first, again thank you 
very much and I appreciate the time to ask you some questions. 
I'll have some I'll probably submit for the record, just some 
followup.
    But again, thank you. I look forward to seeing you in 
Alaska, maybe July or August--or January.
    [Laughter.]
    Senator Begich. Thank you very much.
    Mr. Pai. Thank you.
    The Chairman. Thank you, Senator Begich.
    The two nominees should understand that history has been 
made here today. It is the very first time that Senator Begich 
has ever referred to Alaska as being maybe more needful of 
attention than other states, all of which are very small and 
far away.
    [Laughter.]
    The Chairman. So he has overcome his shyness today and it 
is quite remarkable. You should be very proud.
    [Laughter.]
    The Chairman. Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you. And I want to welcome both of 
you. You certainly represent such an impressive array of talent 
and expertise and experience and they will be fortunate to have 
you on the Commission.
    Second, I appreciate your unequivocal, indisputable support 
for the e-Rate in your response to The Chairman: Correct 
answer.
    One of the first issues I wanted to raise was regarding 
comprehensive spectrum inventory. I happen to think that in 
order to have a true analysis of what exists in the spectrum, 
who is using it, by whom, how much is available, that we should 
have an inventory of the spectrum, and that is the legislation 
that Senator Kerry and I have introduced over the last several 
years, which we think is absolutely essential. There is no--
really any way to discern exactly what is available.
    What is your response to that, Ms. Rosenworcel and Mr. Pai, 
in terms of what you think would be necessary to establish a 
complete analysis of what exists for spectrum?
    Second, Chairman Genachowski in his response to a letter 
that I submitted concerning this issue indicated that they had 
conducted a baseline inventory. But as I could understand it, 
it really essentially didn't examine the breadth of what 
existed and whether or not they had followed up with licensees 
in terms of how they are using spectrum, who is using spectrum, 
and to what degree they were using it.
    So, would you think that a baseline inventory is sufficient 
to accomplish the goal of a comprehensive spectrum inventory?
    Ms. Rosenworcel. As you know, spectrum is a scarce but 
valuable resource. And I think it's incumbent on the Federal 
Government to constantly be assessing how it's allocated, how 
it's assigned, and how it's used. So I agree wholeheartedly 
with your desire to see a robust spectrum inventory.
    I recognize the FCC has done some work on its spectrum 
dashboard. I think that over time the goal should be to make 
that a much more robust inventory.
    Senator Snowe. But don't you think that we should do an 
analysis now at the forefront of this process?
    Ms. Rosenworcel. Yes. Although I don't think that we will 
have the luxury of time to make this all sequential. I think 
our international counterparts have more spectrum in the 
pipeline than we do. I think the demand for the wireless 
airwaves is tremendous. So we are going to have to operate on 
multiple fronts all at the same time.
    Senator Snowe. Mr. Pai?
    Mr. Pai. Senator, as much as I hate piggy-backing 
shamelessly on my colleague's answer, I find it hard to improve 
upon it. I would say simply as a general matter, it is 
difficult for the Commission or frankly any other agency to 
make the use of spectrum more efficient and to allocate it more 
effectively if we don't know who is using it. And so that's 
certainly a concern that I would take, were I fortunate to 
serve on the Commission.
    Senator Snowe. With respect to how you improve upon the 
technological innovations and the reusing opportunities, one of 
the issues, of course, is incentive auctions. And obviously I 
think that there has been a disproportionate reliance on 
incentive auctions and to provide--I understand that the FCC 
believes it will yield up to 24 percent of 500 megahertz.
    On the other hand, that's just a very small amount of 
what's going to be required by 2020, in terms of the demand and 
the explosive growth in wireless broadband.
    So, how best to develop these technological innovations? 
What should be done in order to establish a better approach 
than otherwise just relying on incentive auctions?
    Ms. Rosenworcel. Thank you for the question. I know that 
you've done a lot of work on this. And I would say that we have 
a real demand for spectrum but we would be foolish if all we 
did was rely on things like incentive auctions and the 
auctioning of spectrum.
    We have to start devoting our intelligence and our 
resources toward developing better technologies that use 
spectrum more efficiently and also studying the topology of 
networks so that we can be more efficient with the networks we 
do have today.
    Senator Snowe. But in what time-frame should that happen?
    Ms. Rosenworcel. It should happen immediately.
    Senator Snowe. Can it happen immediately?
    Ms. Rosenworcel. If confirmed, I can tell you that I would 
certainly make it a point of trying to do my best to do so.
    Senator Snowe. Thank you. Mr. Pai?
    Mr. Pai. Senator, I also think that, if I were confirmed, I 
would urge the Commission to do whatever it could to create a 
regulatory framework that incentivizes that development as 
quickly as possible.
    Senator Snowe. Well, I think it is critical because 
otherwise obviously we understand what's going to happen here. 
In terms of incentive auctions, obviously there is a drive in 
that respect because it yields revenues.
    On the other hand, I think it's clearly important to do 
everything we can to maximize the availability of spectrum. 
And, as you say, you can only reallocate or redistribute it. We 
can't manufacture it. So we've got to figure out the best way 
to enhance our opportunities to know what is available and how 
to best to utilize it.
    One other issue, if--a couple of other issues, if I might, 
Mr. Chairman.
    One is on the question on the management of the spectrum in 
terms of who has the ultimate decisionmaking authority.
    The Government Accountability Office, the GAO, has issued 
several reports over the last decade suggesting that one of the 
real difficulties is, is that you've got two different 
authorities, the FCC and the NTIA that oversees spectrum policy 
between the government and non-government users, and that 
ultimately--that to have less confusion that it would be best 
to have one ultimate decisionmaker or authority over the 
spectrum.
    Do you agree or disagree?
    Ms. Rosenworcel. I think that's a fair point. I think that 
historically they have not coordinated as much as they could, 
and as spectrum grows more and more valuable, I think it's more 
essential that they coordinate and work closely together.
    Senator Snowe. Mr. Pai?
    Mr. Pai. Senator, I agree that they should coordinate more 
closely as well. The question of how, if at all, to merge or--
the respective agencies' authority, of course, lies within the 
province of Congress and that is something that I would look to 
this Committee for guidance on.
    Senator Snowe. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Snowe. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. I have a brief 
statement for the record.
    [The prepared statement of Senator Wicker follows:]

     Prepared Statement of Hon. Roger F. Wicker, U.S. Senator from 
                              Mississippi
    Thank you Chairman Rockefeller and Ranking Member Hutchison for 
holding this hearing in such a timely manner. With all the important 
issues across the telecommunications and technology landscape that need 
to be considered, now more than ever, it is important that we have a 
fully-staffed Federal Communications Commission. To that end, I am glad 
to see two such qualified nominees before us today. Welcome to you 
both.
    As a Senator representing a rural state, a primary concern of mine 
is that our Nation's rural areas have the same access to the economic 
benefits of broadband as those in urban areas. Over the past few years, 
both Congress and the FCC have worked to put forward initiatives to 
enhance the widespread availability of broadband, from releasing more 
spectrum in the marketplace, to updating the Universal Service Fund. 
And there is still more work to do in both those areas.
    As we continue to consider these issues, it is important that we in 
Congress--and Commissioners at the FCC -ensure the policies we put 
forward are technologically neutral. This means not favoring one sector 
of industry over another and having a level regulatory playing field 
that will enhance competition, innovation, and ultimately options for 
the American consumer.
    Both nominees before us today have extensive experience both on the 
Hill and at the FCC, and are more than qualified to handle not only the 
challenges of expanding broadband availability and competition, but 
also the myriad of other topics the Commission considers daily.
    Thank you again Mr. Chairman, I look forward to hearing from our 
nominees.

    The Chairman. We will put it in the record.
    Senator Wicker. I want to commend these nominees, and 
observe that by this point in the hearing you're probably 
feeling pretty good about your chances for confirmation.
    [Laughter.]
    Senator Wicker. Let me just say, my brief statement 
mentions that I'm from a state that has quite a bit of rural 
area to it, and a great concern of mine is that our Nation's 
rural areas have the same access to the economic benefits of 
broadband as those in the more populated areas.
    In that regard, Ms. Rosenworcel, with regard to the FCC's 
recent USF order dealing with competitive wireless, a number of 
people feel that wireless was unfairly and illogically targeted 
in this order.
    What do you say to that and what effect do you think the 
FCC's order will have on broadband competition, particularly in 
rural areas, such as Alaska and West Virginia and Mississippi?
    Ms. Rosenworcel. I think the FCC's recent order is at 
attempt to aggregate the data we have about where service is 
and is not. And I think it is an effort to try to take scarce 
resources in the universal service fund and then direct them to 
places where service is not today.
    But I think that the Agency will need to continually 
evaluate how those funds are spent to make sure that we 
actually do reach unserved areas in Mississippi, Alaska, West 
Virginia and any other state across the country.
    Senator Wicker. Mr. Pai?
    Mr. Pai. Senator, I would add Kansas to that tally. Having 
grown up in rural Kansas, I am keenly sensitive to the 
importance of preserving universal service to all areas of the 
country, especially to rural areas. I readily confess that, 
although the order is a scant 759 pages, I have not have the 
opportunity to dig into all its particulars, but I do know that 
the Commission is going to be actually considering these issues 
in the next year, and if confirmed, I certainly would take your 
concern to heart as the Commission moves forward.
    Senator Wicker. OK. Well, I appreciate that and I do hope 
so.
    Let me move to device interoperability which remains a top 
priority of mine.
    As we continue to transition to a broadband world, device 
interoperability becomes more important. Are you familiar, Ms. 
Rosenworcel, with the correspondence that Senator Rockefeller 
sent to the Agency stressing the importance of interoperability 
as a requirement to support public safety, as well as foster 
innovation?
    Ms. Rosenworcel. Yes, Senator.
    Senator Wicker. And what do you think the FCC can do to 
implement these principles, and specifically, how do you think 
interoperability can be achieved within the 700 megahertz? I 
know you are familiar with this.
    Ms. Rosenworcel. Yes. It's a big, complex question. I would 
say it's also a very important question, because 
interoperability is so essential to communications. Small rural 
carriers that have spectrum in the 700 megahertz band may find 
that their customers are unable to actually use their devices 
when they leave home and need to roam on other networks.
    And that's a real problem. So I think something needs to be 
done to address this, while also recognizing that there are 
real technological challenges and costs associated with 
addressing it.
    I do know that industry standard-settings bodies are 
looking into this issue and I think the FCC should follow up on 
their work.
    Senator Wicker. You don't have any question, do you, that 
the technological challenges can be addressed and overcome?
    Ms. Rosenworcel. I am an optimist that they can be worked 
on.
    Senator Wicker. And, Mr. Pai, I'll let you take a stab at 
that issue.
    Mr. Pai. Thank you, Senator, for the question. I agree that 
it's an important balance to be struck. I think 
interoperability is a topic that has consumed a lot of this 
Committee's attention and for good reason. It's critical for 
consumers. It's critical for public safety personnel and other 
constituencies.
    And with respect to the particular question with respect to 
700 megahertz, that's an issue that obviously the Commission is 
going to have to grapple with. And I would take the concerns of 
some of the smaller carriers you refer to into account as the 
Commission figures out what to do about that issue.
    Senator Wicker. Thank you, I appreciate that, and I do hope 
so. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Wicker. And now 
Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. And I want to 
congratulate our nominees on being with us today, your 
nominations to the FCC, both to Mr. Pai and Ms. Rosenworcel. 
Thank you for being here and we'll look forward to working with 
you.
    There are lots of issues that are going to fall under your 
jurisdiction and I think all of us have benefited enormously 
from just the advances that we have seen in technology.
    People today conduct business, communicate with friends, 
pay bills--there are so many things that we do with technology 
today and it's important that in a knowledge-based economy and 
society that we live in that we have broadband service that's 
available to everyone because it has become literally an 
absolute necessity in terms of getting anything done.
    And so I'm very enthusiastic about the substantial growth 
that we've seen in the telecommunications sector of our 
economy, but I am also concerned that there are areas in the 
country that are underserved and continue to lag behind the 
rest of the American population when it comes to the deployment 
of broadband.
    I believe it's important in USF reform that it help give 
all Americans, including those in tribal areas and rural areas, 
access to broadband service. So, I hope that if confirmed you 
will both continue to monitor the reform efforts to ensure that 
USF is not only fiscally responsible but also sustainable over 
the long run.
    And ultimately an economically sound USF is going to create 
fairness and certainty in the competitive marketplace. And I 
know, Mr. Pai, you're from Kansas. Ms. Rosenworcel from--I 
think from Connecticut. Is that right?
    So you probably have some experience in your states with 
some of the more rural areas, but I certainly would welcome you 
to travel to South Dakota as well, to gain a perspective on how 
these issues play in rural areas of the country. So I would 
like to extend that invitation to you today.
    Another important topic in my state is the issue of telecom 
mergers and the associated divestiture packages. I am concerned 
about the effect the divestitures on rural states like South 
Dakota have had and I would also ask you if confirmed to look 
into that issue to make sure that those packages are truly 
preserving competition and not negatively impacting certain 
regions of the country.
    And to that point, and I have raised that with Mr. Pai, we 
had--in my state of South Dakota when Verizon acquired Altel 
back in 2009, the Justice Department permitted the merger to go 
forward on the condition that a divestiture take place that 
ultimately allowed AT&T to take over Altel's assets in South 
Dakota.
    As a result, Altel's customers suddenly found themselves in 
dead spots where there hadn't been any before. And now AT&T, of 
course, is reportedly floating a package of divestitures in an 
attempt to obtain Justice Department approval of its merger 
with T-Mobile. And I have concerns about how those proposed 
mergers might impact my state.
    And so I wonder if you might be able to comment on that 
issue, sort of your perspective on it, and how you intend to 
deal with those issues as they come before you.
    Mr. Pai. I can take this one, Senator. Senator, thanks for 
the question. As a general matter, I would take a case-by-case 
look at every transaction to determine whether or not a 
divestiture were in the public interest. And to the extent that 
I believe that a divestiture actually would harm consumers 
rather than benefit them, that is not something that I would 
support.
    I think the very purpose of a divestiture is to address a 
competitive harm that would be presented by the consummation of 
a merger and so it seems, as highlighted in the article that 
you mentioned from South Dakota, it seems counterintuitive then 
that the FCC or the Department of Justice would insist on a 
divestiture that ultimately did not redound to consumer 
benefits.
    So, whether it's in Deadwood or Detroit, I think, the FCC 
should be very careful about imposing conditions of that type.
    Ms. Rosenworcel. Divestiture is a traditional tool of 
antitrust in order to make sure that a transaction maintains 
competitive markets. But I do think it is fair in a divestiture 
situation to first ask if that divestiture will harm or benefit 
consumers.
    I am familiar with the article you are talking about, from 
the Wall Street Journal, and it makes some interesting points. 
And I think it should be studied further.
    Senator Thune. But I hope that you will, it's something 
that you will pay close attention to, is those issues--as you 
deal with those issues in the Commission.
    As I travel around my state and around the country, one of 
the reasons that employers say they are not hiring people is 
because of economic uncertainty caused, in some cases, by 
Federal regulatory actions, and whether that's health care 
reform, regulations coming out of EPA, Dodd-Frank, you can kind 
of go down the list.
    And I guess I would be interested in knowing, one, your 
thoughts on whether or not excessive regulation is a 
contributing factor to high unemployment. And if confirmed, how 
you would use your positions to limit the types of harmful 
regulations that limit economic growth and kill jobs, and 
furthermore, how would you promote the kind of economic 
certainty that I think businesses are looking for out there 
today?
    I just think dealing in a world of uncertainty makes it 
very difficult for people to make investments and for our 
economy to create the types of jobs that are necessary to get 
people back to work.
    I know it's a fairly broad question. So feel free to 
approach it however you would like, but I am interested in your 
sort of overall perspective.
    Ms. Rosenworcel. Well, Senator, I think that clear rules of 
the road inspire investment. And investment creates economic 
growth. So if I were confirmed, I would certainly try to make 
sure that in my position as FCC Commissioner that I contributed 
clarity in any regulatory policy.
    Mr. Pai. And, Senator, I agree with that completely. I 
think uncertainty disserves the parties to a transaction, the 
parties in the rulemaking proceeding, and ultimately consumers. 
Because if companies feel reluctant to invest in next 
generation networks and other technologies, ultimately economic 
growth suffers and consumers suffer.
    I would also suggest, with response to your second 
question, I think it was, were I fortunate to be confirmed, I 
would urge the Commission, either explicitly or implicitly to 
really view whatever proposed order or proposed action it was 
taking through the prism of job creation and economic growth.
    I think obviously these are very difficult times for 
Americans. Millions of people are out of work. The unemployment 
rate is much higher than we would like it to be, for a longer 
period than it ever has been.
    The telecommunications sector by some measures represents 
one-sixth of the American economy and I think our recent 
experience is that it has been one of the more dynamic areas of 
the economy. So to the extent that the Commission can adopt a 
regulatory framework that incentivizes the industry to continue 
to be dynamic, to continue to be vibrant, to continue to create 
jobs, I think that's something that I would find valuable, both 
as a consumer, frankly, but also as a Commissioner at the 
Agency.
    Senator Thune. Good. Thank you. Appreciate that answer. 
Thank you, Mr. Chairman. My time has expired.
    The Chairman. Thank you, Senator. I have an announcement to 
make, a couple of announcements to make.
    Actually I have one more question because nobody has even 
come close to asking this question. So I am going to use my 
prerogative. I have been around long enough as Chairman to go 
ahead and ask it. And I know everybody wants to get out.
    But I think not in some ways, again because of the 
largeness of this decision. And I think that you both have been 
absolutely superb witnesses. Senator Thune says it's been 
inspiring, and he is quite right.
    Senator DeMint wants to keep the record open until December 
6, and I agreed to that. On the other hand, as for questions, I 
would like to be able to have all questions provided as quickly 
as possible, hopefully by tomorrow. Questions that Members and 
their staffs being here will circulate that, the questions that 
they might have wanted to ask, or some came and actually left 
because they felt they were too far down the list and we did it 
after myself and Kay Bailey Hutchison and the sub-committee 
folks. We did it by order of appearance.
    So some left but they probably had questions and we want 
you to have a chance to see those questions, and I want them to 
have a chance to get those to us by tomorrow.
    I have always been, and Ms. Rosenworcel knows this--this is 
a commerce committee, but it has taken on in the last several 
years, very much of a consumer orientation. And we spend a lot 
of time worrying about, let's say, insurance companies and 
health care and scamming and cramming all kinds of things which 
we simply had not done before.
    Obviously, the media landscape is changing enormously. And 
this is especially true for children, which is what I want to 
ask you about.
    Our children have been watching programming primarily over 
a television multimedia universe switch and it's often 
interactive. Cable television and the Internet inundate kids 
today with images, social networks, multiplayer games, that 
many parents don't understand and have absolutely no idea how 
to work a controlling remote or a remote control. They simply 
have no idea.
    So there is always the possibility that things can be 
controlled, that things can be cutoff. But there is a greater 
probability that they will not be, because the parents will 
either not be there or they will not understand.
    And I've had many of these meetings around West Virginia, 
and parents are deeply concerned about content. I think the 
diversity of media is very exciting but it's very hard for 
parents and very available for their children.
    I personally believe that there has been a substantial 
coarsening in the media that children watch. It has been dumbed 
down. And I think that is true of news and I think that is true 
in--kids don't watch that quite as much, but in programming in 
general, it's more obscene, it's more violent, it's more 
promiscuous, it's more whatever you want that isn't good, than 
it was before.
    And I think that's really bad. Everybody yells First 
Amendment so you never really get much done about it. On the 
other hand, you do have recourse at the Federal Communications 
Commission--not to do all things, but to do some things.
    And so I just put before you this question that the legal 
landscape is very difficult and I understand that. But so is 
the problem of what it is the children now watch and you get 
depressed by it.
    I'm not a great fan of Facebook. Everybody else is--750 
million people certainly are, around the world, but I'm not. 
Because I think what it does essentially--and not just them but 
others--it leads children to expose themselves, thinking that 
they are just doing it to--making a comment to a friend, but 
then it is available to all of Indonesia, and all of China and 
all the world, and then you get bullying and you get picking 
on. You get sort of cyber-suicide-type thoughts. And there are 
examples of this.
    Children have been mortified by this system that they can't 
penetrate, what their parents have no idea how to penetrate, 
what it does to them. And then they can't do anything about it 
because they are caught up in it, their humiliation. And they 
can do harm to themselves and to others and some, of course, 
make it a practice to make sure that they have a chance to do 
that. And do this to children.
    It makes me very angry. And I think it should make all of 
America angry, First Amendment or not.
    So my question to you simply is I do recognize that the 
legal climate is constrained, but I can't believe that two 
nominees of your distinction wanting on the FCC, one of whom 
quite obviously has two children who are here, but not yet 
probably television-watching.
    Senator Wicker. They are back watching TV, Mr. Chairman.
    [Laughter.]
    The Chairman. But I am interested in what can be done to 
protect children and parents.
    Mr. Pai. Senator, having recently joined the ranks of 
parents, I have a firsthand concern about the images that my 
son sees, the words that he hears over any type of media, 
whether it's television, radio, or frankly even a video on a 
smart phone.
    And so I think it is important for the Federal 
Communications Commission to do what it can to give parents 
knowledge about the technologies that are out there, about the 
tools that are at their disposal to prevent their children from 
viewing inappropriate content or viewing inappropriate content 
or hearing inappropriate words.
    Obviously, as you pointed out, the legal landscape is a 
little uncertain. The Supreme Court is going to consider a 
constitutional challenge to the entire framework of the 
Commission's rules in this area. Depending on how the court 
rules, of course, I would be duty-bound to implement the 
statute that Congress has said the Commission has said it 
should enforce, and I would do that to the best of my ability, 
mindful of the concerns you have expressed.
    The Chairman. Well, you said ``what I can.'' That's what I 
took from your answer.
    Mr. Pai. Yes.
    The Chairman. And that is not wholly sufficient to me. I 
remember extensive conversations--and I apologize for the time 
here--but with Chairman Martin over ``Saving Private Ryan.''
    And the question was--there was some--obviously that was a 
wartime situation and there was a question of--if somebody said 
an obscenity, who could say it and who couldn't say it. And 
sort of his rule was if the soldier said it, it was OK, but if 
a commentator on the situation said it, it was not OK. I mean, 
to that level that he, at least, was willing to immerse 
himself.
    Now, this is not the time or the cultural desire to face 
these issues, except that it is. Except that that is exactly 
what parents want and exactly what children need. And the 
courts will rule--I don't think--Jessica Rosenworcel, do you 
want to tell me that the FCC is so constrained that you can't 
think of anything that might possibly happen to alleviate this 
problem?
    Ms. Rosenworcel. Well, I should start by saying that I 
appreciate that Members have come in and updated me about what 
my children are doing and what they are watching back there.
    [Laughter.]
    Ms. Rosenworcel. But leaving that aside, video programming 
is really powerful stuff. And at its best, it can entertain and 
even educate. But some of it is not so enlightening and not so 
healthy.
    Traditionally, the FCC has had authority to limit indecent 
and profane language and content. But the legal landscape, as 
my colleague here mentioned, is probably changing. What is not 
changing is that this is very important.
    And I think it is incumbent upon the FCC and frankly all of 
us to make sure that we both provide quality content, foster it 
and stimulate it--the good stuff for kids--and that we also 
help parents be good parents by providing them with the tools 
to protect their children.
    The Chairman. That is a good answer. And we'll leave it at 
that.
    I am very serious about this and I worry about it greatly. 
I think that there are a lot of wonderful things to be said 
about the Internet and a lot of wonderful things to be said 
about telecommunications, but people are talking to each other 
less, they don't have to take responsibility for what they put 
on Facebook or other such social networks because it doesn't 
come back to haunt them. It's usually somebody else except when 
it's them and then they are mortified. And it has an enormous 
effect.
    So, just hear me on that and we will work together to see 
what can be done. You have both been absolutely wonderful. You 
have done yourself proud, you have done your families proud and 
you make us proud.
    So I think, as was indicated, you should feel pretty good 
about your chances and I thank you for your testimony.
    We stand adjourned.
    [Whereupon, at 4:37 p.m., the hearing was adjourned.]
                            A P P E N D I X

Prepared Statement of Hon. Jim DeMint, U.S. Senator from South Carolina
    Mr. Chairman, thank you for holding this important hearing today. I 
believe we have before us two well-qualified nominees to serve at the 
FCC, and I hope and expect we can move them through the full Senate 
before we break for the holidays.
    The last few days and months have reminded us that the biggest 
threat to our economy is not a phone company, but an army of government 
lawyers and bureaucrats that create uncertainty. And the biggest threat 
to investment and innovation is not a private Internet service 
provider, but a public agency hell-bent on over-regulating at any cost.
    Ms. Rosenworcel and Mr. Pai, I sincerely hope you go to the FCC 
with the mindset of humble public servants and not activist agents 
seeking to expand the authorities of the Commission and manipulate the 
marketplace to your own preferred ends.
    We cannot predict the future, especially in the communications 
market. Unfortunately, our telecom laws and regulations are littered 
with policies that locked in paradigms that are now 15, 20, and even 
80-year old. Many of our current telecom policies are better suited for 
more static industry structures like railroads, aviation, and 
pipelines.
    We need to be moving toward a comprehensive update of our 
communications laws and regulations. If we simply continue the rigid 
structure we know today, we will not have the innovation, investment, 
and competition that we could have in this industry, and we won't see 
the subsequent jobs and growth in our broader economy.
    I have previously introduced, and plan to reintroduce a Digital Age 
Communications Act as a template, an example of how we need to reform 
the regulatory structure. It is not an attempt to manage economic 
functions within a particular industry but an attempt to, in effect, 
create a framework for freedom to thrive. Within this framework, if 
there is damage or harm done, or if there is anti-competitive activity 
going on, it gets addressed.
    What we have today is a structure that is complex, rigid, and 
expensive to navigate. In fact, it seems designed more to help 
particular companies and business models than actual competition. It 
creates a structure that forces private enterprise to conform, rather 
than innovate. It creates uncertainty and benefits those with the most 
lawyers and lobbyists instead of encouraging innovators.
    Innovation and entrepreneurship flourish when we have people 
developing ideas for millions of consumers who can make their own 
individual decisions. And when we have competitors and millions of 
people making their own decisions, that creates vibrant economies. That 
is what the American economy, at its best, is all about. But the 
American economy is in jeopardy today as we look at our expanding 
regulatory state.
    And that is why your roles at the FCC are going to be critically 
important during the next several years. Some people in this room see 
communications as a government utility, something the government should 
operate, something the government should manage. Some honestly believe 
that the government can efficiently manage economic functions. History 
has proven many times that this is a false utopian dream.
    I hope you both help to move America back toward a free market 
economy. We must believe in the power of individual freedom and private 
enterprise to create a vibrant marketplace and American economy.
    Thank you, Mr. Chairman.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Jessica Rosenworcel
    Question 1. What are the guiding principles you will rely on if you 
have to consider whether the owner of a daily newspaper should be 
licensed to operate a television station or radio station in that same 
market?
    Answer. Localism, competition, and diversity are the principles 
that have long-informed FCC media policy. If confirmed, these 
principles will inform my review, as will the statute, rules, 
precedent, and the record. Finally, it is important to note that while 
Americans can seek news online, newspapers and broadcast stations are 
still the primary source of local news and information in most 
communities. As a result, in any deliberation, the impact on local news 
should be given attention.

    Question 2. In some markets broadcasters are coordinating their 
activities through contractual and other arrangements to get around the 
FCC's local television ownership rules. These arrangements include 
shared services agreements, local marketing agreements, and joint 
operating agreements. Such arrangements typically lead to layoffs of 
station staff, more consolidated local news gathering and programming, 
and reduced competition for audiences and advertisers. It also changes 
the leverage in retransmission agreements negotiated with cable and 
satellite providers. Do you believe that these types of contractual 
arrangements are intended to circumvent the FCC's local television 
ownership rules?
    Answer. The record before the FCC reflects that there are an 
increasing number of sharing agreements, including Local Marketing 
Agreements, Shared Services Agreements, and Joint Sales Agreements. 
While it is not clear if such arrangements are pursued in order to 
circumvent the FCC's local television ownership rules, it is important 
for the agency to study them further to determine if in practice they 
have that effect. To date, the FCC has acknowledged that these 
arrangements may be ``at odds with the purpose and intent of rules 
against duopoly operations.'' In addition, critics charge that they can 
result in increased rates for retransmission consent, which can lead to 
raised rates for customers of multichannel video programming 
distributors. At the same time, supporters contend that they result in 
economies of scale that support better programming.
    If confirmed, I will review the law, the rules, and the record to 
assess if these arrangements are intended to circumvent the FCC's 
rules, and more broadly what their impact is on the public.

    Question 2a. Do you believe that these types of contractual 
arrangements require the FCC to define what an independently owned and 
operated television station is for purposes of its media ownership 
rules?
    Answer. I believe the FCC should consider this issue in its ongoing 
quadrennial review of its media ownership rules.

    Question 3. Unlicensed spectrum is an integral part of the Nation's 
wireless network. It is estimated that by 2015 over half of all mobile 
traffic will be offloaded to Wi-Fi networks. Today, in Washington 
state, Wi-Fi mesh networks connected to fiber support economic 
development in places such Stevenson, located along the Columbia Gorge. 
The local economy is supported by visitors who come for the rugged 
beauty of the mountains and the recreational opportunities of the 
Columbia River but who want to stay connected. In addition, as more 
types of devices become Internet enabled, they too will need unlicensed 
spectrum to enable device-to-device communications and the development 
of new products and offerings. Do you support policies that that will 
make more unlicensed spectrum available?
    Answer. Yes. Spectrum policy requires a mix of licensed and 
unlicensed services. Licensed services provide reliability and 
interference protection. Unlicensed services can stimulate innovation 
because they have low barriers to entry. As you note, they also can 
assist with network congestion and facilitate rural deployment. Both 
are important components of communications policy.

    Question 3a. As you know I have long supported use of the broadcast 
white spaces for unlicensed fixed wireless and personal portable 
devices. Obtaining additional spectrum for unlicensed so-called super 
Wi-Fi is key to providing new and innovative broadband offerings in 
addition to more cost effectively providing broadband in rural areas. 
There is work that needs to be done at the FCC to make these exciting 
new devices and services commercially possible. Progress seems to move 
in fits and starts. Do you support policies, like the FCC's ``White 
Spaces'' orders, that make spectrum available for unlicensed use below 
1 gigahertz band?
    Answer. Yes. I support the FCC's efforts to make unused white 
spaces available for unlicensed fixed wireless and personal portable 
devices. At the same time, I believe that additional efforts should be 
made with respect to databases and sensing technologies, to reduce any 
interference associated with their use for broadband purposes.

    Question 3a. Can I count on your support in getting the 
Commission's bureaus to focus on completing its work on the white 
spaces in a timely manner?
    Answer. Yes. If confirmed, I will strive to vote in a timely way on 
all issues, including those involving white spaces. To this end, I 
believe it is important for the FCC to complete its work on pending 
petitions for reconsideration. I also believe that the agency's Office 
of Engineering and Technology should continue to work with database 
administrators to verify that their efforts comport with FCC rules. I 
believe the same office should also work with manufacturers that submit 
devices for certification to ensure that these devices comply with FCC 
rules.

    Question 4. Assume Chairman Rockefeller's S. 911 becomes law. The 
D-block goes directly to public safety. There are going to be incentive 
auctions. The FCC is then going to repack the broadcast television 
channels into a narrower band.
    One of the challenges I see in repacking broadcasters operating in 
markets on our northern border is that coordination with Canada is 
required. I imagine it is similar on our southern border. There is a 
formal role for the State Department to play through treaty 
modifications. I believe FCC coordination with its Canadian counterpart 
will go a long way to ensure that channel repacking goes smoothly for 
television stations operating along the northern border. If confirmed, 
will you commit to working with your Canadian counterparts to ensure a 
smooth repacking of television stations after any incentive auction?
    Answer. Yes. In the first instance, any repacking of stations that 
may occur will be governed by new legislation authorizing voluntary 
incentive auctions. If confirmed, I will follow the direction in this 
legislation and will work with the FCC's Canadian counterparts to 
ensure that the process for any repacking is smooth.

    Question 5. A constituent contacted my state office and told my 
staff that after twice being informed by his Internet Service Provider 
that he had exceeded his monthly data cap, he was blacklisted from 
receiving broadband Internet service for a year. He said he was 
streaming video and audio. He also backed up two decades of high-
resolution photographs and music files onto a cloud-based storage 
application. He is clearly what is known as a power user.
    Even so, my understanding is that the data cap is only somewhat 
linked to managing network congestion. At certain times of the day, 
excessive bandwidth use by an individual consumer may impact the 
quality of service experienced by other broadband users. At other times 
of the day though, it is not so clear. If large amounts of data is 
uploaded or downloaded to remote servers in the middle of the night, I 
have my doubts whether it will really interfere with the functioning of 
the network.
    More broadly, I am concerned that data caps are becoming the 
broadband industry norm--particularly for the 4-G wireless broadband 
services. If you work out the numbers between the download speeds and 
the data cap on many plans, consumers will not be able to take 
advantage of the 4-G features for very long. Do you believe that data 
caps are becoming more of a standard industry practice for all 
residential and wireless broadband providers?
    Answer. Yes. Many, but not all, broadband subscriber connections in 
the United States are now limited by some kind of data cap.

    Question 5a. Do you believe there is a strong linkage between data 
caps and managing network congestion?
    Answer. I believe there is some link between the use of data caps 
and the management of network congestion. I believe further study is 
necessary to determine whether that link is a strong one.

    Question 5b. Do you believe there is a need for the Commission to 
look into the nature, purpose, and impact of data caps on consumers?
    Answer. Yes. On the one hand, if data caps are transparent and 
address real network capacity concerns, they can be a legitimate tool 
to mange congestion. On the other, if they are set only to generate 
fees for exceeding the caps, this can reduce incentives for robust 
broadband deployment. Consequently, I believe the FCC should consider 
monitoring the development of these caps and their impact on consumers.

    Question 6. Our communications network is transitioning from 
circuit switched to Internet Protocol (IP) and the FCC has begun to 
discuss the possibility of sunsetting the public switched telephone 
network. As the network transitions, innovators are offering consumers 
new and interesting ways to communicate. For example, there are a 
variety of VoIP products including some that replace telephone 
services, supplement telephone service, or provide conveniences as 
click to call offerings. As IP services evolve, it remains important 
that policy makers refrain from regulating them too quickly and instead 
proceed with a light touch enabling these new IP based service to 
emerge and flourish. Do you support a light touch approach when 
addressing public policy issues concerning IP services?
    Answer. Yes. I believe a light-touch approach is an essential part 
of ensuring that nascent communications services have the chance to 
develop and thrive. Moreover, I believe this kind of approach can 
facilitate new services, and the ability to realize innovation on a 
large scale. At the same time, it is important to recognize that as 
these services grow to become full substitutes for traditional 
telephony, it may be necessary to reassess some aspects of this 
approach. For instance, I believe it is important that services that 
market themselves as a substitute for basic voice service provide the 
ability for their user to make emergency calls.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Claire McCaskill to 
                          Jessica Rosenworcel
    Question 1. The FCC has a pending NPRM that would make changes in 
the administration and eligibility requirements of the Lifeline and 
Link-Up programs, which provide telephone service for low-income 
people. There have been increased allegations of potential fraud in the 
programs, particularly around eligibility documentation and people 
receiving multiple phones. This is disturbing because we need to ensure 
that people who need the services are getting it rather than directing 
funds to those who may be cheating the system.
    GAO issued a report in October, 2010, on the low-income programs. 
The report stated that the FCC has not taken sufficient steps to 
develop performance goals and measures for the programs and has limited 
insight on the intent of the program and what it is accomplishing. GAO 
has not specifically looked into potential fraud that may be occurring 
in the programs.
    The NRPM appears to be taking some steps to address the problems in 
the programs, including limiting phones to one per household, requiring 
better documentation for eligibility and creating a national database 
to track customers. I am pleased that the FCC is taking these steps. In 
your view, what is the core purpose of these programs and who should 
they primarily serve? What are the most important benefits of the 
programs? Do you think the programs in their current form may need 
reform or to be narrowed?
    Answer. For decades, the Lifeline and Link-Up program has provided 
qualified, low-income subscribers with assistance setting up and 
receiving basic telephone service. It is part of a long-standing FCC 
effort to support telephone service for low-income households. After 
all, having access to telephone service is essential for calling 911, 
being able to secure a job, take care of loved ones, and manage routine 
interactions with government and health care providers.
    Today, the Lifeline and Link-Up program is one of four universal 
service programs that is run by the FCC. Historically, the program only 
provided support for traditional wireline telephone service. But during 
the last Administration, it was expanded to wireless services, and 
notably pre-paid wireless services. As a result, the program has grown 
substantially. Last year, it provided roughly $1.3 billion in support--
an historic high.
    On the one hand, this might mean that more low-income people have 
the telephone service they need to conduct and manage their daily 
lives. This is a good thing. But on the other hand, this tremendous 
growth deserves attention and focus.
    I understand that the FCC is studying this growth and considering 
reforms. If confirmed, I will fully support these efforts. For the 
program to be successful, it must be free of waste, fraud, and abuse.

    Question 2. In your view, is the NPRM going far enough to address 
the fraud that may be occurring? Do we need GAO or the FCC IG to do a 
more thorough review and/or audit to determine how much fraud there is?
    Answer. The NPRM is a good start. Additional study from the GAO or 
FCC Inspector General is also always appropriate.

    Question 3. The disbursements on these programs have doubled since 
they were opened up to wireless phones in 2008. Much of the potential 
fraud appears to be growing in the wireless use, particularly with 
duplicate phones being used at the same household. Why do you think the 
FCC has not taken a stronger approach in monitoring eligibility for the 
programs when they can see their rapid growth? Since these programs 
have no caps on the disbursements, don't we need to get a better handle 
on how they are managed so that we can help direct funding to those who 
really need it and avoid fraud? Will you commit to providing this issue 
increased attention and ensuring more is done to prevent fraud, waste 
and abuse in the program?
    Answer. I do not have insight into why the FCC has not taken a 
stronger approach in monitoring eligibility for Lifeline and Link-Up, 
in light of recent growth. But I note approvingly that in June 2011 the 
FCC took action to address waste associated with duplicative payments, 
and is contemplating taking additional steps. Going forward, it is 
necessary for the agency to continue to study this program carefully to 
ensure it is free of waste, fraud, and abuse. If confirmed, I commit to 
supporting these efforts.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Jessica Rosenworcel
    Question 1. Digital Divide on Tribal Lands. The mission of the 
Federal Communications Commission is to make communications services 
available to all the people of the United States. However, the first 
people of the United States--Native Americans--face a significant 
digital divide on Tribal lands.
    Most people probably cannot imagine life without a telephone. Yet 
today more than 30 percent of households in Indian Country do not have 
access to basic telephone service. Broadband access is much worse with 
probably more than 90 percent lacking broadband. These statistics do 
not truly convey the hardships created by this lack of 
telecommunications service. Imagine not being able to call an ambulance 
when you or someone you love is in medical danger. Phones and broadband 
also help keep friends and family members in touch when they are far 
apart. Imagine not being able to speak with a loved one who is serving 
in the military and won't be home this holiday season.
    Although Tribal lands are among the least connected, this is 
precisely where modern communications technologies can help the most. 
By overcoming physical distances and geographic isolation, broadband 
can help improve economic development, education, and access to health 
care.
    I am pleased that the Commission is paying particular attention to 
this challenge. There is a new Office of Native Affairs and Policy to 
help work with Tribes on a government-to-government basis. The recent 
Universal Service order proposes a Tribal Mobility Fund to expand 
wireless access. It will also require engagement with Tribes. These are 
welcome steps in the right direction. So, I would like to ask that, if 
confirmed, will you seek to ensure that the Commission continues to 
work with Tribes and telecommunications carriers to tackle the digital 
divide facing so many Native American communities?
    Answer. Yes. I have traveled to tribal communities. Consequently, I 
am aware that telecommunications deployment in Indian Country for both 
basic and advanced services lags the rest of the country. This is a 
troubling problem that requires attention. If confirmed, I will support 
the FCC Chairman's creation of the Office of Native Affairs and Policy. 
Specifically, I will support this office's work to ensure that Native 
voices are heard on matters that affect Indian Country. I also believe 
that universal service reform of the high-cost fund may assist with 
further deployment of service in Indian Country. If confirmed, I will 
strive to make sure that the implementation of universal service reform 
proceeds in a way that can help address the important needs of our 
tribal communities.

    Question 2. Support for Telemedicine. New Mexico is a rural state 
where many rural communities are not only underserved when it comes to 
in communications, but also underserved in health services. We have 
some great folks at the University of New Mexico and in our hospital 
systems who are working hard to improve rural healthcare by using new 
innovative tele-health technologies.
    The Government Accountability Office has criticized the FCC's 
management of the Rural Health Care Program. Some of the telemedicine 
proposals contained in the FCC's National Broadband Plan also seem to 
be on hold at the moment. I realize that the FCC is engaged in 
substantive reform in areas such as universal service. But tele-health 
is another area that should be a priority. Can you assure me that, as 
Commissioners, you will support efforts to improve and increase 
telemedicine opportunities, especially for rural communities?
    Answer. Telemedicine offers tremendous opportunities to improve 
health care access for patients, especially in rural areas. It can 
bring world-class expertise to people far from urban centers, cut 
costs, and help improve health care results.
    For this reason, if confirmed, I believe the FCC's rural health 
care program deserves a fresh look. The legacy program provides 
discounts to rural health care providers for telecommunications and 
Internet access services to ensure that eligible providers are paying 
no more than their urban counterparts for services. The pilot program 
has provided, for a limited time, support for the construction of a 
state or regional broadband network assisting rural health care 
providers. As you note, however, the Government Accountability Office 
has suggested that performance management weaknesses exist in these 
programs.
    I believe the challenge for the FCC is identifying a way to make 
the rural health care mechanism more effective within the agency's 
statutory authority. It also must do this conscious of the fact that--
like all universal service programs--the rural health care fund is 
supported by a line item on everyone's telephone bill. This line item 
is growing, making the cost of reform difficult. But the importance of 
this issue is also growing--as is the good it can do, if properly 
conceived. Consequently, as noted above, if confirmed, I will support 
efforts to rethink and reinvigorate this program.

    Question 3. Support for Low-income People. The Commission recently 
published its proposals for reforming how universal service funds will 
support building out broadband networks in rural areas.
    But we know that having broadband available where you live is not 
the only aspect to tackling the digital divide. People need to see the 
value of having it. And they need to be able to afford to pay for it.
    The universal service Life Line and Link Up initiatives have helped 
many people with low incomes get basic telephone service. In rural 
Tribal areas, Enhanced Life Line and Link Up help not just with 
adoption rates but also service deployment to some high cost areas 
where many potential customers could not afford phone service.
    In addition to the Commission's efforts, some cable and phone 
companies have committed to offering reduced price broadband options 
for certain low income families. Could you share your thoughts on how 
the Commission can use universal service initiatives, and also work 
with private companies, to increase broadband adoption, particularly 
among people with low incomes?
    Answer. The broadband challenge in this country has two fronts--
supply and demand. With respect to supply, recent reforms of the 
universal service high-cost fund are designed to increase broadband 
deployment in areas where service is not available today. It is 
essential that the FCC implement and carefully monitor these reforms. 
If confirmed, I pledge to do so.
    With respect to demand, the problem is equally challenging. Studies 
from the Pew Internet and American Life Project have demonstrated that 
adoption is lower in low-income households than in the population at 
large. If this continues, over time the cost of this digital exclusion 
could grow, as more forms of commerce, education, and government 
interaction occur online.
    For this reason, I believe recent commitments private companies 
have made to support low-cost broadband service for low-income 
households are promising. In addition, I believe more research is 
necessary to identify what programs and outreach efforts lead to 
sustainable broadband adoption.
    Finally, it is important to note that the National Broadband Plan 
recommended expansion of the Lifeline and Link-Up program to include 
not only basic telephony, but also broadband service. This merits 
consideration. However, ongoing efforts to reduce waste, fraud, and 
abuse in the existing program should proceed first.

    Question 4. Importance of Broadcast TV and Radio. Today, there is a 
lot of excitement about mobile broadband, which puts the power of the 
Internet into the palm of your hand. I am amazed by what new 
smartphones and tablets like the iPad can do.
    Yet, with all the excitement about new mobile technologies, it is 
easy to forget that broadcast TV and radio are truly the first 
``wireless'' technologies. They continue to play a valuable role today. 
Not everyone can afford cable or satellite TV. Not everyone has access 
to the Internet at home.
    Free broadcast TV and radio are especially important in times of 
emergency. For example, this year when northern New Mexico faced severe 
winter storms and summer forest fires, people turned to their local 
broadcasters for the latest weather and safety information. Outside of 
emergencies, local businesses also appreciate how advertising on local 
broadcast stations can help them reach customers in their communities. 
Can you share your views on the value of over-the-air broadcasting and 
the importance of its role in an evolving telecommunications landscape?
    Answer. Millions of Americans rely on free, over-the-air television 
as their primary source of news, information, and entertainment. Even 
in a world where technologies are evolving, and information is 
plentiful online, the Pew Internet and American Life Project has found 
that 78 percent of the population surveyed still relies on local 
television for local news.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                          Jessica Rosenworcel
    Question 1. Interoperability issues have become more important over 
the last few years. I am concerned about interoperability problems that 
seem to limit the ability of smaller players, in particular, to be 
competitive. This problem appears to be particularly acute for smaller 
companies and markets. This concerns me for several reasons. First, if 
future auction participants do not know they will be able to acquire 
devices, then they are less likely to bid on spectrum licenses. Second, 
the proliferation of band classes means that device chipsets have to 
cover more band classes in order for a device to be able to traverse an 
entire band. Third, I worry that a lack of predictability regarding 
interoperability may have led some companies to withhold investments 
which would benefit the economy and potentially foster more innovation. 
Can you provide me with an explanation of your views on 
interoperability requirements?
    Answer. I understand that the FCC currently is reviewing the 
interoperability of mobile devices that make use of spectrum in the 700 
MHz band. Some critics, including small wireless providers, charge that 
the market is developing in ways that are at odds with 
interoperability--and the public interest. As a result, there is 
concern that some consumers will not have access to up-to-date devices 
and may not be able to roam on other networks when they travel from 
home. At the same time, others suggest that an overly broad obligation 
could result in technical difficulties and unnecessary costs.
    Interoperability is an essential component of a diverse 
communications system. It is important that consumers are not stranded 
without service. It is also important that our networks are not 
unreasonably balkanized by devices that cannot speak with one another. 
Consequently, the FCC should carefully monitor the work of industry 
standards-setting bodies regarding this issue. If those technical 
bodies fail to make progress, the agency should study its authority and 
identify how to improve interoperability in the 700 MHz band.

    Question 1a. Issues in the 700 MHz band plan have been raised in 
this committee over the past year. Should the FCC take a serious look 
at this issue? If not, why not? If so, what do you think the FCC could 
do to make sure the benefits of interoperability are fully realized?
    Answer. As noted above, I believe that the FCC should carefully 
monitor the work of industry-standards setting bodies. If those 
technical bodies fail to make progress, the agency should study its 
authority and identify how to improve interoperability in the 700 MHz 
band.

    Question 2. With regard to the Commission's ongoing USF reform 
efforts, do you believe the Commission is doing all it should to 
promote access and availability of broadband, particularly wireless 
broadband, to our Nation's non-urban areas? If not, what else should 
the Commission do?
    Answer. The FCC recently adopted a collection of high-cost 
universal service fund reforms. These reforms transition the high-cost 
system from its earlier focus on voice telephony to a new focus on 
broadband. In addition, these reforms include the first set of funds 
dedicated exclusively for wireless services.
    This is the most substantial set of reforms to this system in over 
a decade. In addition to implementing these reforms carefully, it is 
incumbent on the FCC to monitor their development. To this end, if 
confirmed, I will do my part to make sure that the FCC regularly 
reviews data regarding broadband and wireless deployment to determine 
if universal service resources are targeted and effective at providing 
service in communities in rural and high-cost areas of the country.

    Question 3. As carriers continue to migrate to IP networks, the 
direct interconnection of voice networks remains vital to ensure 
competition, innovation, and lower prices. The FCC, in its recent USF 
order, stated that the duty to negotiate interconnection agreements in 
good faith ``does not depend upon the network technology underlying the 
interconnection, whether TDM, IP, or otherwise.'' What is your view of 
duty to interconnect under the 1996 Telecom Act? Would you agree that 
the Act is ``technologically neutral'' regarding interconnection?
    Answer. I believe interconnection is a critical part of 
communications policy. Historically, it has facilitated competition, 
and the associated benefits of increased innovation and reduced prices.
    Increasingly, however, it is a complex area of the law. 
Interconnection, for instance, in Section 251 of the Communications 
Act, as amended by the Telecommunications Act, is largely dependent on 
the provision of telecommunications service by telecommunications 
carriers. At the same time, in its recent universal service reform 
decision, the FCC made a point of noting that its new rules will 
promote the deployment and use of IP networks, and that interconnection 
between such providers is also critical. Complicating this situation 
further, voice roaming obligations for wireless carriers are built on 
common carrier authority in Section 201 and 202. In contrast, the FCC 
based its recent decision to support data roaming on commercially 
reasonable terms on its authority in Title III of the Communications 
Act to manage spectrum and modify license and usage conditions in the 
public interest.
    This legal patchwork provides essential interconnection, and in 
practice can promote technological neutrality, but it is undeniably 
complex.

    Question 4. Media cross-ownership rules have generated great 
interest over the past several years. Can you share your views on the 
current newspaper/broadcast station cross-ownership rule? Do you think 
it should be relaxed?
    Answer. I believe the media landscape is changing. In many ways, 
this is good news. Information is now more plentiful than ever before. 
Similarly, the range and variety of commentary has grown substantially. 
Everyone with Internet access has his or her own digital printing 
press. But the news is not all good. The ranks of journalists in this 
country have thinned considerably. More than 13,000 newspaper jobs have 
been shed in the past 4 years. Many local television stations produce 
excellent news. But others are producing less than just a few years 
ago.
    It is against this background that the FCC's review of media 
ownership rules is occurring. If confirmed, I believe it is necessary 
to take these trends into consideration. But I also believe they need 
to be balanced with the principles of diversity, localism, and 
competition that have always informed these rules, including the 
newspaper/broadcast cross-ownership rule.
    In addition to the regular quadrennial review, the newspaper/
broadcast cross-ownership rule is the subject of a remand from the 
Third Circuit Court of Appeals. If confirmed, my review of this rule 
will take into account the statute, the record, the principles noted 
above, and the changing nature of news production.

    Question 5. In the last two FCC Mobile Competition Reports, the 
Commission was unable to certify the industry as competitive. What 
steps would you recommend taking to enhance competition within the 
mobile industry?
    Answer. To enhance competition in the mobile industry, additional 
spectrum for auction is important. At the same time, it is important to 
devote efforts to making use of existing spectrum more efficient and 
more competitive. This includes the development of spectrum sensing 
technologies, ``dig once'' initiatives, and small cell deployment that 
facilitates the efficient reuse of spectrum.

    Question 6. The President set an aggressive goal of releasing an 
additional 500 MHz of spectrum over the next 10 years. In the past 
year, Federal efforts to make more spectrum available have been mixed 
at best. NTIA released a preliminary report in January 2011 which 
identified 115 MHz of spectrum, but only 15 MHz would not need to be 
shared with Federal users. An updated report is expected to be released 
any day now. What do you think needs to happen, particularly over the 
next 2-3 years, to help us achieve this goal?
    Answer. Radio spectrum is a scarce but valuable resource. The 
proliferation of wireless devices and growing demand for wireless data 
services puts new pressures on the use of our airwaves. The goal of 
releasing an additional 500 MHz of spectrum over the next 10 years is 
an aggressive effort to meet this growing need. Reaching this goal will 
require a variety of efforts. This includes broad-based efforts to 
provide incentives to Federal Government users to use their spectrum 
more efficiently, with resources for planning, and rewards for 
relinquishing its use, if feasible. In addition, more attention will 
need to be paid to sharing technologies, including spectrum sensing, 
and also small cell deployment, which can facilitate the efficient 
reuse of spectrum.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          Jessica Rosenworcel
    Question 1. Even with the current FCC focus on rural broadband 
deployment to the remote regions of Alaska most of Alaska's rural 
communities still depend on free local over the air Television and 
Radio to receive emergency information and critical news programming. 
Early in November a Bering Sea Superstorm of hurricane proportions 
wreaked havoc on the western part of the state jeopardizing villages 
and lives with historic weather conditions. Local broadcasters 
effectively kept everyone in the storm's path aware of the latest 
conditions. Can you tell us the role that broadcasters will play in 
21st century telecommunications policy?
    Answer. Millions of Americans rely on free, over-the-air television 
as their primary source of news, information, and entertainment. Even 
in a world where technologies are evolving, and information is 
plentiful online, the Pew Internet and American Life Project has found 
that 78 percent of the population surveyed still relies on local 
television for local news.

    Question 2. Many Senators have spoken about how rural markets 
aren't like other markets, and I would add Alaskan rural markets aren't 
like lower 48 rural markets--in many cases, they aren't effective 
markets at all. What are your thoughts on how we give providers 
incentives to build and operate in places where investment is hard to 
come by? Is the ``carrier of last resort'' concept important in those 
places, in your view?
    Answer. With respect to communications deployment, I generally 
believe that the private sector should proceed first. But, as a Nation, 
I believe we need to be honest about markets in this country that the 
private sector alone will not reach--including some locations in 
Alaska. For this reason, I support narrowly tailoring regulatory 
policies to extend networks so that they reach all of our communities. 
This includes, but is not limited to, policies like universal service 
that support deployment in high-cost and rural communities.
    In the 21st century all of our communities will need access to 
modern communications to prosper. Alaskan communities are no exception. 
I have traveled to remote communities in Alaska, including Dillingham, 
Manokotak, and Aniak. I have seen first-hand how hard it can be to 
secure quality communications service, and how essential it can be to 
improving the quality of life for residents.
    Carrier-of-last resort responsibilities have an important place in 
communications law. Without these duties, there never would have been 
deployment in many rural areas in this country. As communications 
technologies evolve, it is essential to remember the role these 
responsibilities play.

    Question 3. Another important issue to rural consumers in 
interoperability. I wrote a letter with Chairman Rockefeller, and 
Senator Wicker urging Chairman Genachowski to being a proceeding to 
ensure consumers have access to mobile devises operating on the next 
generation networks that use 700MHz spectrum. Interoperability between 
networks in important, not only to public safety, but to consumers who 
have rural wireless providers and travel between various commercial 
networks and should be able to utilize these networks. If confirmed, 
how will you address this important issue?
    Answer. I understand that the FCC currently is reviewing the 
interoperability of mobile devices that make use of spectrum in the 700 
MHz band. Some critics, including small wireless providers, charge that 
the market is developing in ways that are at odds with 
interoperability--and the public interest. As a result, there is 
concern that some consumers will not have access to up-to-date devices 
and may not be able to roam on other networks when they travel from 
home. At the same time, others suggest that an overly broad obligation 
could result in technical difficulties and unnecessary costs.
    Interoperability is an essential component of a diverse 
communications system. It is important that consumers are not stranded 
with service. Consequently, the FCC should carefully monitor the work 
of industry standards-setting bodies regarding this issue. If those 
technical bodies fail to make progress, the agency should study its 
authority and identify how to improve interoperability in the 700 MHz 
band.

    Question 4. The FCC is currently considering a proposal to reform 
the Lifeline program that would limit eligibility for the Lifeline 
program to one per residential address. The Lifeline program in Alaska 
has been extremely beneficial to many Alaskans. In fact, since the 
program came on board 17 years ago penetration among disadvantaged 
populations has increased dramatically. It is critical eligible low-
income adults have access to Lifeline-supported phone services. This is 
important for the safety of many Alaskans, including those in rural 
Alaska who don't always have a public safety officer in their village 
and are prone to extreme weather conditions and may need emergency 
services. I ask for your commitment to work with me to ensure benefits 
of this program continue to be available and serve disadvantaged 
populations.
    Answer. The Lifeline and Link-Up program is an important part of 
keeping everyone in this country connected. It is part of a long-
standing FCC effort to support telephone service for low-income 
households. Having access to telephone service is essential for calling 
emergency services, being able to secure a job, take care of loved 
ones, and manage routine interactions with government and with health 
care providers.
    Today, the Lifeline and Link-Up program is one of four universal 
service programs that is run by the FCC. Historically, the program only 
provided support for traditional wireline telephone service. But during 
the last Administration, it was expanded to wireless service, including 
pre-paid wireless service. As a result, the program has grown 
substantially. On the one hand, this is a good thing, because it means 
more people have the telephone service they need to conduct and manage 
their daily lives. On the other hand, this tremendous growth deserves 
attention.
    I understand that the FCC is studying this growth and considering 
reforms. For this program to continue to be successful, it must be free 
of waste, fraud, and abuse. At the same time, it is imperative that 
reforms under consideration do not pose unnecessary hardships for those 
who could truly benefit from its support. If confirmed, I will work to 
make sure that this program is run capably and also capable of 
distributing support to those disadvantaged populations that need it.

    Question 5. The process at the FCC is very complicated and I feel 
is not as transparent as it could be. I would like to see this process 
improved to be more transparent so companies and consumers do not have 
to live in limbo for weeks after a vote before an order is published. 
If nominated what would you do or recommend to help this process along?
    Answer. If confirmed, I will strive to vote all decisions in a 
timely way, without unnecessary delay. I believe the agency should make 
all reasonable efforts to release decisions contemporaneously with 
agency voting. To the extent that this is not feasible, I believe 
decisions should be released within a week of voting.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Jessica Rosenworcel
Broadband Expansion and Adoption
    It has been over a year and a half since the FCC released its 
National Broadband Plan, which was to be a blueprint to achieving 
affordable, high-speed broadband to all Americans. However, there has 
been criticism the agency has not acted quickly enough to implement the 
numerous recommendations outlined in it. While the Commission has 
issues several public notices related to recommendations and goals 
highlighted in the Plan, plan, some organizations have estimated only 
about 10-20 percent of the recommendations in the Plan have actually 
been implemented/completed.
    This is somewhat concerning given how many Americans still lack 
broadband service. Thirty-five percent of American adults, or 80 
million people, do not have high-speed Internet access in their homes. 
In addition, a 2008 Pew Internet & American Life Project survey found 
that approximately 62 percent of dial-up users said they weren't 
interested in switching to broadband. That same survey also found that 
33 percent of non-Internet users say they are not interested in using 
the Internet. So two digital divides (one with supply and one with 
demand) continue to linger while much of the National Broadband Plan 
goes unimplemented.

    Question 1. Do you believe the FCC has been as active as it needs 
to be in implementing the recommendations in the National Broadband 
Plan?
    Answer. Broadband access is essential for prosperity in the 21st 
century. Given the significance of broadband to our economic 
competitiveness, there is always room for the FCC to do more to 
facilitate broadband deployment and access.
    To be clear, many of the recommendations in the National Broadband 
Plan fall outside of the scope of traditional FCC authority. Some 
involve other Federal agencies and authorities, state authorities, and 
even the Congress. However, for those initiatives outlined in the plan 
that are well-conceived and within the agency's authority, I would 
support taking further steps to implement them, if confirmed.

    Question 2. What outstanding recommendations in the Plan would you 
prioritize to help spur the expansion of broadband availability?
    Answer. I believe the FCC should devote additional resources to 
facilitating efficient spectrum use. Spectrum is a major input for 
provision of broadband service. With only a limited amount in 
inventory, more effort needs to be made to free up additional airwaves 
and also promote technologies that make more efficient use of spectrum, 
generally.
    I believe the FCC also should consider ways to improve its E-rate 
and rural health care programs. The E-rate is a very successful 
program. At the time of enactment of the Telecommunications Act of 
1996, only 14 percent of classrooms had access to the Internet. Today, 
that number is over 90 percent. Much of this is due to the support of 
the E-rate. But great programs do not thrive without continued 
attention and care. The FCC already has taken steps to remove barriers 
to off-hours community use of E-rate funded resources. The agency 
should continue to look for ways to improve this program, and use the 
resources it brings to schools and libraries to spur additional 
broadband deployment in adjacent communities.
    The FCC's rural health care program holds great promise, but has 
not been as widely used as the E-rate. The FCC should study how, within 
existing law, to make this a more effective program--for the patients 
and healthcare providers that use it, and also for the communities that 
benefit from the provision of service.

    Question 3. What specific initiatives/proposals do you believe 
would be beneficial to achieving that goal of consumer awareness and 
education?
    Answer. As the numbers in the Pew survey indicate, the broadband 
challenge in this country is on two fronts--supply and demand. With 
respect to supply, ongoing efforts with universal service fund reform 
are designed to help support deployment in high-cost communities. With 
respect to demand, however, the answers are also important--and also 
complex.
    To this end, I am aware that the Broadband Technology Opportunities 
Program, which was enacted as part of the American Recovery and 
Reinvestment Act, provided support for some broadband adoption 
programs. These programs include digital literacy training and outreach 
campaigns, with the goal of expanding consumer awareness and education 
about the relevance of broadband in our everyday lives.
    These programs have not yet concluded. When they do, I believe it 
would be prudent to study them carefully. It is important to understand 
what practices yielded results and what programs contributed most to 
sustainable broadband adoption in a variety of communities. This 
information should be used to develop further efforts designed to 
increase consumer awareness and education.
More Timely Decision Making
    While the FCC has a self-imposed shot clock of 180 days for merger 
reviews, it rarely adheres to it. Many recent merger reviews by the 
Commission have surpassed the 180 day benchmark--the NBC-Universal 
Comcast merger review took 234 days, the XM-Sirius merger review took 
412 days, and the CenturyLink and Qwest merger review took 294 days.
    The agency also has a poor record in timely decisions on other 
matters before it. At one point, the FCC had a backlog of over 5,000 
petitions and more than 4,000 license applications pending. And 
technical proceedings at the FCC have been, what Mitch Lazrus, a well 
respected telecommunications lawyer, calls ``dismally slow.''
    In a letter I sent to Chairman Genachowski back in January 2010, I 
highlighted several outstanding spectrum proceedings I urged the 
Commission to conclude to release more spectrum for wireless broadband. 
One of the concerns I had about the proceedings I mentioned was that 
all had been open for 3 years or longer, and another related proceeding 
\1\ to WCS-SDARS had been pending for over a decade.
---------------------------------------------------------------------------
    \1\ IB Docket No. 95-91.
---------------------------------------------------------------------------
    I am concerned that this lack of action hinders innovation and 
causes significant uncertainty to small start-up companies that are 
critical to job creation.

    Question 4. What steps will you take with respect to regulatory 
reform so that the agency can be more nimble in the very dynamic 
telecommunications industry and not be a bottleneck to innovation and 
job creation due to inaction or delays on petitions and applications?
    Answer. If confirmed, I will strive to vote decisions in a timely 
way, without unnecessary delay. Communications is a dynamic sector in 
our economy, and the agency should, within its resources, make 
decisions in a way that facilitates investment and expedites the 
opportunity for consumers to benefit from new and innovative services. 
This is especially important for small businesses, which are so 
essential to job creation.
    To facilitate more timely decisionmaking, I believe the agency 
should explore how to make greater use of Administrative Law Judges. I 
also believe the FCC should study the source of delay. If regulatory 
inertia is responsible, that needs to be addressed. If the technical 
expertise necessary to render a timely decision is not available, that 
likewise needs to be addressed. If, however, applicants are resolving 
disputes on their own, that is generally preferable to regulatory 
intervention. Similarly, if delays are the result of ongoing 
litigation, that is a right that should be respected by the agency 
decision-making process.

    Question 5. What criteria will you use when reviewing future 
wireless mergers and petitions? Will you strongly push for more timely 
decisions on pending mergers given the dynamic nature of the industry?
    Answer. If confirmed, I would follow the statute. The 
Communications Act, in Sections 214 and 310, prohibits the transfers of 
licenses absent a finding by the FCC that the public interest, 
convenience, and necessity will be served thereby. This analysis 
traditionally involves weighing both the benefits and harms of a 
proposed transaction. The agency should, within its resources, make 
these decisions in a timely way. It should be conscious that its 
process, if unnecessarily delayed, could impede investment and slow the 
opportunity for consumers to benefit from new and innovative services.

    Question 6. As you know, section 5(c) of the Communications Act \2\ 
authorizes the Commission to delegate most of its functions to ``a 
panel of commissioners, an individual commissioner, an employee board, 
or an individual employee'' to ensure proper functioning of the 
Commission as well as prompt and orderly conduct of its business. Do 
you believe the FCC has made effective use of this provision in the 
statute?
---------------------------------------------------------------------------
    \2\ 47 U.S.C. 155.
---------------------------------------------------------------------------
    Answer. Ministerial decisions, that are not controversial and are 
wholly within the scope of existing precedent, can and should be made 
on delegated authority by, for instance, Bureau officials at the 
agency. At the same time, decisions of first impression, significant 
market effect, or with substantial policy consequence, can and should 
be made by the full Commission.

    Question 7. Another section \3\ in the statute, Section 7, requires 
the FCC to act within 1 year on petitions or applications on new 
technologies or services. But it is my understanding the FCC has never 
implemented rules to administer this section so it has gone unutilized. 
What will you do to see that either the intent of Congress here is 
followed or the Commission requests a modification to the statute?
---------------------------------------------------------------------------
    \3\ 47 U.S.C. 157.
---------------------------------------------------------------------------
    Answer. Section 7 of the Communications Act states that it is the 
policy of the United States to encourage the provision of new 
technologies and services to the public. I wholeheartedly agree with 
the sentiment in this provision.
    It also directs the FCC to determine whether any new technology or 
device proposed in a petition or application is in the public interest 
within 1 year after such petition or application is filed. On the one 
hand, this provision appears to expedite the provision of new 
technologies and services by directing the agency to address issues 
within 1 year. On the other hand, it puts the FCC in the awkward 
position of approving an undefined scope of new technologies and 
services, that if applied across the board, could become an unnecessary 
regulatory hurdle for companies with new and innovative ideas.
    I am aware that the Institute of Electrical and Electronics 
Engineers-USA (IEEE-USA) has asked the FCC to provide additional 
guidance. To this end, the IEEE-USA notes that many wireless 
innovations would appear to be subject to the terms of Section 7 of the 
Communications Act. In addition, the IEEE-USA notes that other, 
similarly broad provisions of the law, including merger review and 
forbearance petitions, are the subject of FCC guidelines.
    As a result, I believe a continuing dialogue on this is needed. 
While additional regulatory guidance is important, it is equally 
important that any process to resolve Section 7 petitions does not 
unnecessarily increase regulatory obligations, becoming an impediment 
for the deployment of new technologies and services.
FCC Technical Expertise
    Engineers at the FCC play an essential role in regulatory matters 
by providing technical consultation on policy matters, managing 
spectrum allocations, and creating new opportunities for competitive 
technologies. However, as I highlighted in letters last year to the FCC 
Chairman and President Obama, over the past several decades there has 
been a significant depletion of engineer staff at the Commission. In 
1948, the FCC had 720 engineers on staff; today, it has fewer than 
270--an astonishing 63 percent reduction--even though the FCC now must 
face more technical issues concerning the Internet, advanced wireless 
communications, commercial cable and satellite industries, and 
broadband.
    A December 2009 report by the Government Accountability Office 
(GAO-10-79) found that the agency ``faces challenges in ensuring it has 
the expertise needed to adapt to a changing market place.'' More 
recently, the National Research Council released a 2011 Wireless Report 
that suggested the FCC would benefit from ``enhancing its technology 
assessment and engineering capabilities'' due to ``entering an era in 
which technical issues are likely to arise on a sustained basis.''
    If the agency doesn't have both the legal and technical expertise, 
it could cause the FCC to implement poor policy and regulation because 
the agency doesn't have the sufficient technical knowledge to 
understand the implications that proposed regulations have on emerging 
technologies. Even more concerning is the lack of technical resources 
hampers innovation and job creation due to excessive delays to 
businesses that have applied for technical waivers, experimental 
licenses, and filed petitions at the agency and there aren't enough 
engineers to review this issues.

    Question 8. Do you share these concerns the technical community has 
about the lack of technical aptitude at the Commission and what 
specific commitments can you provide to helping resolve this glaring 
deficiency of technical resources that can hinder this Nation's 
technical leadership and innovations in communications as well as 
hinder job creation of businesses that are waiting for approval of 
waivers or applications at the Commission?
    Answer. Yes. Today, there are less than 300 engineers working at 
the FCC. It puts great pressure on those who are employed as engineers 
at the agency, because, as the National Research Council suggests, we 
are entering an era in which technical issues are likely to come up 
with greater frequency.
    However, it is also critical to consider how these individuals have 
an opportunity to contribute to the decisionmaking of the agency. To 
this end, I believe they should assist with technical review, play a 
consulting role in major decisions, and also contribute to idea 
generation and policy development within the agency. In addition, the 
experts in the Office of Engineering and Technology should be freely 
available to every part of the FCC, including the Commissioner offices.
    Finally, I would like to note that the agency has run an attorney 
honors program. This two-year employment and training program is 
designed to introduce new and recent law school graduates to the field 
of communications law and policy. I am not aware that the agency has 
difficulty attracting bright young lawyers. Consequently, I believe the 
agency should consider developing a similar honors program for recent 
engineering graduates. Such a program could introduce young people with 
engineering backgrounds to how their technical expertise can be used to 
inform public policy at the FCC.

    Question 9. The FCC deals with a complex agenda of technical and 
nontechnical issues. How do you intend to staff your office to deal 
with such a mix? As you may know, prior to 1982, the statute required 
each Commissioner to appoint a legal assistant and an engineering 
assistant.\4\
---------------------------------------------------------------------------
    \4\ http://transition.fcc.gov/Bureaus/OSEC/library/
legislative_histories/248.pdf (pg 2, second paragraph).
---------------------------------------------------------------------------
    Answer. If confirmed, I will consider the appropriate mix of 
expertise necessary to inform my office. I recognize the benefit of 
having individuals with diverse backgrounds and experience.
Wireless Device Performance
    The escalating demand for spectrum presents significant challenges. 
As more entities use spectrum to provide services to consumers and 
citizens, the ecosystem becomes more crowded and efforts among users to 
coexist become more difficult. As a result, disputes among licensees 
regarding potential harmful interference are occurring with greater 
frequency. Just in the past few years, interference disputes have 
arisen between various parties such as MVDDS/DBS, AWS-1/AWS-3, WCS/
SDARS, and, more recently, with LightSquared/GPS.
    One of the problems contributing to the recurrence of these 
interference disputes is the lack of clear receiver performance 
guidelines. Legislation that I have introduced with Senator Kerry 
promotes more spectral efficiency and interference immunity of device 
receivers and tasks the FCC and NTIA to conduct an interference sensing 
study to provide greater predictability in the determination of harmful 
interference. Taking these steps or similar ones will help mitigate, 
and even prevent, future interference disputes meaning a quicker time 
to market for new companies and lower probability of disruption of 
existing services.
    In a recent letter I sent to the FCC Chairman on spectrum policy I 
included a comment from Michael Gallagher, the former Assistant 
Secretary for Communications and Information, who once stated 
``receiver standards mean less interference and more available 
spectrum.'' So if more spectrum is to be made available, receiver 
performance must be included in any general spectrum policy discussion 
and as part of the equation to prevent a spectrum shortage.

    Question 10. Do you believe the FCC should promote spectral 
efficiency and interference immunity of device receivers? How would you 
recommend the FCC do that?
    Answer. The FCC should consider how it can promote spectral 
efficiency through receiver standards. As noted above, they can mean 
less interference and more available spectrum. This, in turn, can 
reduce disputes regarding harmful interference, increasing the 
potential for development of new and innovative services, while 
reducing the probability of disruption for existing services.
    The authority of the FCC to proceed to regulate receiver standards 
was last addressed by the agency in a 2003 Notice of Inquiry regarding 
the Interference Immunity Specifications for Radio Receivers. The 
record reflects some dispute about the agency's ability to impose 
receiver standards under the Communications Act. The proceeding was 
subsequently terminated in 2007. Regardless, I believe it is time for 
the FCC to take a fresh look at this issue, and if confirmed, would 
support efforts to do so.

    Question 11. Do you believe the FCC and NTIA should more clearly 
define what ``harmful interference'' constitutes?
    Answer. Radio spectrum is a scarce but valuable resource. The 
demands placed on it are only going to grow over time. Reducing harmful 
interference is an essential part of making more efficient and more 
reliable use of our limited spectrum resource.
    As a general matter, clear regulation can inspire confidence and 
investment. To this end, further definition for harmful interference 
may yield some benefit. At the same time, however, I believe additional 
guidance also could result in rigid application over time, denying 
necessary flexibility, and stifling the ability to innovate. 
Consequently, I believe the FCC and NTIA should monitor this issue 
carefully, before determining if additional guidance is useful.
Piracy and Network Neutrality
    As you may know, I have been a long-time champion of network 
neutrality and providing fundamental protections to ensure that the 
inherent openness and freedom of the Internet remain intact so users 
can leverage the uninhibited power and benefit it has to offer. While I 
have serious reservations with the FCC's Open Internet order and 
question their authority to implement such rules, in light of the last 
year's D.C. Court Comcast decision, I have concerns with how such rules 
will impact network management and piracy.
    There has to be an appropriate level of flexibility for network 
operators to effectively manage their networks to ensure quality of 
service (QoS) to all customers as well as to combat the growing problem 
of piracy that plagues the Internet. According to the International 
Federation of the Phonographic Industry (IFPI), 40 billion songs were 
illegally downloaded in 2008 worldwide and that 95 percent of online 
music downloads are completed illegally.
    In addition, the website Torrentfreak.com reported that more than 
52.5 million copies of the top 10 most pirated movies on the Internet 
were illegally downloaded in 2008. Obviously this illegal traffic 
attributes to the congestion that some broadband consumers experience 
when surfing the web and there is also a dollar value associated with 
transportation of this illegal traffic, which increases the operational 
cost to network operators, not to mention the lost revenue to the 
owners of that content.

    Question 12. Do you have concerns about the growing problem of 
piracy? How should the FCC balance its efforts ensure the openness and 
freedom of the Internet with our concerns that ISPs must be able to 
manage their networks in an appropriate way to maintain QoS and to 
protect against unlawful activities such as piracy and child 
pornography?
    Answer. Yes. It is my understanding that FCC network neutrality 
policy applies only to the transmission of lawful content. I support 
this approach. I also acknowledge this is a complex issue, and piracy 
is a growing problem. On the one hand, Internet Service Providers are 
in a unique position to limit online piracy. They control facilities 
over which infringement occurs. On the other hand, this is a task that 
is traditionally the province of courts and law enforcement. Finding a 
way to balance the openness and freedom of the Internet with the need 
for reasonable network management and adequate protection against 
unlawful activities is critically important.
Universal Service Fund Contribution Factor
    Both the industry's ABC proposal and the FCC's current reform of 
the Universal Service Fund deal primarily with the distribution side of 
the program and don't really address reforming the contribution 
mechanism of USF. However, the contribution factor has increased from 
5.6 percent in 2000 to over 15 percent present day (Appendix A--figure 
1), in part due to the shrinking contribution based that is assessed. 
To illustrate, the adjusted contribution base for the 4th Quarter of 
2011 is $14 billion compared to a contribution base of $17 billion for 
the 4th Quarter of 2007 (Appendix A--figure 2). So if no changes are 
made to the contribution mechanism, the financial burden to consumers 
could continue to increase due to a continued decrease in interstate 
and international revenue.
    As the statute stipulates, companies must pay a percentage of their 
interstate and international telecommunication service revenues to the 
Universal Service Fund, intrastate revenues are excluded as well as 
information services such as broadband Internet access. A key 
recommendation within the National Broadband Plan is to broaden the USF 
contribution base.\5\
---------------------------------------------------------------------------
    \5\ Recommendation 8.10: The FCC should broaden the universal 
service contribution base.

    Question 13. Should the contribution base for USF be expanded to: 
(1) lessen the financial burden on consumers and (2) make such 
assessment more equitable but done so in a way that doesn't expand the 
overall size of the fund?
    Answer. The FCC should be studying ways to lessen the financial 
burden of universal service on consumers. Similarly, the agency should 
be studying ways to make assessment more equitable, while constraining 
the fund from unnecessary growth. If confirmed, these concepts will 
inform my thinking about contribution methodology reform.

    Question 14. If you agree the contribution base should be expanded, 
what suggestions of reform do you have to meet the previous questions 
criteria?
    Answer. I believe the FCC should consider replacing the current 
system, funded by an assessment on interstate telecommunications 
services, with a connections-based system. I believe this would be a 
more stable system over time and also lessen the financial burden on 
consumers. However, the complexities of contribution methodology reform 
are significant. While this is my preference, further review may lead 
to a different result. If confirmed, I will study the record and the 
Communications Act and strive to support an outcome that is fair to 
consumers and also honors the essential principles of universal service 
that inform the law.
Advanced Technology Deficit
    The United States has run an advanced technology deficit every 
month since June 2002, meaning we consistently import more advanced 
technology than we export. For 2010, our advanced technology deficit 
totaled an astounding $80.8 billion. And one of the most significant 
technology gaps related to this deficit is with information and 
communications technologies (ICT)--for the month of August 2011 alone, 
we imported over $10.5 billion more in ICT products and services than 
we exported. This deficit weakens the Nation's 21st Century high-tech 
job market, the long-term health of our economy, and our ability to 
remain competitive globally.
    A recent BusinessWeek article about the deficit pointed out that, 
as demand for innovative products continues to increase here 
domestically, the production benefits are primarily felt overseas. In 
addition, the Bureau of Labor Statistics estimates that employment in 
Computer and Electronic Product sector is expected to decline 19 
percent over the 2008-18 period.

    Question 15. Given how important ICT is to our economy and society 
and the role the agency plays in regulating communications, what can 
the FCC due to help reverse this trend in such an important sector of 
our economy? Improving this deficit would mean more jobs not just in 
manufacturing but also research and development and engineering--the 
very high-tech jobs we need to be more competitive in this global 
economy.
    Answer. I believe that the long-term health of our economy, ability 
to remain competitive, and facilitate job and wage growth depends, in 
critical part, on innovation. As a result, the FCC should consider all 
of its policies in light of the importance of innovation. In addition, 
the agency should develop processes that facilitate smart and swift 
decision-making. This can, in turn, speed the deployment of new 
technologies and services. Finally, the FCC should engage in dialogue 
with other government authorities as well as business leaders, to make 
sure that government efforts, across the board, promote economic 
growth.
Appendix A.--Contribution Factor & Base Historical Charts

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim DeMint to 
                          Jessica Rosenworcel
    Question. If confirmed, would you support closing the FCC's June 
17, 2010, Notice of Inquiry (GN Docket No. 10-127), in which the 
Commission, among other questions, asks ``for comment on the legal and 
practical consequences of classifying Internet connectivity service as 
a ``telecommunications service'' to which all the requirements of Title 
II of the Communications Act would apply''?
    Answer. I do not believe all the requirements of Title II of the 
Communications Act should apply to all new services. Regulations 
designed for the era of basic telephony are not uniformly appropriate 
for the technologies and services of the digital age. At the same time, 
I believe it is important to recognize that there are values in the 
Communications Act that endure, including the importance of public 
safety, universal service, competition, and consumer protection.
    Communications technology changes at a fast pace. This, on 
occasion, puts the FCC in the difficult position of identifying where 
services fit best in the existing regulatory framework. It is not an 
easy task, and is best approached with humility. If confirmed, my 
deliberations would be governed by the statute, available precedent, 
and a survey of the record.
    In light of this, I believe that the choice to close the docket 
should be considered in conjunction with the upcoming decision from the 
United States Court of Appeals for the District of Columbia Circuit, in 
Verizon v. FCC. I also recognize that the Congress ultimately has the 
authority to legislate in this area, and it is the duty of the FCC to 
faithfully implement any such legislation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                          Jessica Rosenworcel
    Question 1. Do you believe a bipartisan majority of Commissioners 
should be allowed to meet in private for collaborative discussions, 
subject to appropriate disclosure requirements and oversight and should 
a bipartisan majority of Commissioners be able to place an item on the 
Commission's agenda?
    Answer. The Government in Sunshine Act requires Federal agencies 
headed by a body of two or more members to hold regular public 
meetings. Agencies are required to provide the public with advance 
notice that the meeting will take place. The agenda for this meeting 
must be made public at least 1 week before the meeting. In practice, 
this law also prohibits more than two of the five FCC Commissioners 
from deliberating with one another to conduct agency business outside 
of the context of the public meeting.
    Over the last decade, there have been calls for reform of the 
Government in Sunshine Act, specifically as it applies to the FCC. On 
the one hand, reform would facilitate discussions among Commissioners. 
This could expedite the agency decisionmaking process. On the other 
hand, this would reduce transparency, as it diminishes incentives for 
open dialogue at regular public meetings.
    While I could support such reform, I believe the conditions you 
note are essential, namely that any meeting is bipartisan and that 
there are appropriate disclosure requirements. In addition, because the 
Government in Sunshine Act applies to many Federal agencies, I believe 
it would be prudent to study its operation in other contexts, before 
determining what changes, if any, are required at the FCC.
    Finally, I believe the idea of allowing a bipartisan majority of 
Commissioners to place an item on the Commission's agenda merits 
further thought. Specifically, I believe additional study of how such a 
process works in other government agencies would be prudent before 
making this change at the FCC.

    Question 2. As you know, President Obama's Executive Order 13563 on 
regulatory reform cannot compel independent agency compliance on 
important matters such as performing cost-benefit analyses. While 
Chairman Genachowski may comply, it does not guaranty the FCC will 
follow the exact same methodology as required by Executive Branch 
agencies, nor does it bind the actions of future chairmen. Do you feel 
the use of cost-benefit analyses in the development of rulemakings is 
important enough that the Commission should adopt a rule requiring its 
use, at least with respect to major rulemakings?
    Answer. I support the objectives of Executive Order 13563. Cost-
benefit analysis can be a useful tool for evaluating the relative 
merits of any particular policy. In many cases, balancing benefits with 
costs can help identify efficient outcomes and facilitate good public 
policy.
    At the same time, as analytical method, it may not always be fully 
compatible with the statutory direction in the Communications Act. It 
would be complex, for instance, to integrate cost-benefit analysis with 
the six principles governing universal service policy that are 
enumerated in the law. It would be similarly complex to use cost-
benefit analysis to evaluate obligations under the Communications 
Assistance for Law Enforcement Act, which defines the duty of carriers 
to cooperate in the interception of communications for law enforcement 
purposes.
    As a result, the utility of cost-benefit analysis must be 
considered in light of other objectives in the law. However, with this 
caveat, I believe it is a useful analytical tool that the agency may 
use in its decision-making process in major rulemakings.

    Question 3. When considering approval the transfer of control of 
licenses, which is what the Commission is really doing when it reviews 
a merger, the FCC often attaches conditions not relevant to the 
transaction, but which allow the FCC to pursue a policy goal without 
benefit of a public rulemaking. How would you approach the FCC's 
consideration of such transfers of control?
    Answer. If confirmed, I would follow the statute. The 
Communications Act, in Sections 214 and 310, prohibits the transfers of 
licenses absent a finding by the FCC that the public interest, 
convenience, and necessity will be served thereby. This analysis 
traditionally involves weighing both the benefits and harms of a 
proposed transaction. Any conditions should be rationally related to 
the transaction.

    Question 4. In 1993, Congress voted to fund the FCC entirely 
through fees levied on regulated entities. Congress directed the FCC to 
adopt a funding mechanism that would adjust automatically to reflect 
changes in the agency's workload, its staffing in particular bureaus, 
and economic shifts in regulated communications sectors. To my 
knowledge a requirement that the FCC provide annual updates on its 
efforts to develop a fair & adjustable fee system existed and I do not 
believe any such report has ever reached Congress. Would you add your 
voice to those of other commissioners and chairmen who earlier have 
pledged to finally bring the agency into compliance and rationalize the 
fee system?
    Answer. In 2008, the FCC released a Further Notice of Proposed 
Rulemaking regarding regulatory fee reform. This led to a change in the 
bearer circuit methodology for calculating regulatory fees, the 
elimination of two regulatory fee categories, and the conversion of UHF 
and VHF stations from analog to digital television. By the end of this 
calendar year, the agency has committed to initiate another rulemaking 
to update the record on regulatory fee rebalancing, as well as expand 
this inquiry to include issues and services not covered by the 2008 
proceeding. If confirmed, I would support this effort. I also would 
support any efforts to keep Congress fully informed of agency 
deliberations regarding these issues.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                                Ajit Pai
    Question 1. What are the guiding principles you will rely on if you 
have to consider whether the owner of a daily newspaper should be 
licensed to operate a television station or radio station in that same 
market?
    Answer. I believe that the Commission's media ownership regulations 
should promote the core values of diversity, localism, and competition 
while taking account of the changing nature of the media and 
technological landscape. If I am fortunate enough to be confirmed, I 
would study closely the updated record to be compiled by the Commission 
in the current media ownership rulemaking proceeding prior to reaching 
any firm conclusions on these issues.

    Question 2. In some markets broadcasters are coordinating their 
activities through contractual and other arrangements to get around the 
FCC's local television ownership rules. These arrangements include 
shared services agreements, local marketing agreements, and joint 
operating agreements. Such arrangements typically lead to layoffs of 
station staff, more consolidated local news gathering and programming, 
and reduced competition for audiences and advertisers. It also changes 
the leverage in retransmission agreements negotiated with cable and 
satellite providers. Do you believe that these types of contractual 
arrangements are intended to circumvent the FCC's local television 
ownership rules?
    Answer. Before reaching a conclusion on this issue one way or the 
other, I would need to review an appropriately developed record. 
However, to the extent that any Commission licensee or regulatee 
engages in conduct that violates the Commission's rules, I would 
support appropriate enforcement action against such a licensee or 
regulatee.

    Question 2a. Do you believe that these types of contractual 
arrangements require the FCC to define what an independently owned and 
operated television station is for purposes of its media ownership 
rules?
    Answer. Before reaching a conclusion on this issue, I would need to 
review the record compiled by the Commission in the current media 
ownership rulemaking proceeding. In particular, I would look at the 
impact that such contractual arrangements have on diversity, localism, 
and competition.

    Question 3. Unlicensed spectrum is an integral part of the Nation's 
wireless network. It is estimated that by 2015 over half of all mobile 
traffic will be offloaded to Wi-Fi networks. Today, in Washington 
state, Wi-Fi mesh networks connected to fiber support economic 
development in places such Stevenson, located along the Columbia Gorge. 
The local economy is supported by visitors who come for the rugged 
beauty of the mountains and the recreational opportunities of the 
Columbia River but who want to stay connected. In addition, as more 
types of devices become Internet enabled, they too will need unlicensed 
spectrum to enable device-to-device communications and the development 
of new products and offerings. Do you support policies that that will 
make more unlicensed spectrum available?
    Answer. The innovation that has occurred in the context of 
unlicensed spectrum has provided great benefits to American consumers. 
As suggested in your question, Wi-Fi is perhaps the best example of 
ingenuity in this area. Were I fortunate to be confirmed, I would work 
with my colleagues at the Commission to find ways to promote 
technically and economically feasible innovation using unlicensed 
spectrum.

    Question 3a. As you know I have long supported use of the broadcast 
white spaces for unlicensed fixed wireless and personal portable 
devices. Obtaining additional spectrum for unlicensed so-called super 
Wi-Fi is key to providing new and innovative broadband offerings in 
addition to more cost effectively providing broadband in rural areas. 
There is work that needs to be done at the FCC to make these exciting 
new devices and services commercially possible. Progress seems to move 
in fits and starts. Do you support policies, like the FCC's ``White 
Spaces'' orders, that make spectrum available for unlicensed use below 
1 gigahertz band?
    Answer. Were I fortunate to be confirmed, I would work with my 
colleagues at the Commission to find ways to promote technically and 
economically feasible innovation using unlicensed spectrum. With 
respect to the ``White Spaces'' order specifically, I understand that 
there is a pending petition for reconsideration before the full 
Commission, as well as a judicial appeal before the U.S. Court of 
Appeals for the District of Columbia Circuit. If confirmed, I will 
review the record compiled in response to the petition for 
reconsideration and take appropriate action.

    Question 3b. Can I count on your support in getting the 
Commission's bureaus to focus on completing its work on the white 
spaces in a timely manner?
    Answer. If I am confirmed, you would have my support in that 
endeavor.

    Question 4. Assume Chairman Rockefeller's S. 911 becomes law. The 
D-block goes directly to public safety. There are going to be incentive 
auctions. The FCC is then going to repack the broadcast television 
channels into a narrower band.
    One of the challenges I see in repacking broadcasters operating in 
markets on our northern border is that coordination with Canada is 
required. I imagine it is similar on our southern border. There is a 
formal role for the State Department to play through treaty 
modifications. I believe FCC coordination with its Canadian counterpart 
will go a long way to ensure that channel repacking goes smoothly for 
television stations operating along the northern border. If confirmed, 
will you commit to working with your Canadian counterparts to ensure a 
smooth repacking of television stations after any incentive auction?
    Answer. If confirmed, I would commit to working with my Canadian 
counterparts to ensure a smooth repacking of television stations after 
any incentive auction.

    Question 5. A constituent contacted my state office and told my 
staff that after twice being informed by his Internet Service Provider 
that he had exceeded his monthly data cap, he was blacklisted from 
receiving broadband Internet service for a year. He said he was 
streaming video and audio. He also backed up two decades of high-
resolution photographs and music files onto a cloud-based storage 
application. He is clearly what is known as a power user.
    Even so, my understanding is that the data cap is only somewhat 
linked to managing network congestion. At certain times of the day, 
excessive bandwidth use by an individual consumer may impact the 
quality of service experienced by other broadband users. At other times 
of the day though, it is not so clear. If large amounts of data is 
uploaded or downloaded to remote servers in the middle of the night, I 
have my doubts whether it will really interfere with the functioning of 
the network.
    More broadly, I am concerned that data caps are becoming the 
broadband industry norm--particularly for the 4-G wireless broadband 
services. If you work out the numbers between the download speeds and 
the data cap on many plans, consumers will not be able to take 
advantage of the 4-G features for very long. Do you believe that data 
caps are becoming more of a standard industry practice for all 
residential and wireless broadband providers?
    Answer. While it is my impression that data caps have become more 
prevalent, I have not had the opportunity to study recent FCC or other 
detailed analyses of industry practice with respect to data caps on 
residential and wireless broadband users. If confirmed, I will examine 
the record in current, relevant proceedings to ascertain whether the 
practice has become standard.

    Question 5a. Do you believe there is a strong linkage between data 
caps and managing network congestion?
    Answer. While there is a link between data caps and managing 
network congestion, I would need to study industry policies more 
closely before reaching any firm conclusion as to the strength of that 
link.

    Question 5b. Do you believe there is a need for the Commission to 
look into the nature, purpose, and impact of data caps on consumers?
    Answer. The Commission should take note of any policies, including 
data caps, that impact consumers.

    Question 6. Our communications network is transitioning from 
circuit switched to Internet Protocol (IP) and the FCC has begun to 
discuss the possibility of sunsetting the public switched telephone 
network. As the network transitions, innovators are offering consumers 
new and interesting ways to communicate. For example, there are a 
variety of VoIP products including some that replace telephone 
services, supplement telephone service, or provide conveniences as 
click to call offerings. As IP services evolve, it remains important 
that policymakers refrain from regulating them too quickly and instead 
proceed with a light touch enabling these new IP based service to 
emerge and flourish. Do you support a light touch approach when 
addressing public policy issues concerning IP services?
    Answer. As a general matter, I support a light-touch regulatory 
approach in order to incentivize private investment and innovation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                                Ajit Pai
    Question 1. Digital Divide on Tribal Lands. The mission of the 
Federal Communications Commission is to make communications services 
available to all the people of the United States. However, the first 
people of the United States--Native Americans--face a significant 
digital divide on Tribal lands.
    Most people probably cannot imagine life without a telephone. Yet 
today more than 30 percent of households in Indian Country do not have 
access to basic telephone service. Broadband access is much worse with 
probably more than 90 percent lacking broadband. These statistics do 
not truly convey the hardships created by this lack of 
telecommunications service. Imagine not being able to call an ambulance 
when you or someone you love is in medical danger. Phones and broadband 
also help keep friends and family members in touch when they are far 
apart. Imagine not being able to speak with a loved one who is serving 
in the military and won't be home this holiday season.
    Although Tribal lands are among the least connected, this is 
precisely where modern communications technologies can help the most. 
By overcoming physical distances and geographic isolation, broadband 
can help improve economic development, education, and access to health 
care.
    I am pleased that the Commission is paying particular attention to 
this challenge. There is a new Office of Native Affairs and Policy to 
help work with Tribes on a government-to- government basis. The recent 
Universal Service order proposes a Tribal Mobility Fund to expand 
wireless access. It will also require engagement with Tribes. These are 
welcome steps in the right direction. So, I would like to ask that, if 
confirmed, will you seek to ensure that the Commission continues to 
work with Tribes and telecommunications carriers to tackle the digital 
divide facing so many Native American communities?
    Answer. If confirmed, I will work with my fellow Commissioners and 
agency staff to ensure that the Commission continues to work with 
tribes and telecommunications carriers on communications issues 
involving Native American communities.

    Question 2. Support for Telemedicine. New Mexico is a rural state 
where many rural communities are not only underserved when it comes to 
in communications, but also underserved in health services. We have 
some great folks at the University of New Mexico and in our hospital 
systems who are working hard to improve rural healthcare by using new 
innovative telehealth technologies.
    The Government Accountability Office has criticized the FCC's 
management of the Rural Health Care Program. Some of the telemedicine 
proposals contained in the FCC's National Broadband Plan also seem to 
be on hold at the moment. I realize that the FCC is engaged in 
substantive reform in areas such as universal service. But telehealth 
is another area that should be a priority. Can you assure me that, as 
Commissioners, you will support efforts to improve and increase 
telemedicine opportunities, especially for rural communities?
    Answer. If confirmed, I will work with my fellow Commissioners and 
agency staff to find ways to improve and increase telemedicine 
opportunities, especially for rural communities.

    Question 3. Support for low-income people. The Commission recently 
published its proposals for reforming how universal service funds will 
support building out broadband networks in rural areas.
    But we know that having broadband available where you live is not 
the only aspect to tackling the digital divide. People need to see the 
value of having it. And they need to be able to afford to pay for it.
    The universal service Life Line and Link Up initiatives have helped 
many people with low incomes get basic telephone service. In rural 
Tribal areas, Enhanced Life Line and Link Up help not just with 
adoption rates but also service deployment to some high cost areas 
where many potential customers could not afford phone service.
    In addition to the Commission's efforts, some cable and phone 
companies have committed to offering reduced price broadband options 
for certain low income families. Could you share your thoughts on how 
the Commission can use universal service initiatives, and also work 
with private companies, to increase broadband adoption, particularly 
among people with low incomes?
    Answer. I believe that it is important for the Commission to 
continue its efforts to update the Universal Service Fund (USF) to meet 
the needs of the 21st century. In particular, USF reform should focus 
on ways to promote the greater deployment and adoption of broadband, 
including through the Lifeline and Link Up programs. This can have a 
particular impact on people with low incomes, whose adoption rates are 
relatively low. While I have not yet had the chance to review in detail 
the Commission's recent 751-page order reforming the USF, I understand 
that it has taken some steps to reform the program in this direction. I 
also understand that the Commission is currently looking at ways to 
reform the Lifeline program. If confirmed, I would work with my fellow 
Commissioners and agency staff on ways to ensure that the USF addresses 
this important issue.

    Question 4. Importance of broadcast TV and Radio. Today, there is a 
lot of excitement about mobile broadband, which puts the power of the 
Internet into the palm of your hand. I am amazed by what new 
smartphones and tablets like the iPad can do.
    Yet, with all the excitement about new mobile technologies, it is 
easy to forget that broadcast TV and radio are truly the first 
``wireless'' technologies. They continue to play a valuable role today. 
Not everyone can afford cable or satellite TV. Not everyone has access 
to the Internet at home.
    Free broadcast TV and radio are especially important in times of 
emergency. For example, this year when northern New Mexico faced severe 
winter storms and summer forest fires, people turned to their local 
broadcasters for the latest weather and safety information. Outside of 
emergencies, local businesses also appreciate how advertising on local 
broadcast stations can help them reach customers in their communities. 
Can you share your views on the value of over-the-air broadcasting and 
the importance of its role in an evolving telecommunications landscape?
    Answer. I believe that over-the-air broadcasting has provided 
valuable benefits to the American people. From educational television 
programming to emergency-related radio broadcasts, over-the-air 
services have improved our quality of life. If confirmed, I will work 
with my fellow Commissioners and agency staff to ensure that over-the-
air broadcasting continues to be a positive presence in the 
communications landscape.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                                Ajit Pai
    Question 1. Interoperability issues have become more important over 
the last few years. I am concerned about interoperability problems that 
seem to limit the ability of smaller players, in particular, to be 
competitive. This problem appears to be particularly acute for smaller 
companies and markets. This concerns me for several reasons. First, if 
future auction participants do not know they will be able to acquire 
devices, then they are less likely to bid on spectrum licenses. Second, 
the proliferation of band classes means that device chipsets have to 
cover more band classes in order for a device to be able to traverse an 
entire band. Third, I worry that a lack of predictability regarding 
interoperability may have led some companies to withhold investments 
which would benefit the economy and potentially foster more innovation. 
Can you provide me with an explanation of your views on 
interoperability requirements?
    Answer. I believe that consumers benefit from interoperability and 
that interoperability requirements can bolster the competitive standing 
of smaller providers. On the other hand, it has been argued that such 
requirements may impose technological challenges on manufacturers and 
carriers as well as costs that may be passed along to consumers. If 
confirmed, I will carefully study the record before the Commission 
before making any decision in this area.

    Question 1a. Issues in the 700 MHz band plan have been raised in 
this committee over the past year. Should the FCC take a serious look 
at this issue? If not, why not? If so, what do you think the FCC could 
do to make sure the benefits of interoperability are fully realized?
    Answer. Earlier this year, the FCC convened a workshop to explore 
commercial and technological issues related to 700 MHz 
interoperability. I believe that the FCC should continue to study such 
issues carefully, and if confirmed, any conclusion I reach regarding 
interoperability requirements in the 700 MHz band will be based on my 
own thorough review of the Commission record.

    Question 2. With regard to the Commission's ongoing USF reform 
efforts, do you believe the Commission is doing all it should to 
promote access and availability of broadband, particularly wireless 
broadband, to our Nation's non-urban areas? If not, what else should 
the Commission do?
    Answer. While I have not yet had the chance to review in detail the 
Commission's recent 751-page order reforming the Universal Service Fund 
(USF), I am pleased that the Commission is focused on modernizing the 
USF to prioritize the deployment of broadband. If confirmed, I will 
work with my colleagues on adapting the USF to serve the communications 
needs of the 21st Century. Apart from reforming the USF, I believe that 
the Commission must work to create a regulatory environment that 
encourages the private sector to innovate and to invest in 
communications infrastructure for rural America. Finally, when 
auctioning spectrum, build-out requirements can play an important role 
in ensuring that service is provided to non-urban areas.

    Question 3. As carriers continue to migrate to IP networks, the 
direct interconnection of voice networks remains vital to ensure 
competition, innovation, and lower prices. The FCC, in its recent USF 
order, stated that the duty to negotiate interconnection agreements in 
good faith ``does not depend upon the network technology underlying the 
interconnection, whether TDM, IP, or otherwise.'' What is your view of 
duty to interconnect under the 1996 Telecom Act? Would you agree that 
the Act is ``technologically neutral'' regarding interconnection?
    Answer. Section 251 of the Communications Act specifies, among 
other things, that telecommunications carriers have ``the duty to 
interconnect directly or indirectly with the facilities and equipment 
of other telecommunications carriers.'' When discussing 
interconnection, this provision neither mentions any particular 
technology that may be used by a telecommunications carrier nor 
distinguishes between telecommunications carriers using different 
technologies.

    Question 4. Media cross-ownership rules have generated great 
interest over the past several years. Can you share your views on the 
current newspaper/broadcast station cross-ownership rule? Do you think 
it should be relaxed?
    Answer. If I am fortunate enough to be confirmed, I would study 
closely the updated record to be compiled by the Commission in the 
current media ownership rulemaking proceeding prior to reaching a firm 
conclusion on this issue. I believe that the Commission's media 
ownership regulations should promote the core values of diversity, 
localism, and competition while taking account of the changing nature 
of the media and technological landscape. These are the principles that 
will guide my assessment of any proposal to change the newspaper/
broadcast station cross-ownership rule.

    Question 5. In the last two FCC Mobile Competition Reports, the 
Commission was unable to certify the industry as competitive. What 
steps would you recommend taking to enhance competition within the 
mobile industry?
    Answer. The FCC should create a regulatory environment that both 
enhances competition within the mobile industry and encourages 
investment. Right now, the most important steps that the Commission 
could take to enhance competition and encourage investment in the 
wireless industry are to allocate additional spectrum for mobile 
broadband and provide regulatory certainty.

    Question 6. The President set an aggressive goal of releasing an 
additional 500 MHz of spectrum over the next 10 years. In the past 
year, Federal efforts to make more spectrum available have been mixed 
at best. NTIA released a preliminary report in January 2011 which 
identified 115 MHz of spectrum, but only 15 MHz would not need to be 
shared with Federal users. An updated report is expected to be released 
any day now. What do you think needs to happen, particularly over the 
next 2-3 years, to help us achieve this goal?
    Answer. The National Telecommunications and Information 
Administration recently prioritized the evaluation of various bands of 
spectrum (encompassing 1,500 MHz of spectrum in total) to see whether 
they could be made available for mobile broadband. The Federal 
Government must quickly assess all of these bands in a coordinated 
fashion and identify those that can be most easily and effectively 
repurposed for mobile broadband. Once a band has been prioritized in 
this fashion, the FCC must work to complete necessary allocation and 
service rulemakings in an expeditious manner and then rapidly take 
steps to place that spectrum in use, for example through auctions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                                Ajit Pai
    Question 1. Even with the current FCC focus on rural broadband 
deployment to the remote regions of Alaska most of Alaska's rural 
communities still depend on free local over the air Television and 
Radio to receive emergency information and critical news programming. 
Early in November a Bering Sea Superstorm of hurricane proportions 
wreaked havoc on the western part of the state jeopardizing villages 
and lives with historic weather conditions. Local broadcasters 
effectively kept everyone in the storm's path aware of the latest 
conditions. Can you tell us the role that broadcasters will play in 
21st century telecommunications policy?
    Answer. I believe that broadcasting has a vital role to play in 
21st century telecommunications policy. As indicated in your question, 
when emergencies occur, Americans often rely on broadcasters to provide 
them with critical news and information. If confirmed, I will work to 
ensure that the United States continues to benefit from a vibrant 
broadcasting industry and that broadcasters continue to provide 
important services to their communities.

    Question 2. Many Senators have spoken about how rural markets 
aren't like other markets, and I would add Alaskan rural markets aren't 
like lower 48 rural markets--in many cases, they aren't effective 
markets at all. What are your thoughts on how we give providers 
incentives to build and operate in places where investment is hard to 
come by? Is the ``carrier of last resort'' concept important in those 
places, in your view?
    Answer. In order to give providers incentives to build and operate 
in rural markets, the Commission must continue to reform the Universal 
Service Fund to prioritize effective broadband deployment in rural 
America. We must also create a regulatory environment that encourages 
the private sector to invest in communications infrastructure for rural 
America. Finally, build-out requirements can be an important mechanism 
for ensuring that carriers provide service to those in rural areas. 
Carrier of last resort obligations require a carrier to provide service 
to any customer who requests it in a given geographical area and thus 
can be important in ensuring that all consumers in that area have 
access to communications services.

    Question 3. Another important issue to rural consumers in 
interoperability. I wrote a letter with Chairman Rockefeller, and 
Senator Wicker urging Chairman Genachowski to being a proceeding to 
ensure consumers have access to mobile devises operating on the next 
generation networks that use 700 MHz spectrum. Interoperability between 
networks in important, not only to public safety, but to consumers who 
have rural wireless providers and travel between various commercial 
networks and should be able to utilize these networks. If confirmed, 
how will you address this important issue?
    Answer. Earlier this year, the FCC convened a workshop to explore 
commercial and technological issues related to 700 MHz 
interoperability. The FCC should continue to study such issues 
carefully, and if confirmed, any conclusion I reach regarding 
interoperability requirements in the 700 MHz band will be based on my 
own thorough review of the Commission record.

    Question 4. The FCC is currently considering a proposal to reform 
the Lifeline program that would limit eligibility for the Lifeline 
program to one per residential address. The Lifeline program in Alaska 
has been extremely beneficial to many Alaskans. In fact, since the 
program came on board 17 years ago penetration among disadvantaged 
populations has increased dramatically. It is critical eligible low-
income adults have access to Lifeline-supported phone services. This is 
important for the safety of many Alaskans, including those in rural 
Alaska who don't always have a public safety officer in their village 
and are prone to extreme weather conditions and may need emergency 
services. I ask for your commitment to work with me to ensure benefits 
of this program continue to be available and serve disadvantaged 
populations.
    Answer. I have appreciated the opportunity to learn from you during 
our private meeting and the public hearing about the impact that FCC 
policies can have on Alaskans, especially disadvantaged and rural 
residents. If confirmed, I commit to working with you to ensure that 
that the Lifeline program meets the goal of serving disadvantaged 
populations.

    Question 5. The process at the FCC is very complicated and I feel 
is not as transparent as it could be. I would like to see this process 
improved to be more transparent so companies and consumers do not have 
to live in limbo for weeks after a vote before an order is published. 
If nominated what would you do or recommend to help this process along?
    Answer. I agree that it is extremely important for the FCC to be 
transparent. Once a vote on an order is taken, I do not believe that 
the Commission should wait for weeks to release it publicly. If 
confirmed, I will work to shorten any delays in releasing Commission 
decisions. One step that would minimize delays would be for the 
language of an item to be finalized before the Commissioners cast their 
votes.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                                Ajit Pai
Broadband Expansion and Adoption
    It has been over a year and a half since the FCC released its 
National Broadband Plan, which was to be a blueprint to achieving 
affordable, high-speed broadband to all Americans. However, there has 
been criticism the agency has not acted quickly enough to implement the 
numerous recommendations outlined in it. While the Commission has 
issues several public notices related to recommendations and goals 
highlighted in the Plan, plan, some organizations have estimated only 
about 10-20 percent of the recommendations in the Plan have actually 
been implemented/completed.
    This is somewhat concerning given how many Americans still lack 
broadband service. Thirty-five percent of American adults, or 80 
million people, do not have high-speed Internet access in their homes. 
In addition, a 2008 Pew Internet & American Life Project survey found 
that approximately 62 percent of dial-up users said they weren't 
interested in switching to broadband. That same survey also found that 
33 percent of non-Internet users say they are not interested in using 
the Internet. So two digital divides (one with supply and one with 
demand) continue to linger while much of the National Broadband Plan 
goes unimplemented.

    Question 1. Do you believe the FCC has been as active as it needs 
to be in implementing the recommendations in the National Broadband 
Plan?
    Answer. I believe that the Commission deserves credit for 
implementing many of the recommendations set forth in the National 
Broadband Plan. Nevertheless, not all of the benchmarks for 
implementation of the National Broadband Plan have been met in a timely 
manner, so the Commission has much more work ahead of it. If confirmed, 
I look forward to working with my colleagues to make further progress 
in expanding broadband availability and adoption.

    Question 2. What outstanding recommendations in the Plan would you 
prioritize to help spur the expansion of broadband availability?
    Answer. I would prioritize implementation of the recommendation 
that 500 MHz of additional spectrum be made available for mobile 
broadband use by 2020. Wireless broadband will play an important role 
in expanding broadband availability, and there is a long way to go to 
meet the 500 MHz objective set forth in the National Broadband Plan. I 
also believe that we need to prioritize the improvement of data and 
transparency regarding spectrum allocation and utilization. This 
objective must be met in order to enhance spectrum policymaking by the 
Commission, other government agencies, and Congress.

    Question 3. What specific initiatives/proposals do you believe 
would be beneficial to achieving that goal of consumer awareness and 
education?
    Answer. In order to improve broadband adoption, it is obviously 
necessary for educational efforts to stress the numerous benefits that 
come with broadband access. It is also necessary, however, for such 
initiatives to address the concerns that many Americans have about 
going online. For example, some individuals fear that they will be 
victimized by financial crimes or privacy intrusions because of their 
online activities. Some parents are also concerned their children will 
be exposed online to those that wish to harm them. It is important for 
both the private sector and the government to provide Americans with 
the information that will allay their concerns and allow them to feel 
comfortable about adopting broadband.
More Timely Decision Making
    While the FCC has a self-imposed shot clock of 180 days for merger 
reviews, it rarely adheres to it. Many recent merger reviews by the 
Commission have surpassed the 180 day benchmark--the NBC-Universal 
Comcast merger review took 234 days, the XM-Sirius merger review took 
412 days, and the CenturyLink and Qwest merger review took 294 days.
    The agency also has a poor record in timely decisions on other 
matters before it. At one point, the FCC had a backlog of over 5,000 
petitions and more than 4,000 license applications pending. And 
technical proceedings at the FCC have been, what Mitch Lazrus, a well 
respected telecommunications lawyer, calls ``dismally slow.''
    In a letter I sent to Chairman Genachowski back in January 2010, I 
highlighted several outstanding spectrum proceedings I urged the 
Commission to conclude to release more spectrum for wireless broadband. 
One of the concerns I had about the proceedings I mentioned was that 
all had been open for 3 years or longer, and another related proceeding 
\1\ to WCS-SDARS had been pending for over a decade.
---------------------------------------------------------------------------
    \1\ IB Docket No. 95-91.
---------------------------------------------------------------------------
    I am concerned that this lack of action hinders innovation and 
causes significant uncertainty to small start-up companies that are 
critical to job creation.

    Question 4. What steps will you take with respect to regulatory 
reform so that the agency can be more nimble in the very dynamic 
telecommunications industry and not be a bottleneck to innovation and 
job creation due to inaction or delays on petitions and applications?
    Answer. I share your view that the FCC must make decisions in a 
timely manner and that the Commission's record in this area can be 
improved. Among other things, delays in Commission decisionmaking can 
slow broadband deployment, stall innovation and investment, and impede 
job creation. If I am fortunate enough to be confirmed, I will work 
with my fellow Commissioners to try to address this problem. In 
particular, I believe that the Commission should consider flagging in a 
systematic manner those petitions and applications that have the 
greatest potential to lead to innovation, investment, and job creation 
and then place the greatest priority on deciding those petitions and 
applications.

    Question 5. What criteria will you use when reviewing future 
wireless mergers and petitions? Will you strongly push for more timely 
decisions on pending mergers given the dynamic nature of the industry?
    Answer. Yes, I will push for the Commission to make timely 
decisions in merger proceedings. I support the Commission's 180-day 
shot clock and believe that it is important for the Commission to 
comply with it.
    As for the criteria I will use to review future wireless mergers 
and petitions, I will evaluate whether they are in the public interest 
by looking at the effect of any proposed transaction on competition, 
consumers, innovation, and investment.

    Question 6. As you know, section 5(c) of the Communications Act \2\ 
authorizes the Commission to delegate most of its functions to ``a 
panel of commissioners, an individual commissioner, an employee board, 
or an individual employee'' to ensure proper functioning of the 
Commission as well as prompt and orderly conduct of its business.Do you 
believe the FCC has made effective use of this provision in the 
statute?
---------------------------------------------------------------------------
    \2\ 47 U.S.C. 155.
---------------------------------------------------------------------------
    Answer. Based upon my experience in the FCC's Office of General 
Counsel, I believe that the Commission does rely extensively and, for 
the most part, effectively on the ability to delegate power granted by 
Section 5(c) of the Communications Act. In fact, the bulk of Commission 
action is taken on delegated authority; the full Commission simply does 
not have sufficient resources to review and render judgment on the 
countless petitions, applications, and other items that require agency 
action. Thus, section 0.5(c) of the Commission's rules provides that 
``Pursuant to section 5(c) of the Communications Act, the Commission 
has delegated authority to its staff to act on matters which are minor 
or routine or settled in nature and those in which immediate action may 
be necessary.'' 47 C.F.R.  0.5(c). The rules go on to grant the 
various Bureaus and Offices over which the full Commission has 
supervisory responsibility the power to perform a wide variety of 
functions. See 47 C.F.R.  0.231, 0.241, 0.251, 0.261, 0.271, 0.283, 
0.291, 0.311, 0.314, 0.331, 0.351, 0.361,0.371, 0.391, and 0.392. (The 
Commission's rules also permit a party aggrieved by a decision made on 
delegated authority to seek review by the full Commission by filing an 
application for review. See 47 C.F.R.  0.5(c).) The frequent exercise 
of delegated authority by the Commission's Bureaus and Offices enables 
agency decision-making to be much more prompt and efficient than it 
otherwise would be. All this said, I am not aware of any recent cases 
in which the full Commission has delegated authority to a Commissioner 
or panel of Commissioners pursuant to 47 C.F.R.  0.218 (permitting 
individual Commissioner or Commissioners to be designated as presiding 
officers in hearing proceedings and to review initial decisions in 
hearing cases).

    Question 7. Another section \3\ in the statute, Section 7, requires 
the FCC to act within 1 year on petitions or applications on new 
technologies or services. But it is my understanding the FCC has never 
implemented rules to administer this section so it has gone unutilized. 
What will you do to see that either the intent of Congress here is 
followed or the Commission requests a modification to the statute?
---------------------------------------------------------------------------
    \3\ 47 U.S.C. 157.
---------------------------------------------------------------------------
    Answer. I am not aware of any Commission rules specifically 
implementing Section 7 of the Communications Act. However, should a 
party file a petition or application relating to a ``new technology or 
service'' and invoke Section 7, or should the Commission initiate its 
own proceeding under Section 7, I will work with my fellow 
Commissioners and agency staff to ensure that the Commission meets the 
one-year statutory deadline.
FCC Technical Expertise
    Engineers at the FCC play an essential role in regulatory matters 
by providing technical consultation on policy matters, managing 
spectrum allocations, and creating new opportunities for competitive 
technologies. However, as I highlighted in letters last year to the FCC 
Chairman and President Obama, over the past several decades there has 
been a significant depletion of engineer staff at the Commission. In 
1948, the FCC had 720 engineers on staff; today, it has fewer than 
270--an astonishing 63 percent reduction--even though the FCC now must 
face more technical issues concerning the Internet, advanced wireless 
communications, commercial cable and satellite industries, and 
broadband. A December 2009 report by the Government Accountability 
Office (GAO-10-79) found that the agency ``faces challenges in ensuring 
it has the expertise needed to adapt to a changing market place.'' More 
recently, the National Research Council released a 2011 Wireless Report 
that suggested the FCC would benefit from ``enhancing its technology 
assessment and engineering capabilities'' due to ``entering an era in 
which technical issues are likely to arise on a sustained basis.''
    If the agency doesn't have both the legal and technical expertise, 
it could cause the FCC to implement poor policy and regulation because 
the agency doesn't have the sufficient technical knowledge to 
understand the implications that proposed regulations have on emerging 
technologies. Even more concerning is the lack of technical resources 
hampers innovation and job creation due to excessive delays to 
businesses that have applied for technical waivers, experimental 
licenses, and filed petitions at the agency and there aren't enough 
engineers to review this issues.

    Question 8. Do you share these concerns the technical community has 
about the lack of technical aptitude at the Commission and what 
specific commitments can you provide to helping resolve this glaring 
deficiency of technical resources that can hinder this Nation's 
technical leadership and innovations in communications as well as 
hinder job creation of businesses that are waiting for approval of 
waivers or applications at the Commission?
    Answer. I believe that it is invaluable for the Commission's 
decisions to be informed by technical experts, particularly where 
important technical matters are at issue. If confirmed, I therefore 
commit to informing both my fellow Commissioners and Congress if I ever 
conclude that the agency does not have enough staff with technical 
expertise to discharge its responsibilities in an effective and prompt 
manner and then to working with them on meaningful solutions to such a 
problem.

    Question 9. The FCC deals with a complex agenda of technical and 
nontechnical issues. How do you intend to staff your office to deal 
with such a mix? As you may know, prior to 1982, the statute required 
each Commissioner to appoint a legal assistant and an engineering 
assistant.\4\
---------------------------------------------------------------------------
    \4\ http://transition.fcc.gov/Bureaus/OSEC/library/
legislative_histories/248.pdf (pg 2, second paragraph).
---------------------------------------------------------------------------
    Answer. Should I be fortunate to be confirmed, I would seek to hire 
staff capable of addressing all of the FCC's complex agenda of 
technical and nontechnical issues. In particular, I would endeavor to 
have staff members that have different strengths and backgrounds so 
that my staff as a whole would be well versed on all aspects of the 
Commission's work. As appropriate, I would also consult with technical 
experts in the Commission's Office of Engineering and Technology (OET) 
to aid my understanding of issues facing the Commission.
Wireless Device Performance
    The escalating demand for spectrum presents significant challenges. 
As more entities use spectrum to provide services to consumers and 
citizens, the ecosystem becomes more crowded and efforts among users to 
coexist become more difficult. As a result, disputes among licensees 
regarding potential harmful interference are occurring with greater 
frequency. Just in the past few years, interference disputes have 
arisen between various parties such as MVDDS/DBS, AWS-1/AWS-3, WCS/
SDARS, and, more recently, with LightSquared/GPS.
    One of the problems contributing to the recurrence of these 
interference disputes is the lack of clear receiver performance 
guidelines. Legislation that I have introduced with Senator Kerry 
promotes more spectral efficiency and interference immunity of device 
receivers and tasks the FCC and NTIA to conduct an interference sensing 
study to provide greater predictability in the determination of harmful 
interference. Taking these steps or similar ones will help mitigate, 
and even prevent, future interference disputes meaning a quicker time 
to market for new companies and lower probability of disruption of 
existing services.
    In a recent letter I sent to the FCC Chairman on spectrum policy I 
included a comment from Michael Gallagher, the former Assistant 
Secretary for Communications and Information, who once stated 
``receiver standards mean less interference and more available 
spectrum.'' So if more spectrum is to be made available, receiver 
performance must be included in any general spectrum policy discussion 
and as part of the equation to prevent a spectrum shortage.

    Question 10. Do you believe the FCC should promote spectral 
efficiency and interference immunity of device receivers? How would you 
recommend the FCC do that?
    Answer. As a general matter, I believe that the FCC should take 
appropriate action to promote spectral efficiency and minimize 
interference. If I am fortunate to be confirmed, I would look forward 
to working with you and Senator Kerry to explore ways in which the 
Commission can meet these goals with respect to device receivers.

    Question 11. Do you believe the FCC and NTIA should more clearly 
define what ``harmful interference'' constitutes?
    Answer. I believe that the FCC and NTIA should provide as much 
clarity as possible as to what constitutes harmful interference. Lack 
of guidance on this question creates regulatory uncertainty, which can 
inhibit innovation and investment, ultimately harming consumers. If I 
am fortunate to be confirmed, I would look forward to working with you 
and Senator Kerry to explore ways in which the concept of harmful 
interference can be more clearly defined.
Piracy and Network Neutrality
    As you may know, I have been a long-time champion of network 
neutrality and providing fundamental protections to ensure that the 
inherent openness and freedom of the Internet remain intact so users 
can leverage the uninhibited power and benefit it has to offer. While I 
have serious reservations with the FCC's Open Internet order and 
question their authority to implement such rules, in light of the last 
year's D.C. Court Comcast decision, I have concerns with how such rules 
will impact network management and piracy.
    There has to be an appropriate level of flexibility for network 
operators to effectively manage their networks to ensure quality of 
service (QoS) to all customers as well as to combat the growing problem 
of piracy that plagues the Internet. According to the International 
Federation of the Phonographic Industry (IFPI), 40 billion songs were 
illegally downloaded in 2008 worldwide and that 95 percent of online 
music downloads are completed illegally.
    In addition, the website Torrentfreak.com reported that more than 
52.5 million copies of the top 10 most pirated movies on the Internet 
were illegally downloaded in 2008. Obviously this illegal traffic 
attributes to the congestion that some broadband consumers experience 
when surfing the web and there is also a dollar value associated with 
transportation of this illegal traffic, which increases the operational 
cost to network operators, not to mention the lost revenue to the 
owners of that content.

    Question 12. Do you have concerns about the growing problem of 
piracy? How should the FCC balance its efforts ensure the openness and 
freedom of the Internet with our concerns that ISPs must be able to 
manage their networks in an appropriate way to maintain QoS and to 
protect against unlawful activities such as piracy and child 
pornography?
    Answer. I am concerned about the problem of piracy. Broadband 
service providers must be able to take appropriate actions to prevent 
their networks from being used to facilitate unlawful activities. For 
example, I am pleased that the Commission has said that there should be 
no doubt that broadband providers may block transfers of child 
pornography. I also believe that broadband service providers must have 
the ability to manage their networks in an appropriate way in order to 
preserve the quality of service offered to their customers. From my 
perspective, network congestion can impede openness and freedom on the 
Internet since such congestion can hamper customers' ability to access 
the content on the Internet that they wish to access.
Universal Service Fund Contribution Factor
    Both the industry's ABC proposal and the FCC's current reform of 
the Universal Service Fund deal primarily with the distribution side of 
the program and don't really address reforming the contribution 
mechanism of USF. However, the contribution factor has increased from 
5.6 percent in 2000 to over 15 percent present day (Appendix A--figure 
1), in part due to the shrinking contribution based that is assessed. 
To illustrate, the adjusted contribution base for the 4th Quarter of 
2011 is $14 billion compared to a contribution base of $17 billion for 
the 4th Quarter of 2007 (Appendix A--figure 2). So if no changes are 
made to the contribution mechanism, the financial burden to consumers 
could continue to increase due to a continued decrease in interstate 
and international revenue.
    As the statute stipulates, companies must pay a percentage of their 
interstate and international telecommunication service revenues to the 
Universal Service Fund,intrastate revenues are excluded as well as 
information services such as broadband Internet access. A key 
recommendation within the National Broadband Plan is to broaden the USF 
contribution base.\5\
---------------------------------------------------------------------------
    \5\ Recommendation 8.10: The FCC should broaden the universal 
service contribution base.

    Question 13. Should the contribution base for USF be expanded to: 
(1) lessen the financial burden on consumers and (2) make such 
assessment more equitable but done so in a way that doesn't expand the 
overall size of the fund?
    Answer. I believe that the contribution methodology for the 
Universal Service Fund needs to be reformed and that the Commission 
should tackle this issue next year. In particular, I am concerned about 
the growth of the contribution factor and am interested in exploring 
ways that we can reduce the financial burden on consumers while still 
advancing the important objective of universal service.

    Question 14. If you agree the contribution base should be expanded, 
what suggestions of reform do you have to meet the previous questions 
criteria?
    Answer. The Commission should develop a full record that addresses 
various proposals for reforming the USF's contribution methodology. If 
confirmed, I will study that record closely before endorsing any 
specific reforms.
Advanced Technology Deficit
    The United States has run an advanced technology deficit every 
month since June 2002, meaning we consistently import more advanced 
technology than we export. For 2010, our advanced technology deficit 
totaled an astounding $80.8 billion. And one of the most significant 
technology gaps related to this deficit is with information and 
communications technologies (ICT)--for the month of August 2011 alone, 
we imported over $10.5 billion more in ICT products and services than 
we exported. This deficit weakens the Nation's 21st Century high-tech 
job market, the long-term health of our economy, and our ability to 
remain competitive globally.
    A recent BusinessWeek article about the deficit pointed out that, 
as demand for innovative products continues to increase here 
domestically, the production benefits are primarily felt overseas. In 
addition, the Bureau of Labor Statistics estimates that employment in 
Computer and Electronic Product sector is expected to decline 19 
percent over the 2008-18 period.

    Question 15. Given how important ICT is to our economy and society 
and the role the agency plays in regulating communications, what can 
the FCC due to help reverse this trend in such an important sector of 
our economy? Improving this deficit would mean more jobs not just in 
manufacturing but also research and development and engineering--the 
very high-tech jobs we need to be more competitive in this global 
economy.
    Answer. I agree that ICT is vitally important to our economy. The 
largest part of our trade deficit in ICT is with China, and generally 
stems from broader economic and trade issues that the FCC does not have 
the ability to solve alone. The FCC, however, should promote 
innovation, investment, and job creation in our Nation's communications 
industry, and one of the most crucial things the FCC can do to promote 
these goals is to eliminate unnecessary regulation wherever possible. 
Such regulation can inhibit investment and job creation, and lead 
innovators to seek more hospitable environments abroad.
       Appendix A.--Contribution Factor & Base Historical Charts

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim DeMint to 
                                Ajit Pai
    Question. If confirmed, would you support closing the FCC's June 
17, 2010, Notice of Inquiry (GN Docket No. 10-127), in which the 
Commission, among other questions, asks ``for comment on the legal and 
practical consequences of classifying Internet connectivity service as 
a ``telecommunications service'' to which all the requirements of Title 
II of the Communications Act would apply''?
    Answer. If I am fortunate to be confirmed, I would support closing 
the FCC's June 17, 2010 Notice of Inquiry (GN Docket No. 10-127).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                                Ajit Pai
    Question 1. Do you believe a bipartisan majority of Commissioners 
should be allowed to meet in private for collaborative discussions, 
subject to appropriate disclosure requirements and oversight and should 
a bipartisan majority of Commissioners be able to place an item on the 
Commission's agenda?
    Answer. I believe that allowing a bipartisan majority of 
Commissioners to discuss agency-related matters in private, subject to 
appropriate disclosure requirements and oversight, would improve 
Commission decisionmaking and could be implemented without compromising 
principles of transparency and accountability. Many have suggested that 
current law has the unintended effect of impeding collaboration and 
collegiality among Commissioners, and I sympathize with that view. If 
confirmed, I would pledge to review Commission-level administrative 
policies and procedures in order to ascertain whether it would be 
useful to permit a bipartisan majority of Commissioners to place an 
item on the Commission's agenda.

    Question 2. As you know, President Obama's Executive Order 13563 on 
regulatory reform cannot compel independent agency compliance on 
important matters such as performing cost-benefit analyses. While 
Chairman Genachowski may comply, it does not guaranty the FCC will 
follow the exact same methodology as required by Executive Branch 
agencies, nor does it bind the actions of future chairmen. Do you feel 
the use of cost-benefit analyses in the development of rulemakings is 
important enough that the Commission should adopt a rule requiring its 
use, at least with respect to major rulemakings?
    Answer. I agree with the principle set forth in Section 1 of 
Executive Order 13563 that the benefits of a regulation should justify 
its costs. I also believe that the Commission must have a clear 
understanding of both the benefits and costs of any proposed regulation 
before deciding whether to adopt it, especially in major rulemaking 
proceedings. Indeed, one could argue that implicit in the ``public 
interest'' standard is the notion that the benefits of Commission 
action should outweigh its costs. My understanding is that Chairman 
Genachowski recently initiated a comprehensive regulatory review in 
response to Executive Order 13563, and if confirmed, I would support 
him in efforts to apply cost-benefit analysis to existing regulations. 
It is also my understanding that he has directed agency staff to comply 
with Executive Order 13563 on a going-forward basis, and I support that 
decision as well.

    Question 3. When considering approval the transfer of control of 
licenses, which is what the Commission is really doing when it reviews 
a merger, the FCC often attaches conditions not relevant to the 
transaction, but which allow the FCC to pursue a policy goal without 
benefit of a public rulemaking. How would you approach the FCC's 
consideration of such transfers of control?
    Answer. By statute, the Commission must consider whether the 
transfer of licenses serves ``the public interest, convenience, and 
necessity.'' I would approach the consideration of a license transfer 
by determining, after a thorough review of the record, whether this 
standard is met. I would approach the consideration of merger 
conditions in particular by asking two basic questions. First, has the 
agency identified with particularity a harm that would specifically 
result from consummation of the transaction? Second, is there a merger-
specific condition that is narrowly tailored to address that harm? The 
Commission runs risks when it adopts conditions that do not directly 
remedy transaction-specific harms. For instance, the merger proceeding 
can become an unwieldy forum in which all types of issues not 
specifically related to the transaction are pressed before the agency. 
This not only decreases agency efficiency, but it also inhibits 
transparency because merger conditions are not subject to the same 
notice-and-comment requirements as industry-wide regulations are. 
Additionally, public confidence in the public interest standard 
diminishes to the extent that the public believes the agency is simply 
trying to achieve through piecemeal adjudication what it properly 
should do through a generally-applicable rulemaking. Thus, even if a 
non-merger-specific condition is a good idea as a policy matter, I 
believe that the appropriate context for considering that condition is 
in a rulemaking proceeding, rather than an adjudicatory proceeding 
applicable only to specific parties.

    Question 4. In 1993, Congress voted to fund the FCC entirely 
through fees levied on regulated entities. Congress directed the FCC to 
adopt a funding mechanism that would adjust automatically to reflect 
changes in the agency's workload, its staffing in particular bureaus, 
and economic shifts in regulated communications sectors. To my 
knowledge a requirement that the FCC provide annual updates on its 
efforts to develop a fair & adjustable fee system existed and I do not 
believe any such report has ever reached Congress. Would you add your 
voice to those of other commissioners and chairmen who earlier have 
pledged to finally bring the agency into compliance and rationalize the 
fee system?
    Answer. If confirmed, I would commit to working with Congress and 
my fellow Commissioners to make sure that the regulatory fee system is 
fair and to ensure that the Commission meets its statutory reporting 
obligations.

    Question 5. Does the fact that the FCC's budget is a function of 
regulatory fees that it collects from the industry mean that the FCC 
has too big of an incentive to increase, or at least maintain, its 
regulatory authority? If the FCC imposed fewer regulations and 
regulated fewer entities, would that mean it would have to be a smaller 
agency?
    Answer. If confirmed, I would commit to reviewing the extent to 
which the current regulatory fee structure provides an incentive to 
increase regulatory burdens. Generally speaking, I believe the 
Commission's regulatory fee structure should be fair and that the 
agency should be no larger or more active than is necessary to fulfill 
its obligations under the Communications Act.

                                  <all>

</pre></body></html>
